April – June 2012
                 Message From the Deputy Inspector General


The U.S. Agency for International Development (USAID) Office of Inspector General (OIG) is
responsible for providing oversight of USAID programs and activities. Our work promotes the
integrity of USAID’s programs and activities and the efficiency and effectiveness of its
assistance efforts around the world. Provided limited oversight resources, OIG takes a
targeted approach to executing its mission, prioritizing oversight
activities in high-risk settings of particular interest to Congress and
the administration.

The challenging operating environment in Afghanistan and Pakistan
exposes USAID programs and activities to increased risks of fraud,
waste, and abuse. Because the large-scale programs in these
countries support U.S. national security interests as well as
reconstruction, stabilization, and development goals, oversight of
them is the top priority for OIG.

OIG has been providing oversight of USAID activities in Afghanistan and Pakistan since the
Agency reopened its missions there in 2002. Our oversight covers the full spectrum of USAID
programs and helps ensure that taxpayer dollars are being spent wisely.

We publish the following report quarterly to increase transparency about our work and
observations regarding assistance programs in these countries. This edition of the report
describes OIG’s oversight program in Afghanistan and Pakistan and highlights our activities
from April to June 2012. During this period, OIG completed 5 performance audits and reviews,
issued 9 financial audits, and closed 13 investigations relating to Afghanistan and Pakistan.




                                         Michael G. Carroll
                                         Deputy Inspector General
[Page intentionally left blank]
                                                Table of Contents

USAID OIG Oversight Activities ............................................................................................................ 1

Afghanistan Oversight Program and Activities ............................................................................. 7

Pakistan Oversight Program and Activities ..................................................................................16

Appendixes...................................................................................................................................................29

            Appendix 1 – Suspension and Debarment Exclusions Resulting From
            OIG Investigations .......................................................................................................................29

            Appendix 2 – Recommendations Pending Management Decisions ......................31

            Appendix 3 – Recommendations Pending Final Action After 6 Months .............35

            Appendix 4 – Audited Amounts, Questioned Costs, and
            Funds Recommended to Be Put to Better Use................................................................39

            Appendix 5 – Completed Audit Reports ............................................................................55

            Appendix 6 – Summaries of Performance Audit and Review
            Findings, FYs 2010-2012 .........................................................................................................69

Abbreviations..............................................................................................................................................98
[Page intentionally left blank]
USAID Office of Inspector General Oversight
Established pursuant to the Inspector General Act, as amended, Public Law 95-452 (October 12,
1978), the Office of Inspector General (OIG) is an independent oversight organization within
USAID. Responsible for oversight of approximately $31 billion in foreign assistance funds, OIG
received $51 million in fiscal year (FY) 2012 appropriations.

OIG executes its mission to protect and enhance the in-      Inspector General Act of 1978
tegrity of U.S. Government foreign assistance programs       The Inspector General Act establishes
through audit and investigative efforts. OIG maintains a     OIGs as independent, objective units re-
staff of approximately 195 direct-hire employees and         sponsible for conducting and supervising
38 other personnel such as Foreign Service Nationals         audits and investigations of agency pro-
and reemployed annuitants. OIG staff include auditors,       grams and activities. It directs OIGs to
                                                             provide leadership and coordination and
certified public accountants, investigators, and program
                                                             recommend policies to promote econ-
analysts, as well as specialists in management, budget,
                                                             omy, efficiency, and effectiveness and
information technology, and personnel operations.            prevent and detect fraud and abuse. The
                                                             act also requires Inspectors General to
Approximately 70 direct-hire OIG positions are based         keep Congress and the head of the agency
overseas, and the remaining workforce is stationed in        fully and currently informed about re-
Washington, D.C. OIG has overseas offices in Baghdad,        lated problems and deficiencies and the
Cairo, Dakar, Islamabad, Kabul, Manila, Port-au-Prince,      need for and progress of corrective
Pretoria, San Salvador, and Tel Aviv.                        actions.

Some of OIG’s work is mandated by statute or regulation. Other OIG work is performed after
considering risks associated with program activities and assessing internal control vulnerabilities.
OIG places a high priority on oversight of foreign assistance efforts in Afghanistan and Pakistan and
balances these oversight requirements with other important responsibilities around the world.

     Financial Returns on OIG Work in           OIG’s approach to oversight in these settings has
 Afghanistan and Pakistan, FYs 2003–2012        produced dividends for taxpayers. Whereas we
                                                have expended $28.1 million on oversight activi-
                                                ties in Afghanistan and Pakistan since FY 2003, our
                                                audit and investigative work has yielded
                  USAID OIG                     $359.3 million in returns to the U.S. Government in
            Savings and Recoveries              the form of audit and investigative savings and re-
                    $12.77                      coveries. This amounts to a $12.77 return on each
                                                dollar spent on USAID OIG oversight in these coun-
                                                tries. In addition to these direct savings and re-
                OIG                             coveries, USAID OIG prevents a significant amount
               Costs                            of waste, fraud, and abuse, and contributes to fu-
                $1
                                                ture economies and efficiencies through investiga-
                                                tive and audit work.


USAID OIG Afghanistan and Pakistan Oversight Report                                                     1
Audit Program
OIG auditors, certified public accountants, and program analysts design and conduct audits and
reviews to determine whether USAID programs and operations are working as envisioned. Audit
activities include performance audits of programs, financial statement audits, audits related to
financial accountability of grantees and contractors, and audits of information technology systems.

Performance Audits and Reviews
OIG performance audits and reviews provide an independent assessment of the performance and
management of USAID systems, programs, activities, and functions against objective criteria, best
practices, and other information. Performance audits and reviews address a wide variety of
objectives, including those related to program effectiveness and results; economy and efficiency;
internal controls; and adherence to legal and other requirements and standards.

OIG engages in an extensive planning process to determine where to focus performance audit and
review work. This planning process accounts for program risks and is intended to identify topics
of interest to OIG customers and stakeholders. OIG provides particularly intensive oversight of
programs in high-risk settings such as Afghanistan and Pakistan, where program success or failure
can have national security implications. OIG’s annual plan, which represents the culmination of the
yearly planning cycle, provides information on audits and reviews scheduled for the following
fiscal year. OIG adjusts these plans throughout the year as circumstances warrant.

Financial Audits
USAID OIG uses different approaches to audit USAID funds expended by different types of
organizations.

USAID requires foreign nonprofit organizations that receive USAID awards and expend $300,000
per year or more in USAID funds to undergo an annual financial audit. The organizations contract
with public accounting firms vetted by OIG to conduct the audits, which focus specifically on USAID
funds and follow OIG’s Guidelines for Financial Audits Contracted by Foreign Recipients. For
routine audits, the organization awards the audit contract using a standard statement of work
developed by OIG. OIG reviews final audit reports and transmits them to USAID for action. These
audits are called recipient-contracted audits. For a subset of these audits, OIG performs quality
control reviews that include visits the audit firms, an examination of audit documentation, and
interviews the auditors responsible for the work.

USAID may also award audit contracts directly. For Agency-contracted audits, OIG is involved in
the audit from the outset, approving the audit program, attending entrance and exit briefings, and
approving draft and final audit reports. OIG is responsible for the quality of all recipient-
contracted and Agency-contracted audits.



2                                              USAID OIG Afghanistan and Pakistan Oversight Report
U.S.-based nonprofit organizations that receive federal awards and expend $500,000 or more
annually under the awards are required to be audited under the provisions of the Single Audit Act,
Public Law 98-502 (October 19, 1984), as amended, and Office of Management and Budget Circular
A-133. These A-133 audits cover a sample of expenditures under federal awards.

For-profit entities that receive awards are also subject to financial audits. USAID conducts annual
risk assessments of for-profit entities to decide when a for-profit entity should be audited.
Financial audits of for-profit organizations examine the direct and indirect costs incurred under
                                                    the awards to determine the allowable direct
  Fraud Reporting                                   costs and recommend indirect cost rates. These
  USAID implementing partners are responsible       audits are performed by the Defense Contract
  for reporting allegations of fraud related to     Audit Agency (DCAA) or a public accounting
  USAID projects pursuant to the Federal Acquisi-   firm.
 tion Regulation and USAID requirements.
 USAID award recipients can use this form on          Audits often identify questioned costs and
 USAID OIG’s Web site to satisfy the requirement
                                                      sometimes recommend that funds be put to
 that they notify OIG whenever they have credi-
                                                      better use. Auditors question as ineligible any
 ble evidence that a principal, employee, agent,
                                                      costs that are not reasonable, allowable under
 or subcontractor of USAID has violated the Civil
 False Claims Act or a federal criminal law in-       the terms of the underlying contract or grant,
 volving fraud, conflict of interest, bribery, or     or allocable to the program to which they were
 gratuity violations in connection with a federal     charged. They question as unsupported any
 award or the performance or closeout of a con-       costs that lack evidence, such as bidding docu-
 tract or any related subcontract.                    ments, invoices, or receiving reports, that the
                                                      auditors would need to examine to determine
   Members of the public, USAID employees, and        whether the costs are reasonable, allowable,
   employees of USAID contractors and grantees are    and allocable. USAID contracting or agreement
   encouraged to use the OIG hotline to report fraud,
                                                      officers make final determinations on ques-
   waste, or abuse in USAID programs or activities:
                                                      tioned costs and seek reimbursement for any
       E-mail: IG.Hotline@usaid.gov                   sustained questioned costs. Funds recom-
       Phone: 1-800-230-6539 or                       mended to be put to better use are funds that
       202-712-1023                                   could be used more efficiently if managers take
       Web form: transition.usaid.gov/oig/            action to implement OIG recommendations.
       hotline/hotline.htm
                                                      Unnecessary expenditures that can be avoided
                                                      in the future and costs that will not be incurred
if operational changes are made in response to OIG recommendations are examples of funds put to
better use.

Investigations
OIG conducts investigations into possible violations of federal laws, rules, and regulations to
preserve and protect the integrity of the programs and activities we oversee. OIG investigations of
criminal, civil, and administrative violations cover all facets of USAID programs and operations.


USAID OIG Afghanistan and Pakistan Oversight Report                                                  3
Most OIG investigations are conducted in response to reported allegations of wrongdoing on the
part of Agency personnel or implementing partners. However, OIG also conducts proactive
investigations into programs and activities
vulnerable to fraud.                              Whistleblower Protections
                                                      Whistleblower protections are available to
Complaints regarding USAID programs and ac-           federal employees and applicants who report
tivities may be made through the OIG hotline or       information that is reasonably believed to pro-
in person to OIG personnel. Contractor reports        vide evidence of violations of law, rule, or regu-
of credible allegations of fraud mad in accord-       lation; gross mismanagement; gross waste of
                                                      funds; abuse of authority; or a substantial and
ance with Federal Acquisition Regulation re-
                                                      specific danger to public health or safety (unless
quirements may be made through the OIG Web
                                                      disclosure of such information is specifically
site.                                                 prohibited by law and such information is spe-
                                                      cifically required by executive order to be kept
In order to promote fraud reporting, OIG works        secret in the interest of national defense or the
to establish or link to existing country-specific     conduct of foreign affairs). Retaliation against
hotlines in high-risk environments such as con-       an employee or applicant for making a pro-
flict and postcrisis settings. Recently established   tected disclosure is prohibited by law. Manag-
hotlines like the Anti-Fraud Hotline in Pakistan      ers are strictly prohibited from taking, failing to
are supported by local marketing efforts, transla-    take, or threatening to take or not take a per-
tion services, and top-of-the-line security con-      sonnel action on an employee or applicant be-
trols, vetting, and analytical capabilities.          cause of the employee’s or applicant’s disclo-
                                                      sure of covered information.

When our investigations confirm allegations of
                                                      OIG protects the confidentiality of complain-
wrongdoing, OIG special agents collaborate with       ants’ identity pursuant to Section 7(b) of the
U.S. and local law enforcement and prosecutors,       Inspector General Act. This provision prohibits
other federal agencies and offices, and imple-        the disclosure of the identity of an employee
menting partners to put a stop to the prohibited      who reports an allegation without first obtain-
activity. OIG special agents are sworn law en-        ing the employee’s consent unless OIG deter-
forcement officers with the authority to carry        mines that disclosure is unavoidable during the
firearms, execute search warrants, and make           course of the investigation.
arrests.

Outreach and Coordination
Outreach and coordination are important elements of the oversight process, and OIG extensively
engages in these activities. OIG investigators conduct fraud awareness briefings to alert
participants to fraudulent practices and schemes and to provide guidance on how to report fraud if
it is encountered. OIG auditors provide training to Agency personnel, host-government audit
authorities, and local audit firms on cost principles and federal audit and accountability
procedures and requirements.




4                                                USAID OIG Afghanistan and Pakistan Oversight Report
USAID OIG works with other law enforcement agencies including the Federal Bureau of
Investigation’s International Contract Corruption Task Force, the National Procurement Fraud
Task Force, the Financial Crimes Enforcement Network, and U.S. embassies’ legal attaché offices to
coordinate investigative work, eliminate duplication, and maximize the efficient use of government
resources.

When OIG identifies fraud, waste, or abuse in foreign assistance programs, we seek to neutralize
this activity by all legal means at our disposal. OIG routinely works with prosecutors from the U.S.
Department of Justice to put an end to civil and criminal violations and frequently works with
other U.S.-based and foreign prosecutorial authorities to bring perpetrators to justice.
Investigative findings on administrative matters are referred to Agency management for action.
OIG also works with USAID implementing partners to resolve investigative matters with a bearing
on their activities.

OIG auditors work closely with Agency managers to address our findings and identify appropriate
corrective actions to be taken in response to our recommendations. We also routinely collaborate
and consult with other oversight organizations. We work with DCAA in conducting audits, reviews,
and preaward surveys related to foreign assistance programs. USAID OIG employees regularly
meet with representatives from the OIGs of the Departments of State and Defense to coordinate
plans, reports, and activities of mutual interest. We also work with the Government Accountability
Office (GAO) in developing our audit plans to prevent duplication and ensure effective
coordination.

OIG is also a key participant in the Southwest Asia Joint Planning Group. The group, which is led by
the Department of Defense OIG, helps coordinate oversight of U.S. Government activities in
Southwest Asia. Representatives from the Office of Inspector General for the Department of State,
DCAA, the Government Accountability Office, the Special Inspector General for Afghanistan
Reconstruction, and the Special Inspector General for Iraq Reconstruction also participated in the
group. The group issues an annual coordinated oversight plan for the region that includes planned
and ongoing oversight activities by the member organizations.

OIG has taken a leadership role in working to harmonize audit standards among international
donors, working initially with eight bilateral donors. We work extensively with supreme audit
institutions and public accounting firms overseas and endeavor to expand and deepen those
relationships wherever they would be mutually beneficial.

Oversight Challenges
OIG oversight activities in Afghanistan and Pakistan are not without challenge. Delays in visa
approvals and the limited tours of duty that correspond to hardship posts have affected plans for
audit work. Travel requirements imposed by host governments and security-related restrictions
on the movement of U.S. Government employees have sometimes limited our ability to perform


USAID OIG Afghanistan and Pakistan Oversight Report                                               5
site visits. In the past, building constraints have limited our ability to deploy personnel and
provide them with appropriate work space.

OIG’s human capital footprint is structured to address core oversight requirements. OIG has
sought to build a staff surge capacity to address short- to medium-term oversight requirements.
An important part of OIG’s success in conflict and postcrisis settings has been the organization’s
temporarily enhanced hiring authority. The Supplemental Appropriations Act of 2010, Public
Law 111-212 (July 29, 2010), gave OIG the authority to waive compensation restrictions for
reemployed annuitants so that they can earn pay for their services while receiving retirement
benefits. This authority has enabled OIG to hire experienced personnel with the specialized skills
required to respond to emerging oversight needs. OIG has used this authority in both Afghanistan
and Pakistan. This OIG authority will expire at the end of FY 2012 unless Congress acts to extend
it.




6                                              USAID OIG Afghanistan and Pakistan Oversight Report
Flood plain cultivation is shown with the Pamir Mountains as a backdrop in Wakhan, Afghanistan. (Photo by
John Winnie Jr., Wildlife Conservation Society-Afghanistan, 2011)




Afghanistan Oversight Program and Activities
USAID OIG provides oversight of USAID activities in Afghanistan through an intensive program of
audits, investigations, and outreach and coordination activities.

To execute this program as effectively as possible, OIG has expanded its presence in Afghanistan in
recent years. In the past, OIG provided oversight remotely using personnel based in Washington,
D.C., and our regional office in the Philippines. In 2009, we established a permanent, on-the-
ground presence in Kabul. As of June 30, 2012, our Country Office in Afghanistan had
13 personnel.

OIG spent approximately $18.5 million to provide oversight for Afghanistan from FY 2003 through
the third quarter of FY 2012. USAID OIG oversight activities there during the same period
produced $230.7 million in returns for the U.S. Government.

The U.S. Government reopened the USAID mission in Kabul in 2002. Since FY 2002, USAID has
provided approximately $14.0 billion to increase Afghan stability, provide humanitarian
assistance, and address needs in education, health, economic growth, and governance.



USAID OIG Afghanistan and Pakistan Oversight Report                                                         7
In recent years, OIG has covered a wide array of
USAID programs in Afghanistan, including those
for relief and stabilization, reconstruction,
economic growth, education, and health care.
Since the start of FY 2003, USAID OIG has issued
100 financial audits, performance audits, and
reviews of Afghanistan-related assistance efforts.
These reports made 355 recommendations for
improvements to USAID programs and activities.

Performance Audits and Reviews

USAID OIG has issued 52 performance audits and
reviews relating to USAID programs and activities
in Afghanistan since FY 2003. Performance audits
and reviews conducted in recent years have noted Map of Afghanistan. (Central Intelligence Agency
the need for improvements in a range of World Factbook, 2011)
management and performance areas. Six in ten reports have identified contract or project
management deficiencies and noncompliance with relevant procedures or regulations. Four in ten
have found internal control weaknesses, and more than a third have noted risks to project
sustainability and that security problems hampered project implementation or monitoring.

OIG completed two performance audits in Afghanistan during the quarter:

    Audit of USAID/Afghanistan’s Incentives Driving Economic Alternatives for the North, East,
    and West Program (Report No. F-306-12-004-P, June 29, 2012). USAID/Afghanistan’s
    Incentives Driving Economic Alternatives for the North, East, and West is a $150 million, 5-year
    program that began in March 2009 and is implemented through a consortium led by
    Development Alternatives Inc. (DAI), with Mercy Corps and ACDI/VOCA as subimplementers.
    The program, which was designed to dissuade Afghans from growing poppy plants by
    increasing access to legal, commercially viable, alternative sources of income, was achieving
    only mixed results. For example, in 2010 and 2011, the program reported repairing or
    constructing only 80 of the 161 miles of transportation infrastructure targeted.

    Changes in program focus and staff turnover slowed progress. Beginning in 2009, the focus of
    the program shifted away from communities where poppies were cultivated. Continual change
    in staff at the mission, its Office of Agriculture, and among implementing partners was another
    hindrance. Since the inception of the program, DAI has had five project directors, while the
    mission has had six directors and three agreement officer’s technical representatives (now
    called agreement officer’s representatives). Incoming personnel came with different visions of
    the program, had varying priorities and operating styles, and in many cases did not document
    changes to the program.


8                                               USAID OIG Afghanistan and Pakistan Oversight Report
    The mission’s monitoring and documentation were inadequate. Mission staff had not made any
    documented site visits after the program’s inception. In fact, both Mercy Corp and DAI project
    directors commented that the OIG auditors were the first USAID staff who had ever visited the
    project. Further, although the program agreement officer’s representative was receiving
    quarterly and annual progress reports, he was neither analyzing those reports nor confirming
    the accuracy of reported data. The progress reports submitted by DAI included mathematical
    errors and other inconsistencies that could have been identified by basic checks. The financial
    status of the subawards was also not monitored. For example, Mercy Corp had spent 86
    percent of its program budget with more than 2 years left in the program.

    Involvement of the host government in planning is an important component of fostering
    sustainability; however, officials in several of Afghanistan’s Directorate of Agriculture,
    Irrigation, and Livestock offices said that they were not asked for their input into the design
    and planning of projects. In addition, activities had a disproportionate number of men,
    demonstrating that a gender balance was not maintained as required.

    The program’s cash-for-work projects lacked policies on worker hours, ages, and safety.
    Minors were illegally performing heavy labor—including one 13-year-old who we
    interviewed—and implementers confirmed that hiring minors is a common practice. Further,
    implementing partners did not consistently provide basic personal safety equipment to the
    workers.

    OIG made 18 recommendations to address these problems. Management decisions have been
    made on 14 recommendations, and final action has been taken on 4.

    Audit of USAID/Afghanistan’s Internal Controls in the Administration of the Involuntary
    Separate Maintenance Allowance (Report No. F-306-12-003-P, June 25, 2012). The
    separate maintenance allowance is a nontaxable cost-of-living allowance that USAID may
    provide to “assist an employee to meet the additional expenses of maintaining members of
    family elsewhere than at the employee’s foreign post of assignment.”1           In 2011,
    USAID/Afghanistan paid more than $2 million in involuntary separate maintenance allowance
    (ISMA)2 to 212 people.

    OIG determined that the mission had not established internal controls to help ensure that ISMA
    applications complied with applicable laws and regulations and that compliance was
    documented. Staff members responsible for reviewing and approving ISMA applications
    admitted they did not have a defined set of internal controls to apply when reviewing ISMA


1 Department  of State Standardized Regulations, Section 260, “Separate Maintenance Allowance.”
2 Involuntary separate maintenance allowance is used when the employee is assigned to a post where he or she is
unable to bring family members.



USAID OIG Afghanistan and Pakistan Oversight Report                                                           9
     applications. In fact, the former supervisory executive officer said she assumed someone had
     reviewed ISMA applications before sending them to her for approval.

     OIG also determined that although the mission had established internal controls to help ensure
     that ISMA payments complied with applicable laws and regulations, those controls did not
     prevent improper payments. In several cases, the mission made ISMA payments for
     dependents who had reached or passed the age of 21 and who were not eligible for those
     payments. In addition, the mission incorrectly underpaid one employee and delayed a $13,000
     payment by more than 20 months. These incorrect payments occurred because the mission did
     not have written procedures or tools, such as checklists, to guide its staff and because
     employees involved in the payment process were not familiar with the ISMA guide.

     OIG made eight recommendations to correct these problems. Management decisions have been
     reached on five recommendations, and final action has been taken on two.

Three additional OIG performance reviews and audits were under way on June 30, 2012:

     Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program
     (CERP) Funds for Selected Projects. The objectives of this review are to determine
     (1) whether CERP funds provided to USAID by U.S. Forces-Afghanistan for specific projects
     were used for their intended purposes and in compliance with applicable laws and regulations,
     and (2) whether costs charged to CERP-funded projects were reasonable, allowable, and
     allocable.

     Review of USAID/Afghanistan’s Monitoring and Evaluation System. This review will
     assess whether the USAID mission in Afghanistan has a monitoring and evaluation system in
     place to manage program activities effectively.

     Audit of USAID/Afghanistan’s Kandahar Power Initiative. This audit will determine
     whether the Kandahar Power Initiative is meeting its goal of increasing the supply and
     distribution of electrical power from Afghanistan's South East Power System.

In addition to these performance audits, OIG has six others planned for FY 2012. They will address
the following topics:

     The Regional Afghan Municipalities Program for Urban Populations for Regional Platforms
     Transition plans
     Internal controls for payroll
     Contracts and cooperative agreements
     Use of third-country national employees
     Follow-up on selected OIG recommendations


10                                              USAID OIG Afghanistan and Pakistan Oversight Report
Financial Audits
In addition to organization-wide audits of U.S.-based firms operating in Afghanistan, OIG has
overseen 48 financial audits of Afghanistan-based programs and activities since FY 2003. These
financial audits have covered more than $1.168 billion in funds and identified approximately
$150.1 million in questioned costs. Of this total, USAID had sustained more than $34.7 million in
questioned costs by the end of the reporting period.

OIG works with private accounting firms to conduct financial audits in Afghanistan. Before using
any private accounting firms for this type of work, OIG assesses their capability to perform the
work. As of June 30, 2012, USAID OIG had a roster of 14 eligible audit firms to call on in
Afghanistan.

In addition to required audits of local recipients and U.S.-based nongovernmental organizations
(NGOs) and for-profit entities operating in Afghanistan, USAID funds audits of all locally incurred
costs to enhance accountability for its programs.

From April 1 to June 30, 2012, OIG issued one financial audit in Afghanistan:

   Financial Audit of Local Costs Incurred by International Relief and Development Inc.
   Under the Strategic Provincial Roads—Southern and Eastern Afghanistan Program,
   Cooperative Agreement No. 306-A-00-08-00509-00, for the Period October 1, 2009, to
   September 30, 2010 (Report No. F-306-12-006-N). This audit covered approximately
   $96 million in local costs incurred under a program designed to rehabilitate roads in southern
   and eastern Afghanistan. Auditors did not question any program costs, but faced significant
   impairments in their work. They were unable to physically verify road rehabilitation activities
   or compliance with terms and conditions of relevant agreements because security conditions
   prevented them from making planned visits to work sites. The auditors noted, however, that
   an independent evaluation of the program found that International Relief and Development’s
   quality assurance system—a key control that the firm relied on in paying its subcontractors—
   was weak. The evaluation also concluded that USAID did not receive value for its money given
   the number of kilometers of road completed under the program. In light of this conclusion and
   the scope impairments faced by auditors in assessing the reasonableness of costs charged by
   subcontractors, OIG recommended that USAID determine whether costs incurred were
   reasonable in relation to program goals and objectives.

As of June 30, 2012, 12 financial audits of USAID funds were in progress in Afghanistan:

   Concurrent Financial Audit of the Costs Incurred in the United States by Louis Berger
   Group Inc. Under the Afghanistan Infrastructure Rehabilitation Program, USAID Contract
   No. 306-P-00-10-00505-00, for the Period August 25, 2006, to September 30, 2008.



USAID OIG Afghanistan and Pakistan Oversight Report                                             11
     Financial Audit of Costs Incurred by the American University of Afghanistan Under
     USAID Cooperative Agreement No. 306-A-00-08-00525-00, for the Period July 1, 2009, to
     December 31, 2010.

     Closeout Financial Audit of Costs Incurred and Billed by Oasis International Schools Inc.
     for the Establishment of the International School of Kabul Under USAID Agreement
     No. 306-A-00-05-00522-00, for the Period May 27, 2005, to December 31, 2010.

     Concurrent Financial Audit of Local Costs Incurred and Paid in Afghanistan by Louis
     Berger Group Inc. / Black & Veatch Joint Venture Special Projects Corp. Under USAID
     Contract No. 306-I-00-06-00S17, for the Period October 1, 2010, to August 25, 2011.

     Financial Audit of Costs Incurred in Afghanistan by CNFA Under the Afghanistan Farm
     Services Alliance Program, USAID Award No. 306-A-00-08-00517-00, for the Period
     January 1, 2010, to September 30, 2011.

     Closeout Financial Audit of USAID Resources Managed by Creative Associates
     International Inc. Under the Ambassador’s Small Grants Program, USAID Cooperative
     Agreement No. 306-A-00-09-00517-00, for the Period July 2, 2009, to January 31, 2012.

     Financial Audit of the Local Costs Incurred and Paid in Afghanistan Under USAID
     Contract No. 306-EEM-I-04-07-00005 With Deloitte Consulting for the Period August 15,
     2009, to September 30, 2010.

     Financial Audit of Costs Incurred in Afghanistan by the Asia Foundation Under the
     Afghan Public Opinion Survey Program, USAID Award No. 306-A-00-09-00514-00, for the
     Period June 23, 2009, to September 30, 2011.

     Closeout Financial Audit of USAID Resources Managed by the International Organization
     for Migration Under the Afghan Civilian Assistance Program, USAID Cooperative
     Agreement No. 306-A-00-07-00516-00, for the Period June 5, 2007, to November 30,
     2011.

     Financial Audit of USAID Resources Managed by the Independent Directorate of Local
     Governance Under the District Delivery Program, USAID Award No. 306-IL-10-04-01, for
     the Period April 1, 2010, to March 20, 2012.

     Closeout Financial Audit of USAID Resources Managed by the Ministry of
     Communications and Information Technology to Implement Policy Capacity Initiative
     Activity Under USAID Award No. 306-IL-09-12-0004-00, for the Period October 1, 2010,
     to March 31, 2011.


12                                            USAID OIG Afghanistan and Pakistan Oversight Report
   Closeout Financial Audit of the Fund Accountability Statement of USAID Resources
   Managed by the Government of the Islamic Republic of Afghanistan through the Ministry
   of Transport and Civil Aviation Under the Regional Airports Project, USAID Award
   No. 306-IL-11-05-17, for the Period January 9, 2011, to July 31, 2012.

Thirty-five other financial audits of USAID funds in Afghanistan were in the planning stage at the
end of the quarter. In addition to these audits, OIG plans to audit USAID/Afghanistan’s financial
statements as part of its overall USAID financial statement audit for FY 2012.

Investigations
As of June 30, 2012, USAID OIG had 62 ongoing investigations pertaining to Afghanistan. During
the reporting period, OIG investigators opened 6 cases in Afghanistan and closed 11 others. Since
FY 2003, OIG has initiated 188 investigations
related to Afghanistan. These investigations have   Investigative Outcomes
been associated with a range of different types of  Since FY 2003, OIG investigations in Afghanistan
allegations. In most cases, underlying allegations  have resulted in:
have pertained to program fraud (37 percent) or          38 referrals for civil or criminal prosecution
bribery and kickbacks (24 percent).
                                                           13 arrests

During the April 1 through June 30, 2012, re-              13 indictments
porting period, one OIG investigation led to the
                                                           11 convictions and pleadings
termination of a local USAID employee, and an-
other resulted in the debarment of an employee             102 administrative actions (e.g., contract and
of a USAID implementing partner in Afghanistan:            employee terminations)

                                                           $163 million in savings and recoveries
   Afghan National Employee Terminated for
   Theft. A local employee of USAID/Afghanistan was terminated after an OIG investigation
   revealed that he had stolen cell phone cards valued at approximately $2,000. The terminated
   employee was responsible for purchasing and distributing cards to other Afghans working for
   USAID for use with their government cell phones. The investigation also revealed
   USAID/Afghanistan had weak internal controls related to phone card accountability. After
   receiving a referral memorandum from OIG, USAID/Afghanistan improved its internal controls
   in this area to prevent similar incidents from occurring in the future.

   Implementing Partner’s Employee Debarred for Theft of More Than $250,000. An Afghan
   employee of a contractor implementing several USAID programs in Afghanistan was debarred
   by USAID after stealing more than $250,000. The employee was a member of the USAID
   contractor’s local staff and was part of a team responsible for providing logistical support to
   several USAID projects. The employee altered a check written for approximately $200 and
   redeemed it at a local bank for more than $250,000 in cash. The USAID contractor detected the
   theft and did not pass the cost on to USAID, instead reporting the matter to OIG for further

USAID OIG Afghanistan and Pakistan Oversight Report                                                    13
     investigation. While the employee has not been located, USAID used information provided by
     OIG to debar him from participation in future U.S.-funded projects.

Outreach and Coordination
OIG investigators conduct fraud awareness briefings to alert participants—employees, contractors,
grantees, and subrecipients—to fraudulent practices and schemes and to provide guidance on how
to report fraud. OIG has provided 124 fraud awareness briefings in Afghanistan to 2,460
participants since FY 2003. During the reporting period, special agents in Afghanistan delivered
six fraud awareness briefings attended by 167 participants.

OIG conducts many of its investigations in association with other law enforcement agencies, often
in association with the International Contract Corruption Task Force to detect, investigate, and
dismantle corruption and contract fraud resulting from U.S. contingency operations.3 When cases
involving Afghan nationals are declined for prosecution by the U.S. Department of Justice, the
matters are presented to the local public prosecutor, with whom OIG has developed a successful
working relationship.

OIG also has a close working relationship with USAID/Afghanistan, and investigators regularly
brief the mission’s contracting personnel on fraud detection and prevention. OIG provides an
orientation to all incoming USAID staff members in Afghanistan on their role in helping promote
effectiveness and accountability in USAID projects and programs, as well as on the operating
environment in Afghanistan, fraud indicators, and the OIG’s audit and investigative programs.

OIG has also established working relationships with many implementing partners and regularly
provides fraud awareness briefings for their staff. OIG also supports implementing partners in
their efforts to identify and address allegations of fraud by quickly referring cases to USAID’s Office
of Acquisitions and Assistance (OAA) and to local prosecutors when appropriate. OIG continues to
collaborate with OAA by referring entities for possible suspension or debarment and meeting
regularly to review referrals. As this process becomes more robust, it will become increasingly
difficult for individuals to prey on multiple USAID projects. Since FY 2011, OAA has taken
suspension or debarment actions against 40 individuals and firms based on OIG referrals related to
Afghanistan.

USAID OIG coordinates audit plans and ongoing activities with other oversight bodies through the
Inspector General Shura, a body made up of the OIGs for USAID and the Departments of State and
Defense, the Special Inspector General for Afghanistan Reconstruction, and GAO.


3
  Overseas contingency operations are operations in which members of the armed forces have been or may become
involved in military actions, operations, or hostilities against an enemy, or for which active duty members of the
uniformed services have been called to order or retained (10 U.S.C. §101(a)(13)).



14                                                    USAID OIG Afghanistan and Pakistan Oversight Report
                                  [Page intentionally left blank]




USAID OIG Afghanistan and Pakistan Oversight Report                 15
This field was cultivated under USAID’s Agricultural Recovery Project in Khyber Pakhtunkhwa, Pakistan.
(Photo by USAID/Pakistan, March 2011)




Pakistan Oversight Program and Activities
USAID OIG provides oversight of USAID activities in Pakistan through rigorous audit and
investigative work and extensive outreach and coordination.

To execute this program as effectively as possible, OIG has expanded its presence in Pakistan in
recent years. In the past, OIG provided oversight remotely using personnel based in Washington,
D.C., and our regional office in the Philippines. In 2009, we established a permanent, on-the-
ground presence in Islamabad. As of June 30, 2012, OIG’s Pakistan Country Office had 14
permanent staff supplemented by a staff member on temporary duty.

OIG spent approximately $9.7 million to provide oversight for Pakistan from FY 2003 through the
third quarter of FY 2012. USAID OIG oversight activities there during the same period produced
$128.5 million in returns to the U.S. Government.

The U.S. Government reopened the USAID mission in Islamabad in 2002. From FY 2002 through
the third quarter of FY 2012, USAID provided approximately $5.9 billion to address needs in
education, health, economic growth, and good governance and to help with reconstruction and
recovery after earthquakes, floods, and armed conflict.


16                                               USAID OIG Afghanistan and Pakistan Oversight Report
In recent years, OIG has covered an array of USAID
programs in Pakistan, for relief and stabilization,
reconstruction, sustainable development, education,
and health care. Since the start of FY 2003, USAID
OIG has issued 84 financial audits, performance
audits, and reviews of Pakistan-related assistance
efforts. These reports made 152 recommendations
for improvements to USAID programs and activities.

Performance Audits and Reviews
USAID OIG has issued 23 performance audits and
reviews relating to USAID programs and activities
in Pakistan since FY 2003. Performance audits and
reviews conducted in recent years have noted the
need for improvements in a range of management Map of Pakistan. (Central Intelligence Agency
and performance areas. Most have identified World Factbook, 2011)
contract or project management deficiencies, and
more than four in ten have found internal control weaknesses and noncompliance with relevant
procedures or regulations.

From April 1 to June 30, 2012, OIG completed two performance audits and one review.

    Audit of USAID/Pakistan’s Support to the Benazir Income Support Program (Report
    No. G-391-12-006-P, May 21, 2012). The Government of Pakistan launched the Benazir
    Income Support Program in 2008 to provide a permanent cash support mechanism for families
    in poverty. To support this effort, USAID/Pakistan signed an $85 million cash transfer grant
    agreement with the Government of Pakistan. The Government of Pakistan and USAID/Pakistan
    signed an amendment to the agreement in June 2010, providing $75 million in additional
    funding and bringing the total amount to $160 million.4 Under the terms of the agreement,
    upon receiving the USAID cash transfer, the Pakistani Government is supposed to deposit the
    equivalent amount of Pakistani rupees immediately in a special local currency account to
    support program payments to eligible families. The mission must approve disbursements of
    funds from the U.S. dollar account to the program, and the mission’s program office is
    responsible for monitoring the agreement.

    OIG found that the first installment of $85 million transferred to Pakistan in February 2010 was
    disbursed by the program to approximately 480,000 beneficiaries, and that a USAID-
    commissioned survey documented that 98 percent of randomly sampled beneficiaries had

4The Benazir Income Support Program is not a USAID program; it is a Government of Pakistan program receiving
budget support from USAID through Agreement No. 391-012-01.



USAID OIG Afghanistan and Pakistan Oversight Report                                                      17
     received payments. OIG’s review of a statistically valid sample of program records found that
     recipients’ names, addresses, and payments were accurate.

     However, OIG found problems with the second installment of $75 million. As of March 2012,
     the mission had not authorized the Government of Pakistan to transfer the money to the
     program because mission officials were unable to verify that the program had implemented an
     effective monitoring and evaluation plan. The mission requested documentation of an effective
     monitoring and evaluation plan multiple times; however, the Government of Pakistan had not
     yet complied with these requests. USAID/Pakistan had also not received any bank statements
     from the Government of Pakistan since the program’s inception in 2009. Consequently, when
     the Pakistani Government transferred funds from the authorized special local currency account
     and comingled them in a general budget account in September 2010, the mission was not
     aware of the transfer. Mission officials indicated that staff turnover had contributed to the
     difficulties in obtaining information. Over the previous 20 months, four mission program
     managers had supervised the program, and similar turnover had occurred among Government
     of Pakistan officials.

     Management decisions were made on all three report recommendations, and final action has
     been taken on two.

     Audit of USAID/Pakistan’s Entrepreneurs Project (Report No. G-391-12-005-P, April 20,
     2012). USAID’s 5-year, $30 million cooperative agreement with Mennonite Economic
     Development Associates is designed to increase the incomes of predominantly female owners
     of microenterprises in in Pakistan. The project provided local partners with training on USAID
     financial management, procurement, and human resource requirements as well as technical
     instruction on the value chain concept5 to help owners of microenterprises increase output and
     improve their commodities’ quality and marketability. Local partners assisted in developing
     value chains in four sectors: dairy, embellished fabrics, medicinal and aromatic plants, and
     honey.

     OIG found that the project trained more entrepreneurs than expected in business development,
     and achieved 80 percent of its target for providing training in business management and
     marketing. However, efforts to build capacity in developing value chains did not start until
     May 2011, almost 2 years after the award. Two factors contributed to the delays. First,
     USAID/Pakistan used project resources to provide assistance to people in the Swat Valley
     displaced as a result of conflict and floods in 2010. Mission officials acknowledged this work
     diverted time and resources from the project’s activities, as no additional funding was provided
     to cover the costs. Second, local partners’ lack of awareness of the value chain concept caused


5
 A value chain includes the full range of activities required to bring a product or service from concept to end use. Value
chains include activities such as design, production, marketing, and distribution.



18                                                         USAID OIG Afghanistan and Pakistan Oversight Report
   delays in implementing the project. Specifically, the project undertook a laborious process to
   select and train local partners before work could begin to help owners of microenterprises. As
   a result, as of December 2011, only $6.6 million had been allocated to helping microenterprise
   owners develop value chains.

   In addition, the program made little progress in developing one of its target sectors—the honey
   sector—because the mission took longer than expected to approve the local partner’s grant
   application and then required an additional feasibility study before proceeding. Finally,
   because USAID/Pakistan had not yet started tracking changes in beneficiaries’ incomes, it was
   not possible to determine whether the program was achieving its overall goal of substantially
   increasing their incomes. The report made two recommendations to address related issues.

   The report made two recommendations to address these issues, and management decisions
   have reached on both.

   Review of USAID/Pakistan’s Cost Estimates for Shipping and Storage (Report No. G-391-
   12-001-S, June 18, 2012). Employees transferring to Pakistan are eligible to ship personal
   effects of up to 2,000 pounds by sea and 1,000 pounds by air. They are also entitled to ship one
   vehicle and to place items in storage. To cover the shipping and storage expenses associated
   with these transfers, USAID/Pakistan obligates an estimated amount, typically $25,000, though
   sometimes more. Mission officials did not know how their predecessors had arrived at this
   estimate, so OIG conducted a review to develop a more reasonable estimate for obligating
   funds for the shipping and storage of goods for USAID employees assigned to Pakistan.

   By reducing the standard obligation conservatively to $15,000, OIG found that the mission
   could put approximately $480,000 annually—or $2.4 million over 5 years—to better use. The
   report also recommended that the mission review $860,000 in unliquidated shipping and
   storage-related obligations for possible deobligation.

   In response to the recommendations, the mission reduced the standard shipping and storage
   obligation to $15,000 and completed its review of unliquidated obligations, resulting in a total
   deobligation of $653,259.

As of June 30, 2012, USAID OIG had three performance audits in progress.

   Audit of USAID/Pakistan’s Reconstruction Activities in Earthquake-Affected Areas. The
   objective of this audit is to determine whether USAID/Pakistan’s reconstruction activities in
   earthquake-affected areas are being implemented effectively.

   Audit of USAID/Pakistan’s Assessment and Strengthening Program for Local
   Organizations and Government of Pakistan Entities. This audit will determine whether the



USAID OIG Afghanistan and Pakistan Oversight Report                                             19
     program is improving the capacity of local organizations and Government of Pakistan entities
     to manage USAID funds responsibly.

     Audit of USAID/Pakistan’s Gomal Zam Multipurpose Dam Project. This audit will
     determine whether USAID/Pakistan’s funding to complete the Gomal Zam Multipurpose Dam
     contributed to achieving overall project goals related to power generation, irrigation, and flood
     control.

OIG has plans to conduct two other performance audits during FY 2012. They will assess
USAID/Pakistan’s design for sustainability in the Jamshoro Thermal Power Station Repair and
Maintenance Activity and its Monitoring and Evaluation Program.

Financial Audits
In addition to organization-wide audits of U.S.-based firms operating in Pakistan, OIG has overseen
61 financial audits of Pakistan-based programs and activities since FY 2003. These financial audits
have covered more than $844.2 million in funds and identified approximately $7.8 million in
questioned costs. Of this total, USAID has sustained almost $3.2 million in questioned costs.

OIG has developed relationships with local institutions, such as the Auditor General of Pakistan, to
help strengthen the accountability environment. OIG’s memorandum of understanding with the
Auditor General permits that organization’s audits to be accepted as meeting the requirement for
annual audits of Pakistani Government entities implementing USAID-funded programs. Before
accepting Auditor General audits as meeting this requirement, however, OIG reviews them to
verify that they were performed in accordance with OIG guidelines. OIG recently provided a
financial audit training session with a segment on fraud awareness to the Auditor General’s staff.

OIG also uses local accounting firms to conduct financial audits in Pakistan. Before using any local
firms for this type of work, OIG assesses their capability to perform the work. As of June 30, 2012,
USAID OIG had a roster of 28 eligible audit firms in Pakistan to call on. OIG has nearly doubled the
size of this roster since the start of FY 2010.

From April 1 to June 30, 2012, USAID OIG issued six financial audits and two quality control
reviews:

     Financial Audit of the USAID Resources Managed by the National Rural Support
     Programme (NRSP), for the Period July 1, 2010, to June 30, 2011 (Report No. G-391-12-
     008-R, April 3, 2012). The audit covered total revenues of $10,200,917 and costs of
     $9,942,572 under USAID agreements and subagreements managed by NRSP. The audit
     concluded that, with the exception of the effects of questioned ineligible costs of $39,745, the
     fund accountability statement presented fairly, in all material respects, program revenues and
     costs incurred under the agreements for the period audited. The questioned costs pertained to


20                                               USAID OIG Afghanistan and Pakistan Oversight Report
   interest earned on bank balances that had not been refunded to USAID. The audit firm did not
   identify any material weakness in internal control, but identified two material instances of
   noncompliance—one associated with the questioned costs, and the other related to the
   recipient’s not fully complying with the requirement to vet vendors to deter terrorism
   financing. The report made two recommendations.

   Financial Audit of the Monitoring and Evaluation Project, USAID/Pakistan Contract
   No. 391-C-00-10-01138-00,         and     Assessment      and     Strengthening     Program,
   USAID/Pakistan Cooperative Agreement No. 391-C-00-10-01203-00, Managed by
   Associates in Development (Private) Limited, for the Period January 1, 2010, to June 30,
   2011 (Report No. G-391-12-009-R, April 17, 2012). The audit covered total revenues of
   $2,564,077 and costs of $2,560,600. Of this total, OIG questioned $316,937. OIG also identified
   ten significant deficiencies in internal control—including the failure to perform conflict-of-
   interest checks and the use of unreasonable rates in compensating personnel—and a number
   of material instances of noncompliance. The report made three recommendations to address
   these matters.

   Financial Audit of the Pakistan Children’s Television Project, USAID/Pakistan Agreement
   No. 391-A-00-10-01161-00, Managed by the Rafi Peer Theatre Workshop, for the Period
   May 7, 2010, to June 30, 2011 (Report No. G-391-12-010-R, April 17, 2012). This audit
   covered total revenues of $2,630,336 and costs of $906,523. Auditors concluded that, with the
   exception of the effects of unsupported costs of $15,629, the fund accountability statement
   presented fairly, in all material respects, program revenues and costs incurred under the
   agreement for the period audited. These unsupported costs pertained to equipment and other
   direct program expenses for which the auditee did not provide bills, invoices, or other
   adequate documentation. OIG questioned an additional $595,394 in personnel costs because of
   a lack of personnel activity reports and the cumulative effect of associated weaknesses and
   deficiencies in internal controls. Auditors also questioned $121,523 in costs claimed as part of
   the cost-sharing arrangement with USAID. Some of these costs were ineligible for
   reimbursement by USAID, and others lacked any supporting documentation.

   Auditors also identified numerous internal control weaknesses and several instances of
   noncompliance. OIG concluded that 15 internal control weaknesses found by auditors were
   material. These weaknesses included issues with the recruitment, hiring, and payment of
   personnel; integrity of financial records; and improper classification of costs. OIG determined
   that 11 instances of noncompliance identified by auditors were also material, including the
   auditee’s lack of a conflict-of-interest policy, omission of mandatory contract clauses, and
   failure to broadcast television productions within prescribed time frames. The report made
   five recommendations.

   Financial Audit of Projects Managed by Lahore University of Management Sciences:
   Foreign Recipient-Contracted Audit of the Assessment and Strengthening Program

USAID OIG Afghanistan and Pakistan Oversight Report                                             21
     Under Cooperative Agreement No. 391-A-00-11-01202-00, and Subrecipient-Contracted
     Audit of the Merit and Needs-Based Scholarship Program Under Grant Agreement
     No. 391-G-00-04-01023-00, for the Year Ended June 30, 2011 (Report No. G-391-12-011-
     R, April 24, 2012). This audit covered total revenues of $197,619 and costs of $281,774.
     Auditors concluded that the fund accountability statement presented fairly, in all material
     respects, revenues and costs incurred under the agreements for the period audited. Auditors
     did not identify any significant deficiencies or material weaknesses in internal control, but
     found four material instances of noncompliance relating to the hiring of key staff, unsigned
     agreements, deficiencies in internal procedures, and incomplete monitoring and evaluation
     plans. The audit made one recommendation to address these issues.

     Financial Audit of USAID/Pakistan Grant Agreement No. 391-IL-00-08-01111-00
     Managed by the Health Service Academy, for the Period July 1, 2010, to June 30, 2011
     (Report No. G-391-12-012-R, May 10, 2012). The audit covered total revenues of $569,115
     and costs of $565,021 associated with a USAID-funded project to develop and strengthen
     Pakistani institutional capacity in public health training and research. Auditors concluded that,
     except for the effects of $4,989 in unsupported costs, the fund accountability statement
     presented fairly, in all material respects, program revenues and costs incurred under the
     cooperative agreement for the period audited. Some procurement costs were questioned
     because required documentation supporting the procurement decisions was not available. The
     audit also found two material weaknesses in internal control associated with the questioned
     costs. The audit made three recommendations.

     Financial Audit of the Gender Equity Program, USAID/Pakistan Agreement No. 391-A-00-
     10-01162-00, Managed by the Aurat Publication and Information Service Foundation, for
     the Period August 15, 2010, to June 30, 2011 (Report No. G-391-12-013-R, June 12,
     2012). The audit covered total revenues of $1,044,234 and costs of $1,044,234 and concluded
     that the fund accountability statement presented fairly, in all material respects, program
     revenues and costs incurred under the agreement for the period audited. However, auditors
     identified a material weakness in internal control related to the failure to implement an
     internal audit plan, and found a significant deficiency related to the implementation of the
     project monitoring system. The report made one recommendation to address these issues.

     Quality Control Review of the Audit Report and Audit Documentation for the Financial
     Audit Conducted by Avais Hyder Liaqut Nauman of the Anti-Corruption Program in
     Pakistan, USAID/Pakistan Cooperative Agreement No. 391-A-00-09-01117-00, and the
     Anti-Fraud Hotline Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-10-
     01194-00, Managed by Transparency International–Pakistan, for the Year Ended
     June 30, 2011 (Report No. G-391-12-002-Q, April 3, 2012). USAID OIG auditors examined
     audit documentation to determine whether the audit firm performed the audit in accordance
     with Government Auditing Standards issued by the Comptroller General of the United States and
     OIG Guidelines for Financial Audits Contracted by Foreign Recipients. The review revealed

22                                               USAID OIG Afghanistan and Pakistan Oversight Report
   nine instances in which the audit firm did not fully comply with audit documentation
   requirements. While the audit work generally met requirements, based on the findings of this
   quality control review, OIG continued to designate the audit firm as having only conditional
   approval to perform audits of USAID awards.

   Quality Control Review of the Audit Report and Audit Documentation for the Financial
   Audit Conducted by Ernst & Young Ford Rhodes Sidat Hyder of the Gender Equity
   Program, USAID/Pakistan Cooperative Agreement No. 391-A-000-10-011622-00,
   Managed by Aurat Publication and Information Service Foundation, for the Period
   August 15, 2010, to June 30, 2011 (Report No. G-391-12-003-Q, June 12, 2012). USAID
   OIG auditors examined audit documentation to determine whether the audit firm performed
   the subject audit in accordance with applicable auditing standards and guidance. The review
   concluded that the audit firm complied with relevant requirements, but identified other areas
   in which the audit firm could improve compliance in future audits of USAID awards.

As of June 30, 2012, USAID OIG had 13 financial audits and 2 agreed-upon procedures
engagements in progress:

   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
   Statistics (Economic Affairs Division) Under the Cash Transfer Grant Agreement, Activity
   No. 391-012-IL-03 for University and Technical Education in FATA Through the Pakistan
   Higher Education Commission, for the Period September 30, 2009, to June 30, 2010.

   Financial Audit of USAID Funds Managed by the Ministry of Economic Affairs and
   Statistics (Economic Affairs Division) Under the Assistance Agreement, Activity No. 391-
   011 for Implementation of Assistance Programs for the Population of Conflict Affected
   Areas, Managed by the Provincial Disaster Management Authority, for the Year Ended
   June 30, 2011.

   Financial Audit of USAID Funds Managed by the Water and Power Development
   Authority Under Agreement No. 391-TDR-FARA-002-00 for the Year Ended June 30,
   2011.

   Financial Audit of USAID Funds Managed by the Water and Power Development
   Authority Under Agreement No. 391-PEPA-ENR-GOMAL-PIL-001, for the Year Ended
   June 30, 2011.

   Financial Audit of USAID Funds Managed by the Water and Power Development
   Authority Under Agreement No. 391-PEPA-ENR-SATPARA-PIL-001, for the Year Ended
   June 30, 2011.




USAID OIG Afghanistan and Pakistan Oversight Report                                          23
     Financial Audit of USAID Funds Managed by Jamshoro Power Company Limited Under
     Agreement No. 391-JAM-FARA-003-00, for the Year Ended June 30, 2011.

     Financial Audit of USAID Funds Managed by Northern Power Generation Company
     Limited Under Agreement No. 391-MUZ-FARA-004-00, for the Year Ended June 30, 2011.

     Financial Audit of USAID Funds Managed by the Provincial Reconstruction,
     Rehabilitation and Settlement Authority Under Agreement Nos. 391-MLK-FARA-001-00
     and 391-MLK-FARA-002-00 for the Reconstruction of Schools, for the Period April 9,
     2010, to June 30, 2011.

     Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
     No. 391-SWA-FARA-001-00 for the Widening and Improvement of the Jandola-Kotkai-
     Sararogha Road, for the Year Ended June 30, 2011.

     Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
     No. 391-AAG-011-SWA-TANK for the Tank-Kaur and Kaur-Jandola Road, for the Year
     Ended June 30, 2011.

     Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
     No. 391-013-002 for the Kaur-Gomal-Tanai-Wana Road, for the Year Ended June 30,
     2011.

     Financial Audit of USAID Funds Managed by the FATA Secretariat Under Agreement
     No. 391-013-001 for the Reactivation and Rehabilitation of Damaged Transformers,
     33-Kilovolt High-Tension and 11-Kilovolt Low-Tension Lines, for the Period March 10 to
     June 30, 2011.

     Financial Audit of USAID Funds Managed by the Higher Education Commission Under the
     Merit and Needs-Based Scholarship Program, USAID Activity No. 391-G-00-04-01023-00,
     for the Year Ended June 30, 2011.

     Agreed Upon Procedures Review of USAID/Pakistan Resources Managed by the Rural
     Support Programs Network Under Agreement No. 391-A-00-11-01213-00 for the Sindh
     Agricultural Recovery Project, for the Period November 13, 2010, to July 31, 2011.

     Agreed-Upon Forensic Procedures Review of USAID/Pakistan Resources Managed by the
     Rafi Peer Theatre Workshop Under Agreement No. 391-A-00-10-01161-00 for the
     Pakistan Children’s Television Project, for the Period May 7, 2010, to May 30, 2012.




24                                          USAID OIG Afghanistan and Pakistan Oversight Report
In addition to the above, OIG plans to conduct a financial audit of USAID/Pakistan’s financial
statements as part of its overall USAID financial statement audit for FY 2012.

Investigations
As of June 30, 2012, USAID OIG had 25 ongoing investigations pertaining to Pakistan. During the
reporting period, OIG investigators opened one case in Pakistan and closed two others. Since
FY 2003, OIG has initiated 85 investigations
related to Pakistan. These investigations have     Investigative Outcomes
been associated with a range of different types of    Since FY 2003, OIG investigations in Pakistan
allegations. In most cases, underlying allegations    have resulted in:
have pertained to program fraud (32 percent) or          6 referrals for civil or criminal prosecution
bribery and kickbacks (32 percent).
                                                         1 civil judgment
During the April 1 through June 30, 2012,                37 administrative actions (e.g., contract and
reporting period, an OIG investigation resulted in       employee terminations)
the termination of a USAID contract and the
                                                         $102 million in savings and recoveries
proposed debarment of a USAID implementing
partner:

   USAID Ends $20 Million Pakistan Children’s Television Project. In late 2011, OIG initiated
   an investigation into the Pakistan Children’s Television Project implemented by the Rafi Peer
   Theater Workshop, after receiving numerous complaints regarding the project through the
   Anti-Fraud Hotline. To date, the OIG investigation has revealed significant violations of USAID
   procurement policies and standards. In May 2012, OIG referred its initial findings to the USAID
   mission in Pakistan. Later that month, USAID agreed with the Rafi Peer Theater Workshop to
   end their $20 million cooperative agreement. OIG’s investigation is ongoing.

   USAID Proposes Sindh Rural Support Organization for Debarment. In February 2012, OIG
   referred the Sindh Rural Support Organization to USAID for debarment based on a year-long
   investigation of alleged mismanagement, theft, and corruption associated with its participation
   in several USAID-funded projects. To date, the investigation has resulted in the termination of
   23 of the organization’s personnel. Two individuals were terminated in April 2012 after the
   OIG investigation revealed that they had harassed a group of villagers who had filed complaints
   with the Anti-Fraud Hotline and ultimately had the villagers sign falsified documentation
   indicating that they had received payment under a USAID project when they had not. The
   investigation revealed that the organization’s CEO sent the employees to the village and that
   the falsified documents were submitted as an official response to the ongoing OIG
   investigation. USAID proposed the Sindh Rural Support Organization for debarment in early
   May 2012. Based on the findings of a related forensic audit conducted by the World Food
   Programme (WFP) in conjunction with USAID OIG, WFP permanently suspended the
   organization from participation in future projects in late March 2012.


USAID OIG Afghanistan and Pakistan Oversight Report                                                      25
     OIG Investigation Results in Employee Termination and Referral for Debarment. An OIG
     investigation related to the $50 million Small Grants and Ambassador’s Fund Program
     implemented by the National Rural Support Programme revealed that an NRSP employee
     conspired with a program grantee to falsify project-related financial documentation. The
     investigation revealed that the grantee, the Peshawar-based Khushal Welfare Organization
     (KWO) fabricated documentation indicating that workers had been paid as part of an $86,000
     agricultural rehabilitation grant when, in fact, they had not. The falsified documentation was
     submitted to substantiate claims that KWO met its cost-sharing requirements under the grant.
     During the OIG investigation, an NRSP employee admitted to knowingly certifying the falsified
     documentation. NRSP terminated the employee involved in the misconduct in March 2012.
     USAID OIG has referred the NRSP employee and KWO to USAID for possible suspension or
     debarment.

Outreach and Coordination
USAID OIG collaborates with the OIGs for the Departments of State and Defense to prepare a
quarterly report on the progress and oversight of the U.S. Government’s civilian assistance
program in Pakistan. Now in its tenth edition, this report provides information on developments
related to the full scope of U.S. civilian assistance programs and activities in Pakistan. The report
informs stakeholders about progress achieved to date, problems encountered during program
implementation, and actions taken to address them.

                                                            Accessing the Hotline
With the aim of increasing reporting on fraud, waste,
and abuse in assistance programs, OIG and                   The Anti-Fraud Hotline operates 24 hours
                                                            a day and accepts allegations in English,
USAID/Pakistan collaborated to establish an antifraud       Urdu, Pashto, Baloch, and Punjabi.
hotline in Pakistan. The Anti-Fraud Hotline became
fully operational in February 2011. This 5-year project     Complaints may be made to the hotline via
is funded by a cooperative agreement between                a toll-free number (0800-84700), online
USAID/Pakistan and Transparency International-              (www.anti-fraudhotline.com), by mail or
Pakistan in partnership with OIG.                           fax, or in person.


OIG is solely responsible for handling complaints received through the hotline. During the
reporting period, USAID OIG also continued to work closely with the hotline to vet and investigate
incoming complaints. This quarter, the hotline received 591 complaints.

As in the previous three quarters, most hotline complaints originated from Sindh Province in
southeastern Pakistan, the seat of Pakistan’s largest city and site of flooding last fall. During this
quarter, total complaints by province were as follows: Sindh 454 (77 percent), Punjab 55
(9 percent), Balochistan 32 (5 percent), and Khyber Pakhtunkhwa 18 (3 percent). Other provinces
and administrative areas in Pakistan combined to account for 5 percent of complaints.




26                                               USAID OIG Afghanistan and Pakistan Oversight Report
As shown in the following graphic, the majority of complaints received during the reporting period
related to service delivery.


                       Distribution of Hotline Complaints by Type

                                     12%

                      19%                    6%
                                                           Solicitation of Bribe, Kickback, or Favor
                                                  1%
                                                           Theft of Goods

                                                           Procurement Fraud

                                                           Problem with Service Delivery

                                                           Other
                               62%




               Source: Transparency International–Pakistan.

Since its introduction in February 2011, the Anti-Fraud Hotline has been widely advertised on
television, radio, newspaper, and billboards. As the only one of its kind in Pakistan, the hotline has
received a large volume of complaints related to programs implemented by other agencies. USAID
OIG refers these complaints to the appropriate agency for further review and investigation. From
April 1 to June 30, 2012, OIG referred 186 hotline complaints to outside entities, including WFP,
the U.N. Children’s’ Fund, the U.N. Development Programme, the U.N. Office for Project Services, the
U.N. Food and Agriculture Organization, Pakistan’s Benazir Income Support Program, Save the
Children, Mercy Corps, and NRSP.

OIG also works closely with hotline personnel to monitor and address complaints regarding viola-
tions of the Pakistan Public Procurement Rules (PPR) of 2004 in the tendering of USAID-funded
projects being carried out by the Government of Pakistan. Allegations of PPR violations received
through the hotline are handled in accordance with the procedures set forth in the PPR, which
require the tendering government agency to review and respond to the complaint within a set
period. When a violation of the PPR has occurred, the tendering agency is required to cancel or
correct the procurement. If the issue is not properly resolved by the tendering agency, the
Pakistan Public Procurement Regulatory Agency and the Supreme Court of Pakistan can intervene.




USAID OIG Afghanistan and Pakistan Oversight Report                                                    27
          A billboard advertises the Anti-Fraud Hotline to passersby in Pakistan’s Punjab
          Province. (Photo by OIG, 2011)


OIG has established a working relationship with Pakistan’s National Accountability Bureau (NAB),
the primary law enforcement agency in Pakistan responsible for investigating white-collar crime
and public corruption and the only national law enforcement agency authorized to conduct
investigations in the Federally Administered Tribal Areas (FATA). OIG has coordinated efforts
with NAB since early 2010 and collaborates with it on investigations.

OIG investigators also conduct fraud awareness briefings to alert participants—employees,
contractors, grantees, and subrecipients—to fraudulent practices and schemes and to provide
guidance on how to report fraud. OIG has provided 46 fraud awareness briefings in Pakistan to
1,183 participants since FY 2003. During the reporting period, special agents in Pakistan delivered
seven fraud awareness briefings attended by 128 participants.

OIG also provides training on standards and requirements for financial audits of U.S. Government
funds. During the quarter, OIG provided this training to 73 participants from NGOs, 13 Pakistani
government officials, and 19 staff members at USAID/Pakistan. In FY 2012, USAID OIG also
provided this training to 13 employees of Pakistan’s Office of the Auditor General and
55 participants from 24 local public accounting firms.




28                                             USAID OIG Afghanistan and Pakistan Oversight Report
Appendix 1 – Suspension and Debarment Exclusions
Resulting From OIG Investigations
OIG works with USAID’s OAA to prevent individuals and organizations that are not presently
responsible from receiving federal awards. OIG gives information to OAA to assist with Agency
determinations on whether to suspend or debar individuals and organizations, thereby preventing
them from receiving federal contracts, grants, cooperative agreements, and other awards. In some
cases, information from OIG contributes to determinations by other agencies to exclude entities
from participating in federal awards.

OIG investigations in Afghanistan and Pakistan have been an important source of information for
USAID in making suspension and debarment decisions. The following individuals and
organizations were ineligible for federal awards as of June 30, 2012, following determinations
made pursuant to Afghanistan- and Pakistan-related information that was developed by our office.



                   Excluded Entity                    Action Date   End Date

Suspensions

   Cameron, Ian                                        02/24/12      02/24/13
   Peel, Ian                                           03/12/12      03/12/13
   Wolff, Derish                                       12/22/11      Indefinite

Debarments
   Ahsan Aman Construction Company (AACC)              08/01/11      05/24/14
   Burrows, Bryan Lee                                  06/02/10      05/27/13
   Campbell, Neil P.                                   04/25/12      10/18/13
   Masud, Atif                                         08/27/10      08/27/13
   McMonigle, Ryan Scott                               05/07/10      05/07/13
   Mehr, Behzad                                        12/13/11      09/27/14
   Mohammad, Raz (Roz)                                 08/01/11      05/24/14
   Pellettieri, Precy                                  07/15/11      01/11/14
   Pepe, Salvatore                                     07/15/11      01/11/14
   Samimi, Mohammed Qaseem                             02/09/12      11/15/12
   Sediqi, Ahman Samim                                 01/12/11      01/11/14
   SERVCOR, LLC                                        07/05/11      12/15/13
   Ziarmal, Akhtar Nawaz                               06/27/12      06/26/15




USAID OIG Afghanistan and Pakistan Oversight Report                                          29
Other Exclusions
     Walker, Scott Anthony*                                   02/05/10            02/04/15


* Prohibited from serving in a management or supervisory capacity on any Department of Defense
(DOD) contract or first-tier subcontract; serving on the board of directors, or as a consultant,
agent, or representative for any DOD contractor or first-tier subcontractor; or serving in any
other capacity with the authority to influence, advise, or control the decisions of any DOD
contractor or subcontractor with regard to any DOD contract or first-tier subcontract.




30                                                     USAID OIG Afghanistan and Pakistan Oversight Report
Appendix 2 – Recommendations Pending Management
Decisions
USAID OIG establishes the basis for audit findings and recommendations to persuade Agency
officials that recommended corrective actions are warranted. Agency officials communicate their
agreement or disagreement with OIG recommendations upon review of draft OIG reports. When
Agency officials agree with an OIG recommendation and present a plan of action with milestones
that would fully address the recommendation, OIG determines that a management decision has
been reached.

The following OIG recommendations were pending management decisions as of June 30, 2012.
USAID management decisions were pending on 13 recommendations related to Agency programs
in Afghanistan and on 12 relating to Pakistan. The following table lists these recommendations by
country and by the USAID office to which the recommendation was directed. Recommendations
that have been pending management decisions longest are listed first.


 Report
                         Report Title*                                      Recommendation
  Date

Afghanistan

    USAID/Afghanistan

02/15/12    Financial Audit of Local (non-U.S.) Costs    1.   Determine the allowability of and recover, as
            (Costs Incurred and Paid in Afghanistan)          appropriate, questioned costs of $2,196,583 identified
            Under USAID Contract No. 306-I-00-06-             in the fund accountability statement.
            00517-00 With the Joint Venture Louis
                                                         2.   Ensure that the Joint Venture Louis Berger Group
            Berger Group Inc./Black & Veatch Corp.
                                                              Inc./Black & Veatch Special Projects Corp. (LBGI/B&V)
            for the Period October 1, 2009, to
                                                              corrects the 20 material weaknesses and 8 significant
            September 30, 2010 (F-306-12-004-N)
                                                              deficiencies identified in the report.
                                                         3.   Ensure that LBGI/B&V corrects the four material
                                                              instances of noncompliance identified in the report.

05/12/12    Financial Audit of Local Costs Incurred by   1. Determine whether the costs incurred by International
            International Relief and Development Inc.       Relief and Development Inc. under the Strategic
            Under the Strategic Provincial Roads—           Provincial Roads—Southern and Eastern Afghanistan
            Southern and Eastern Afghanistan Program,       during the period October 1, 2009, to September 30,
            Cooperative Agreement No. 306-A-00-08-          2010, were reasonable in relation to the program goals
            00509-00, for the Period October 1, 2009,       and objectives.
            to September 30, 2010 (F-306-12-006-N)




USAID OIG Afghanistan and Pakistan Oversight Report                                                              31
 Report
                        Report Title*                                    Recommendation
  Date

06/25/12   Audit of USAID/Afghanistan's Internal       1. Develop, implement, and document controls to help
           Controls in the Administration of the          confirm that the involuntary separate maintenance
           Involuntary Separate Maintenance               allowance applications approved for personal service
           Allowance (F-306-12-003-P)                     contractors are properly authorized and comply with
                                                          Section 260 of the Department of State Standardized
                                                          Regulations.
                                                       4. Reassess controls over involuntary separate
                                                          maintenance allowance payments and make any
                                                          adjustments necessary to strengthen the effectiveness
                                                          of those controls in preventing improper payments.
                                                       8. Calculate and recover the home leave travel costs paid
                                                          for dependent family members of the two U.S. direct-
                                                          hire employees who already had involuntary separate
                                                          maintenance allowance authorized for those
                                                          dependents.
                                                       9. Develop, implement, and document controls to help
                                                          prevent the authorization of Foreign Service benefits
                                                          that are incompatible with involuntary separate
                                                          maintenance allowance for mission employees’ family
                                                          members.
                                                       10. Review all employees receiving involuntary separate
                                                           maintenance allowance in FYs 2010, 2011, and 2012 to
                                                           determine whether those employees or their
                                                           dependent family members received incompatible
                                                           Foreign Service benefits, and recover any incompatible
                                                           benefits paid.
06/29/12   Audit of USAID/Afghanistan's Incentives     1. Assess the focus and location of program activities, as
           Driving Economic Alternatives for the          necessary, to maximize the program’s contribution to
           North, East, and West Program                  dissuading Afghans from growing poppies, and define
           (F-306-12-004-P)                               and use intermediate results, performance indicators,
                                                          baselines, and targets to assess progress toward that
                                                          underlying objective.
                                                       5. Develop and implement a risk-based monitoring plan
                                                          for the program that includes periodic site visits.




32                                                   USAID OIG Afghanistan and Pakistan Oversight Report
 Report
                         Report Title*                                       Recommendation
  Date

                                                          9. Require its implementing partner to develop and
                                                             implement a formal monitoring system that includes
                                                             the development and execution of annual monitoring
                                                             plans covering the programmatic and financial aspects
                                                             of the program; reporting and analysis against those
                                                             plans; the inclusion of subimplementers in those
                                                             monitoring plans, reporting, and analysis; and the
                                                             verification of reported results, including supporting
                                                             documentation.
                                                          18. Develop mission-wide policies and procedures
                                                              governing cash-for-work and community-constructed
                                                              infrastructure projects. These policies and procedures
                                                              should include the employment of minors, safety of
                                                              workers, and responding to injuries in compliance with
                                                              Afghan labor law.

Pakistan

    USAID/Pakistan

11/03/11    Audit of USAID/Pakistan’s Firms Project       5.   Determine the allowability of $1,359,337 in
            (G-391-12-001-P)                                   unsupported questioned costs and recover those
                                                               costs determined to be unallowable.
04/17/12    Financial Audit of the Monitoring and         1.   Determine the allowability of and recover, as
            Evaluation Project and Assessment and              appropriate, ineligible questioned costs of $290,823
            Strengthening Program Managed by                   identified in the fund accountability statement.
            Associates in Development (Private)
                                                          2.   Determine the allowability of and recover, as
            Limited, for the Period January 1, 2010, to
                                                               appropriate, questioned costs of $26,114 identified in
            June 30, 2011 (G-391-12-009-R)
                                                               the management letter.
                                                          3.1. Ensure that Associates in Development (Private)
                                                               Limited corrects the significant deficiencies in internal
                                                               controls identified in the audit report and
                                                               management letter.
                                                          3.2. Ensure that Associates in Development (Private)
                                                               Limited corrects the material instances of
                                                               noncompliance identified in the audit report and
                                                               management letter.




USAID OIG Afghanistan and Pakistan Oversight Report                                                                 33
    Report
                            Report Title*                                        Recommendation
     Date

04/19/12       Financial Audit of the Pakistan Children’s     1.   Determine the allowability of and recover, as
               Television Project Managed by the Rafi              appropriate, unsupported questioned costs of
               Peer Theatre Workshop, for the Period               $15,629 in the fund accountability statement.
               May 7, 2010, to June 30, 2011
                                                              2.   Determine the allowability of and recover, as
               (G-391-12-010-R)
                                                                   appropriate, unsupported questioned costs of
                                                                   $595,394 identified in this memorandum and
                                                                   associated with findings of the audit report and
                                                                   management letter.

                                                              3.1. Ensure that the Rafi Peer Theatre Workshop
                                                                   corrects the material weaknesses in internal controls
                                                                   identified in the audit report and management letter.
                                                              3.2. Ensure that the Rafi Peer Theatre Workshop
                                                                   corrects the significant deficiencies in internal
                                                                   controls identified in the audit report.
                                                              3.3. Ensure that the Rafi Peer Theatre Workshop
                                                                   corrects the material instances of noncompliance
                                                                   identified in the audit report and management letter.

                                                              4.   Determine the allowability of and recover, as
                                                                   appropriate, questioned cost-sharing contributions of
                                                                   $121,523 identified in the cost-sharing schedule.
06/12/12       Financial Audit of the Gender Equity           1.   Ensure that the Aurat Publication and Information
               Program Managed by the Aurat Publication            Service Foundation corrects the material
               and Information Service Foundation, for             weakness/significant deficiency in internal control
               the Period August 15, 2010, to June 30,             identified in the audit report and material instance of
               2011 (G-391-12-013-R)                               noncompliance detailed in the management letter.

*
     Hyperlinks are provided to the OIG performance audits and reviews referenced in this table and the tables in the
     following two appendixes. OIG does not normally publish financial audits because they frequently contain
     proprietary financial information. Hyperlinks are not available for these reports as a result.




34                                                          USAID OIG Afghanistan and Pakistan Oversight Report
Appendix 3 – Recommendations Pending
Final Action After 6 Months
After we have agreed to the course of action USAID managers have proposed to address an OIG
recommendation, we track the implementation of the actions. When the Agency confirms that
corrective actions have been taken, we consider that USAID has taken final action on the
recommendation and that it is closed. In some cases, we conduct follow-up audits and reviews to
verify that corrective actions were taken and that they have had the intended effect of improving
Agency programs and operations.

Final action had been pending for 6 months or longer on the following recommendations as of
June 30, 2012. In particular, final action had been pending for 6 months or more on 22 recom-
mendations related to USAID programs in Afghanistan and on 3 relating to Pakistan. Target action
dates that have been revised since management decisions were reached are indicated in italics
below. Those that have passed without final action are indicated in red. Recommendations that
have been pending final action longest are listed first.


Date                  Report                                      Recommendation                              Target
                                                                                                            Action Date

Afghanistan

    USAID/Afghanistan

06/19/11   Audit of USAID/Afghanistan's Support     7.   Establish procedures and criteria for                08/30/12
           to the Electoral Process (STEP) and           determining the reasonableness of security
           Support for Increased Electoral               costs charged by implementing partners.
           Participation in Afghanistan (IEP)
           Programs (F-306-11-003-P)

08/23/11   Financial Audit of Technologist Inc.’s   1.   Determine the allowability of and recover, as        08/30/12
           Costs Incurred/Billed Under USAID             appropriate, questioned costs of $6,563,050
           Task Order No. 306-O-00-04-00539-             detailed in the report.
           00, for the Afghanistan Industrial
           Estate Development Program for the
           Period May 24, 2004, Through
           December 31, 2007 (F-306-11-001-D)

08/31/11   Review of USAID/Afghanistan’s            2.   Determine the allowability of and recover as         08/15/12
           Afghan Civilian Assistance Program            appropriate from the International Organization
           (F-306-11-005-S)                              for Migration the cost of stored food that is no
                                                         longer fit for human consumption, which we
                                                         estimate at up to $2,660,924.




USAID OIG Afghanistan and Pakistan Oversight Report                                                                35
Date                  Report                                       Recommendation                                Target
                                                                                                               Action Date

                                                     4.   Determine the allowability of and recover, as          08/15/12
                                                          appropriate, the $1,360,800 in shelter assistance
                                                          grants in Helmand Province that could not be
                                                          verified.

                                                     5.   Arrange for a financial audit of the Afghan             08/15/12
                                                          Civilian Assistance Program to help ensure that
                                                          the costs charged to USAID are reasonable,
                                                          allowable, and allocable.

                                                     6.   Determine the allowability of and recover, as           08/15/12
                                                          appropriate, $180,000 that was reportedly
                                                          embezzled from the program.

                                                     7.   Determine the allowability of and recover, as           08/15/12
                                                          appropriate, the $3,437,000 that the
                                                          International Organization for Migration spent
                                                          to buy used vehicles without USAID approval.

09/29/11   Audit of USAID/Afghanistan’s On-          3.   In collaboration with the Ministry of Public            08/30/12
           Budget Funding Assistance to the               Health, develop a plan to (1) identify a pool of
           Ministry of Public Health in Support of        qualified civil service employees who would
           the Partnership Contracts for Health           benefit from capacity-building training to sustain
           Services Program (F-306-11-004-P)              the ministry’s capacity for managing the
                                                          Partnership Contracts for Health Services
                                                          Program and (2) provide the training.

                                                     4.   Work with the Ministry of Public Health and the         08/30/12
                                                          Ministry of Finance to streamline the payment
                                                          process to accelerate payments to
                                                          nongovernmental organization contractors and
                                                          health workers.

                                                     5.   Work with the Ministry of Public Health and the         08/30/12
                                                          Ministry of Finance to (1) implement written
                                                          policies and procedures that clearly define the
                                                          roles, responsibilities, and approval authorities
                                                          for the payment process and (2) provide further
                                                          training on the advance/liquidation mode of
                                                          payment process.

                                                     6.   Work with the Ministry of Public Health and the         08/30/12
                                                          Ministry of Finance to implement procedures
                                                          limiting the frequency of changes made to the
                                                          payment process and providing sufficient
                                                          notification and clear instructions to
                                                          nongovernmental organization contractors on
                                                          any changes.



36                                                        USAID OIG Afghanistan and Pakistan Oversight Report
Date                   Report                                       Recommendation                               Target
                                                                                                               Action Date

                                                      7.   Review internal administrative procedures, such        08/30/12
                                                           as the processing of implementation letters, to
                                                           ensure the smooth and timely flow of the
                                                           payment process for on-budget assistance
                                                           agreements.

                                                      8.   Issue a mission order to provide an                    08/30/12
                                                           organizational framework with clearly defined
                                                           roles and responsibilities of all mission offices
                                                           responsible for managing on-budget assistance
                                                           activities.

                                                      9.   Provide a formal designation letter similar to an      08/30/12
                                                           officer's technical representative designation
                                                           letter to staff members monitoring
                                                           implementation of on-budget assistance
                                                           agreements.

                                                      13. In collaboration with the Ministry of Public            08/30/12
                                                          Health, implement a plan to confirm and
                                                          document accurate GPS coordinates for the
                                                          ministry's health facilities.

10/03/11   Financial Audit of the Partnership         1.   Determine the allowability of and recover, as          08/31/12
           Contracts for Health Services                   appropriate, questioned costs of $1,328,310
           Program Managed by the Ministry of              detailed in the report.
           Public Health, for the Period July 20,
           2008, Through September 22, 2010
           (F-306-12-001-N)

10/31/11   Financial Audit of the Ministry of         3.   Ensure that the Ministry of Finance Salary             08/30/12
           Finance Salary Support Program,                 Support program corrects the one material
           USAID/Afghanistan Project                       instance of noncompliance identified in the
           Implementation Number 306-IL-10-                report.
           01, Managed by the Ministry of
           Finance, for the Period June 6 to
           September 30, 2010 (F-306-12-003-
           N)
11/13/11   Audit of USAID/Afghanistan's               13. (1) Identify the districts in which it intends to       12/31/12
           Afghanistan Stabilization Initiative for       implement post-transition development projects,
           the Southern Region                            (2) develop transition plans for districts in which
           (F-306-12-001-P)                               it plans to implement future projects, and
                                                          (3) develop closeout plans for districts where it
                                                          will not implement new projects.




USAID OIG Afghanistan and Pakistan Oversight Report                                                                    37
Date                  Report                                    Recommendation                               Target
                                                                                                         Action Date

12/20/11   Independent Financial Audit of Black   1.   Determine the allowability of and recover, as         10/15/12
           & Veatch Special Projects                   appropriate, unsupported questioned costs of
           Corporation’s Direct Costs Incurred         $32,198,382.
           and Billed on Contract No. 306-I-00-
           06-00517-00 From August 25, 2006,
           to September 30, 2008
           (F-306-12-001-D)

12/26/11   Review of Responses to Internal        3.   Determine the allowability of $2,019,036 in           06/05/12
           Audit Findings on the Local                 questioned costs related to services procured
           Governance and Community                    without full and open competition and recover
           Development Project                         from Development Alternatives Inc. any amounts
           (F-306-12-001-S)                            determined to be unallowable.

                                                  6.   Determine the allowability of $4,782 in               08/30/12
                                                       questioned costs related to fees for unapproved
                                                       seating upgrades charged to the Local
                                                       Governance and Community Development
                                                       Project and recover from Development
                                                       Alternatives Inc. any amounts determined to be
                                                       unallowable.

                                                  7.   Contract for a financial audit of Development         09/30/12
                                                       Alternatives Inc.'s Local Governance and
                                                       Community Development Project to determine
                                                       whether all the costs charged to USAID were
                                                       reasonable, allowable, and allocable.

Pakistan

     USAID/Pakistan

12/10/10   Audit of USAID/Pakistan’s Livelihood   4.   Make a management decision regarding the              06/05/12
           Development Program in the Lower            allowability of $767,841 in questioned costs
           Region of the Federally Administered        identified in the financial review and recover
           Tribal Areas (G-391-11-001-P)               those costs determined to be unallowable.

11/03/11   Audit of USAID/Pakistan’s Firms        5.   Verify that Chemonics has corrected all               06/30/12
           Project (G-391-12-001-P)                    procurement deficiencies identified in this report.

11/23/11   Audit of USAID/Pakistan’s Energy       1.   Discontinue the tube well program under the           06/30/12
           Efficiency and Capacity Program             Energy Efficiency and Capacity Program at the
           (G-391-12-002-P)                            end of the contract period unless the mission
                                                       develops an action plan to reach program goals.




38                                                     USAID OIG Afghanistan and Pakistan Oversight Report
Appendix 4 – Audited Amounts, Questioned Costs, and
Funds Recommended to Be Put to Better Use
Financial audits examine designated funds over a given period of time. The dollar value of the
funds audited, regardless of whether they are defined in terms of costs, expenditures, or revenues,
is the amount audited.6 As shown in the following table, OIG has presided over financial audits of
more than $2.0 billion in USAID funds since FY 2003.

Financial audits, like performance audits and reviews, sometimes identify questioned costs and
recommend that funds to be put to better use. Questioned costs are costs determined not to be
allowable, allocable, or reasonable, or costs for which auditors could not make a determination the of
allowability, allocability, or reasonableness because documentation or other evidence to support the
costs was not available for auditors’ review. USAID contracting or agreement officers make final
determinations on identified questioned costs and seek reimbursement for any questioned costs that
they sustain. Funds recommended to be put to better use are funds that could be used more
efficiently if managers take action to implement OIG recommendations. When Agency managers
agree to implement related OIG recommendations, the Agency is regarded as having agreed that the
funds could be put to better use.

The following table provides information on dollars audited during the course of financial audits.
It also lists all financial audits, performance audits, and reviews that identified questioned costs or
funds recommended to be put to better use since FY 2003. This information is presented alongside
Agency determinations regarding these funds—i.e., determinations to sustain questioned costs or
agree that funds could be put to better use. The corresponding audit reports are listed by country
and presented in reverse chronological order.


    Date                                        Report Title and Number

                   Amount              Questioned           Amount          Funds to Be Put         Amount
                  Audited ($)            Costs             Sustained         to Better Use         Agreed To

 Afghanistan

06/25/12       Audit of USAID/Afghanistan's Internal Controls in the Administration of the Involuntary Separate
               Maintenance Allowance (F-306-12-003-P)

                             N/A              3,833               3,833                    –                  –




6Because performance audits and reviews do not apply the same procedures as financial audits, we do not
compute an amount audited for that work.



USAID OIG Afghanistan and Pakistan Oversight Report                                                               39
     Date                                     Report Title and Number

                Amount               Questioned           Amount           Funds to Be Put         Amount
               Audited ($)             Costs             Sustained          to Better Use         Concurred

            Financial Audit of Local Costs Incurred by International Relief and Development Inc. Under the
            Strategic Provincial Roads—Southern and Eastern Afghanistan Program, Cooperative Agreement
05/12/12
            No. 306-A-00-08-00509-00, for the Period October 1, 2009, to September 30, 2010
            (F-306-12-006-N)

                   95,940,175                   –                      –                    –                   –

            Financial Audit of Costs Incurred in Afghanistan Under USAID Contract No. 306-DOT-I-01-08-
03/15/12    00033-00 With Chemonics International Inc. for the Period October 1, 2009, to September 30,
            2010 (F-306-12-005-N)

                   13,839,901                   –                      –                    –                   –

            Financial Audit of the Local (Non-U.S.) Costs (Costs Incurred and Paid in Afghanistan) Under
02/15/12    USAID Contract No. 306-I-00-06-00517-00 With the Joint Venture Louis Berger Group Inc./Black
            & Veatch Corp., for the Period October 1, 2009, to September 30, 2010 (F-306-12-004-N)

                  10,779,108             2,196,583                  –                   –                   –

            Review of Responses to Internal Audit Findings on the Local Governance and Community
12/26/11
            Development Project (F-306-12-001-S)

                         N/A             2,939,360              4,782                   –                   –

            Independent Financial Audit of Black & Veatch Special Projects Corporation, Direct Costs Incurred
12/20/11    and Billed on Contract No. 306-I-00-06-00517-00, From August 25, 2006, to September 30, 2008
            (F-306-12-001-D)

                  136,000,000          32,198,382          32,198,382                    –                  –

            Audit of USAID/Afghanistan's Afghanistan Stabilization Initiative for the Southern Region
11/13/11
            (F-306-12-001-P)

                         N/A             4,859,042                 –                    –                   –

            Financial Audit of the Ministry of Finance Salary Support Program, USAID/Afghanistan Project
10/13/11    Implementation No. 306-IL-10-01, Managed by the Ministry of Finance, for the Period June 6 to
            September 30, 2010 (F-306-12-003-N)
                     1,000,000            356,469                  –                    –                   –

            Financial Audit of Local Costs Incurred by Development Alternatives Inc. for the Small and Medium
10/10/11    Enterprise Development Activity Under Contract No. 306-C-00-07-00503-00, for the Period
            October 1, 2009, to September 30, 2010 (F-306-12-002-N)
                   18,631,159               88,650                 –                    –                   –




40                                                    USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                       Report Title and Number

                 Amount              Questioned           Amount            Funds to Be Put       Amount
                Audited ($)            Costs             Sustained           to Better Use       Concurred

             Financial Audit of the Partnership Contracts for Health Services Program, USAID/Afghanistan
10/03/11     Grant Agreement No. 306-08-IL-06-00, Managed by the Ministry of Public Health, for the Period
             From Program Inception on July 20, 2008, Through September 22, 2010 (F-306-12-001-N)

                    32,812,937           1,328,310              5,167                  –                   –

             Financial Audit of the Policy Capacity Initiative Activity Project, USAID/Afghanistan Grant
             Agreement No. 306-IL-09-12-0004.00, Managed by the Ministry of Communication and
09/29/11
             Information Technology, for the Period From Program Inception on April 09, 2009, Through
             September 30, 2010 (F-306-11-003-N)

                       450,138             118,478                 –                   –                   –

08/31/11     Review of USAID/Afghanistan's Afghan Civilian Assistance Program (F-306-11-005-S)

                          N/A            8,379,055           5,142,039                 –                   –

             Financial Audit Report of Technologist Inc.’s Costs Incurred/Billed Under USAID Task Order
08/23/11     No. 306-O-00-04-00539-00, for the Afghanistan Industrial Estate Development Program for the
             Period May 24, 2004, Through December 31, 2007 (F-306-11-001-D)

                    21,463,590           6,563,050            493,444                  –                   –

             Financial Audit of the Civilian Technical Assistance Program, USAID/Afghanistan Grant Agreement
07/21/11     No. 306-09-CTAP-0001, Managed by the Ministry of Finance, for the Period September 30, 2009,
             to September 30, 2010 (F-306-11-001-N)

                     5,500,000               2,045                     77              –                   –

             Financial Audit of the Regenerating Murad Khane and Restoring, Refurbishing, and Revitalizing the
             Old City Program, USAID/Afghanistan Cooperative Agreement No. 306-A-09-00503-00, Managed
07/14/11
             by the Turquoise Mountain Trust, for the Period From January 1 to December 31, 2010
             (F-306-11-003-R)
                     2,551,558                  –                  –                   –                   –

             Audit of USAID/Afghanistan's Support to the Electoral Process (STEP) and Support for Increased
06/19/11
             Electoral Participation in Afghanistan (IEP) Programs (F-306-11-003-P)

                          N/A            6,350,319                 –             1,000,000          1,000,000

06/09/11     Review of USAID/Afghanistan's Portion of the Embassy Air Program (F-306-11-004-S)

                          N/A              525,467              31,902           9,440,000          9,440,000

             Audit of USAID/Afghanistan's Construction of Health and Education Facilities Program
03/27/11
             (F-306-11-002-P)

                          N/A               50,029              40,829            762,153             762,153




USAID OIG Afghanistan and Pakistan Oversight Report                                                              41
     Date                                    Report Title and Number

                Amount              Questioned            Amount         Funds to Be Put         Amount
               Audited ($)            Costs              Sustained        to Better Use         Concurred

            Financial Audit of Fiduciary Support to the American University of Afghanistan (AUAf), Subgrant
            Under Asia Foundation Award No. 306-G-00-05-00525-00, and USAID Direct Support to AUAf,
12/20/10
            Cooperative Agreement No. 306-A-00-08-00525-00, for the Period July 1, 2008, to June 30, 2009
            (F-306-11-002-R)

                    9,539,090             685,643             116,273                 –                   –

            Financial Audit of Local Costs Incurred by the Joint Venture Louis Berger Group Inc./Black &
            Veatch Special Projects Corp., to Implement the Afghanistan Infrastructure Rehabilitation Program,
11/16/10
            USAID/Afghanistan Contract No. 306-I-00-06-00517-00, for the Period October 1, 2008, to
            September 30, 2009 (5-306-11-002-N)

                   10,773,130           2,292,891              76,046                 –                   –

            Financial Audit of the Regenerating Murad Khane and Restoring, Refurbishing, and Revitalizing the
            Old City Program, USAID/Afghanistan Cooperative Agreement No. 306-A-09-00503-00, Managed
10/26/10
            by the Turquoise Mountain Trust, for the Period January 1, 2009, to December 31, 2009
            (F-306-11-001-R)

                    2,501,824                    –                –                   –                   –

            Financial Audit of Cost Incurred and Billed for the Human and Institutional Capacity Building for
            Afghanistan Energy and Natural Resources Sector Project, Task Order No. DOT-I-04-04-00022-
09/28/10    00, USAID/Afghanistan Cooperative Agreement No. 306-P-00-10-00514-00, Managed by Advanced
            Engineering Associates International, for the Period July 3, 2008, to June 30, 2009
            (5-306-10-002-D)

                    3,523,452              12,115              12,115                 –                  –

            Financial Audit of the Afghanistan First Loss Reserve Fund, USAID/Afghanistan Cooperative
            Agreement No. 306-A-00-05-00512-00, Managed by Deutsche Investitions und
03/30/10
            Entwicklungsgesellschaft mbh, for the Period February 4, 2005, to December 31, 2008
            (5-306-10-001-D)

                    1,281,561              56,974              1,952                  –                   –

            Financial Audit of Local Costs Incurred by the Joint Venture Louis Berger Group Inc./Black &
            Veatch Special Projects Corp., to Implement the Afghanistan Infrastructure Rehabilitation Program,
02/25/10
            USAID/Afghanistan Contract No. 306-I-00-06-00517-00, for the Period October 1, 2007, to
            September 30, 2008 (5-306-10-002-N)

                    5,594,190             46,912                4,200                 –                   –

            Audit of USAID/Afghanistan's Power Sector Activities Under Its Afghanistan Infrastructure
11/10/09
            Rehabilitation Program (5-306-10-002-P)

                         N/A         2,078,426              2,078,426                 –                   –




42                                                   USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                        Report Title and Number

                 Amount              Questioned            Amount          Funds to Be Put         Amount
                Audited ($)            Costs              Sustained         to Better Use         Concurred

             Financial Audit of the Regenerating Murad Khane and Restoring, Refurbishing, and Revitalizing the
             Old City Program, USAID/Afghanistan Cooperative Agreement No. 306-A-00-09-00503-00,
09/29/09
             Managed by the Turquoise Mountain Trust, for the Period November 2 to December 31, 2008
             (5-306-09-021-R)

                      421,310              17,781              17,781                   –                     –

             Financial Audit of Costs Incurred and Billed by BearingPoint Inc. USAID/Afghanistan Contract
08/19/09     No. 306-C-00-03-00001-00, for the Period November 1, 2002, to December 15, 2005
             (5-306-09-002-D)

                   95,817,000          95,817,000                  –                    –                     –

             Financial Audit of Local Costs Incurred by the Joint Venture Louis Berger Group Inc./Black &
             Veatch Special Projects Corp. to Implement the Afghanistan Infrastructure Rehabilitation Program,
06/25/09
             USAID/Afghanistan Contract No. 306-I-00-06-00517-00, for the Period August 25, 2006, to
             September 30, 2007 (5-306-09-005-N)

                    2,268,126           267,556              254,526                    –                     –

             Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
06/18/09     the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract
             No. 306-C-00-02-00500-00, for the Period January 1, 2007, to May 31, 2008 (5-306-09-001-D)

                   18,579,476         3,142,521              264,651                    –                     –

09/30/08     Audit of USAID/Afghanistan's Capacity Development Program (5-306-08-012-P)

                          N/A                 –                    –          11,100,000                      –

08/08/08     Audit of USAID/Afghanistan's Accelerating Sustainable Agriculture Program (5-306-08-009-P)

                          N/A              210,006             172,433                  –                     –

             Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
05/16/08     the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract
             No. 306-C-00-02-00500-00, for the Period July 1 to December 31, 2006 (5-306-08-003-D)

                    39,274,703             846,872              51,014                  –                     –

             Closeout Financial Audit of the Business Advisory Services to Small and Medium-Sized Enterprises
             in Afghanistan Project, USAID/Afghanistan Cooperative Agreement No. 306-A-00-04-00570-00,
04/25/08
             Managed by Acap Management Limited, for the Period September 30, 2004, to March 29, 2007
             (5-306-08-019-R)

                       925,459             695,374             695,374                  –                     –




USAID OIG Afghanistan and Pakistan Oversight Report                                                               43
     Date                                    Report Title and Number

                Amount              Questioned           Amount          Funds to Be Put         Amount
               Audited ($)            Costs             Sustained         to Better Use         Concurred

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
11/27/07    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period April 1 to June 30, 2007 (5-306-08-001-N)

                    1,262,209                –                    –                   –                      –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
06/27/07    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period January 1 to March 31, 2007 (5-306-07-008-N)

                    1,299,053                    –                –                   –                      –

            Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
05/25/07    the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract
            No. 306-C-00-02-00500-00, for the Period January 1 to June 30, 2006 (5-306-07-002-D)

                  53,702,753              581,418            124,108                  –                      –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
04/18/07    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period October 1 to December 31, 2006 (5-306-07-006-N)

                    1,488,612                    –                –                   –                      –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
12/11/06    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-00500-00,
            for the Period July 1 to September 30, 2006 (5-306-07-004-N)

                    1,740,855                    –                –                   –                      –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
10/16/06    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period April 1 to June 30, 2006 (5-306-07-001-N)

                    2,121,214                    –                –                   –                      –

            Financial Audit of Treatment of Specified Costs Incurred by Camp, Dresser, & McKee
            Constructors Inc. Under the Afghanistan Water and Sanitation Program, USAID/Afghanistan
08/10/06
            Contract No. 306-C-00-04-00568-00, for the Period September 30, 2004, to February 25, 2006
            (5-306-06-004-D)

                      261,390             221,509              31,509                 –                      –

            Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
08/02/06    the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract
            No. 306-C-00-02-00500-00, for the Period April 1 to December 31, 2005 (5-306-06-003-D)

                  181,086,841            528,239               36,248                 –                      –




44                                                   USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                       Report Title and Number

                 Amount              Questioned           Amount          Funds to Be Put         Amount
                Audited ($)            Costs             Sustained         to Better Use         Concurred

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
06/28/06     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period January 1 to March 31, 2006 (5-306-06-005-N)

                     3,097,361                    –                –                   –                      –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
03/21/06     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period October 1 to December 31, 2005 (5-306-06-004-N)

                     2,144,967                    –                –                   –                      –

             Audit of Funds Earmarked by Congress to Provide Assistance for Displaced Persons in Afghanistan
12/21/05
             (9-306-06-004-P)

                          N/A                 –                    –           14,366,000          14,366,000

             Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
12/19/05     the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract
             No. 306-C-00-02-00500-00, for the Period July 1, 2004, to March 31, 2005 (5-306-06-002-D)

                   125,286,559             348,122               3,399                 –                      –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
12/08/05     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
             00500-00, for the Period July 1 to September 30, 2005 (5-306-06-002-N)

                     2,114,250                –                    –                   –                      –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
             of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
08/29/05
             00500-00, for the Period April 1 to June 30, 2005, Including Contract Line Item No. 2 Costs, for
             the Period July 1, 2004, to June 30, 2005 (5-306-05-009-N)

                     2,944,192                –                    –                   –                      –

             Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
             of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
06/30/05
             00500-00, for the Period January 1 to March 31, 2005, Including Contract Line Item No. 2 Costs,
             for the Period April 1 to June 30, 2004 (5-306-05-008-N)

                     1,606,343                –                     –                  –                      –

             Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
04/19/05     the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract
             No. 306-C-00-02-00500-00, for the Period October 1, 2003, to June 30, 2004 (5-306-05-006-D)

                   185,440,813           1,049,881              98,146                 –                      –




USAID OIG Afghanistan and Pakistan Oversight Report                                                               45
     Date                                    Report Title and Number

                Amount              Questioned           Amount          Funds to Be Put         Amount
               Audited ($)            Costs             Sustained         to Better Use         Concurred

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
03/14/05    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period October 1 to December 31, 2004 (5-306-05-006-N)

                    1,525,711                –                     –                  –                      –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
12/09/04    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period July 1 to September 30, 2004 (5-306-05-002-N)

                    1,539,697               3,056                 779                 –                      –

            Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to Implement
09/16/04    the Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan Contract
            No. 306-C-00-02-00500-00, for the Period July 1 to September 30, 2003 (5-306-04-003-D)

                   40,486,450             109,186              91,678                 –                      –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
08/23/04    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period April 1 to June 30, 2004 (5-306-04-006-N)

                    2,039,979              14,112                 –                   –                      –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
07/09/04    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period January 1 to March 31, 2004 (5-306-04-005-N)

                    1,578,442             137,596               9,127                 –                      –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
05/17/04    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period October 1 to December 31, 2003 (5-306-04-004-N)

                      863,610             115,136              44,738                 –                      –

            Audit of the Application of Agreed-Upon Procedures on Costs Incurred in the United States by
            Louis Berger Group Inc. to Implement the Rehabilitation of Economic Facilities and Services
05/17/04
            Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period September 30,
            2002, to June 30, 2003 (5-306-04-002-D)

                   23,096,297              92,983              90,022                 –                      –

            Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
03/26/04    of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
            00500-00, for the Period July 1 to September 30, 2003 (5-306-04-003-N)

                      666,841             114,020              13,001                 –                      –




46                                                   USAID OIG Afghanistan and Pakistan Oversight Report
    Date                                          Report Title and Number

                   Amount             Questioned            Amount          Funds to Be Put         Amount
                  Audited ($)           Costs              Sustained         to Better Use         Concurred

              Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the Rehabilitation
 01/23/04     of Economic Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
              00500-00, for the Period September 30, 2002, to June 30, 2003 (5-306-04-001-N)

                       1,227,901            29,449               3,882                    –                    –

   Afghanistan Total

                 1,168,090,227        175,473,850           42,211,883          36,668,153          25,568,153

 Pakistan

06/18/12      Review of USAID/Pakistan’s Cost Estimates for Shipping and Storage (G-391-12-001-S)

                            N/A                   –                   –          3,053,259           3,053,259

              Financial Audit of the Gender Equity Program Managed by the Aurat Publication and Information
 06/12/12
              Service Foundation, for the Period August 15, 2010, to June 30, 2011 (G-391-12-013-R)

                       1,044,234                  –                   –                   –                    –

              Financial Audit of the USAID/Pakistan Grant Agreement Managed by the Health Service Academy,
 05/10/12
              for the Period July 1, 2010, to June 30, 2011 (G-391-12-012-R)

                         565,021           4,989                      –                   –                    –

              Financial Audit of Projects Managed by Lahore University of Management Sciences: the Foreign
 04/24/12     Recipient Contracted Assessment and Strengthening Program and Subrecipient Contracted Merit
              and Needs-Based Scholarship Program, for the Year Ended June 30, 2011 (G-391-12-011-R)

                         281,774                  –                   –                   –                    –

              Financial Audit of the Pakistan Children’s Television Project Managed by the Rafi Peer Theatre
 04/19/12
              Workshop, for the Period May 7, 2010, to June 30, 2011 (G-391-12-010-R)

                         906,523         732,546                      –                   –                    –

              Financial Audit of the Monitoring and Evaluation Project and Assessment and Strengthening
 04/17/12     Program Managed by Associates in Development (Private) Limited, for the Period January 1, 2010,
              to June 30, 2011 (G-391-12-009-R)

                       2,560,600         316,937                      –                   –                    –

              Financial Audit of the USAID Resources Managed by National Rural Support Programme (NRSP),
 04/03/12
              for the Period July 1, 2010, to June 30, 2011 (G-391-12-008-R)

                       9,942,572          39,745               36,745                     –                    –

              Financial Audit of USAID/Pakistan's Rupee Trust Fund for the Period October 1, 2009, to
 03/20/12
              September 30, 2011 (G-391-12-001-N)
                        859,543               –                   –                   –                    –



 USAID OIG Afghanistan and Pakistan Oversight Report                                                               47
     Date                                      Report Title and Number

                Amount              Questioned          Amount          Funds to Be Put          Amount
               Audited ($)            Costs            Sustained         to Better Use          Concurred

            Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant Agreement
03/06/12    No. 391-G-00-06-01073-00, Managed by the Competitiveness Support Fund, for the Period July 1,
            2010, to June 30, 2011 (G-391-12-007-R)

                    2,197,662               –                    –                   –                   –

            Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement No. 391-
02/24/12    012, Implementation Letter No. 1, Managed by the Economic Affairs Division of the Government
            of Pakistan, for the Period June 8, 2009, to June 15, 2011 (G-391-12-006-R)

                   44,000,000               –                    –                   –                   –

            Financial Audit of the Merit and Needs-Based Scholarship Project, USAID/Pakistan Agreement
02/17/12    No. 391-G-00-04-01023-00, for the Period July 2, 2004, to June 30, 2010, Managed by the Higher
            Education Commission (G-391-12-005-R)

                    6,055,675            428,144                 –                   –                  –

            Financial Audit of the Anti-Corruption Program Pakistan, USAID/Pakistan Cooperative Agreement
            No. 391-A-00-09-01117-00, and the Anti-Fraud Hotline Program, USAID/Pakistan Cooperative
01/13/12
            Agreement No. 391-A-00-10-01194-00, Managed by Transparency International-Pakistan, for the
            Year Ended June 30, 2011 (G-391-12-004-R)

                      387,825               –                   –                    –                  –

            Financial Audit of Aga Khan University's Flood Response Program, USAID/Pakistan Cooperative
01/06/12    Agreement No. 391-G-00-10-01188-00, for the Period August 30 to December 31, 2010, Managed
            by Aga Khan University (G-391-12-003-R)

                    1,057,045               –                   –                    –                  –

11/23/11    Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program (G-391-12-002-P)

                         N/A               –                    –          20,000,000           20,000,000

11/03/11    Audit of USAID/Pakistan's Firms Project (G-391-12-001-P)

                         N/A           1,359,337                 –                  –                    –

            Financial Audit of Budgetary Support to the Government of Pakistan, USAID/Pakistan Program
11/03/11    Assistance Agreement No. 391-005-ES-07, Managed by the Ministry of Finance, for the Year Ended
            June 30, 2008 (G-391-12-002-R)

                  200,000,000              –                    –                    –                  –

            Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement No. 391-
10/26/11    AAG-012-IL-02, Managed by the Benazir Income Support Program, for the Period September 30,
            2009, to March 31, 2011 (G-391-12-001-R)

                   85,000,000              –                    –                    –                   –



48                                                  USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                          Report Title and Number

                 Amount              Questioned           Amount          Funds to Be Put        Amount
                Audited ($)            Costs             Sustained         to Better Use        Concurred

             Financial Audit of the Business Revitalization Program, USAID/Pakistan Cooperative Agreement
09/21/11     No. 391-A-00-10-01145-00, Managed by Khushhali Bank, for the Period February 6 to
             December 31, 2010 (G-391-11-005-R)

                     8,443,128               –                    –                    –                  –

             Closeout Financial Audit of the Forman Christian College, USAID/Pakistan Grant Agreement
06/23/11     No. 391-G-00-04-01036-00, Managed by Forman Christian College, for the Period July 1, 2009, to
             March 31, 2010 (G-391-11-004-R)

                     1,974,491             122,515             90,655                  –                  –

             Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the Period October 1, 2006, to
05/26/11
             September 30, 2009 (G-391-11-001-N)

                     1,511,547                –                   –                    –                  –

             Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant Agreement
05/10/11     No. 391-G-00-06-1073-00, Managed by the Competitiveness Support Fund, for the Period July 1,
             2009, to June 30, 2010 (G-391-11-003-R)

                     2,184,844               2,822                 –                  –                     –

             Closeout Financial Audit of the Interactive Teaching and Learning Project, USAID/Pakistan
             Cooperative Agreement No. 391-A-00-06-01075-00, and the Financial Audit of Links to Learning
04/08/11     Education Support to Pakistan Program, Subaward Under USAID/Pakistan Cooperative Agreement
             No. 391-A-00-08-01100-00, Managed by Children’s Global Network Pakistan Limited, for the
             Period July 1, 2008, to February 26, 2010 (G-391-11-002-R)

                     1,315,348              12,669                 –                  –                     –

             Closeout Financial Audit of the Developing Non-Bankable Territories for Financial Services
12/30/10     Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00, Managed by
             Khushhali Bank, for the Period January 1 to September 30, 2009 (G-391-11-001-R)

                       450,607                –                   –                    –                  –

             Audit of USAID/Pakistan's Livelihood Development Program in the Lower Region of the Federally
12/10/10
             Administered Tribal Area (G-391-11-001-P)

                          N/A              767,841            336,603                  –                  –

             Financial Audit of Costs Incurred Under the School Enhancement Program Component of the
             Pakistan Education Sector Reform Assistance Program, USAID/Pakistan Cooperative Agreement
11/08/10
             No. 391-A-00-03-01000-00, Managed by RTI International, for the Period December 4, 2002, to
             December 31, 2007 (G-391-11-001-D)

                    14,432,228                –                   –                    –                  –




USAID OIG Afghanistan and Pakistan Oversight Report                                                             49
     Date                                    Report Title and Number

                Amount              Questioned           Amount          Funds to Be Put        Amount
               Audited ($)            Costs             Sustained         to Better Use        Concurred

            Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant Agreement
08/04/10    No. 391-G-00-06-01073-00, Managed by the Competitiveness Support Fund, for the Period
            February 3, 2006, to June 30, 2009 (G-391-10-001-R)

                    5,637,011            355,471                 –                  –                     –

            Financial Audit of the College Improvement Program, USAID/Pakistan Grant Agreement No. 391-
05/18/10    G-00-04-01036-00, Managed by Forman Christian College, Lahore, for the Period July 1, 2007, to
            June 30, 2009 (5-391-10-033-R)

                      394,255                –                   –                   –                    –

            Financial Audit of the Developing Non-Bankable Territories for Financial Services Program,
04/30/10    USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank,
            for the Year Ended December 31, 2008 (5-391-10-029-R)

                    1,653,377              89,934             65,652                 –                    –

            Closeout Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
            Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed
03/24/10
            by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period July 1 to December 31,
            2007 (5-391-10-026-R)

                    2,146,908                –                   –                   –                –

            Closeout Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan
02/10/10    Cooperative Agreement No. 391-A-00-03-01003-00, for the Period January 1 to December 31,
            2007 (5-391-10-020-R)

                    1,853,975              63,367             63,367                 –                    –

            Financial Audit of USAID Funds Managed by Children's Global Network Pakistan (Guarantee)
12/22/09
            Limited, for the Year Ended June 30, 2008 (5-391-10-012-R)

                    1,863,786            376,942                 242                 –                    –

            Financial Audit of the Budgetary Support, USAID/Pakistan Program Assistance Agreement Nos.
08/13/09    391-005-ES-05 and 391-005-ES-06, Managed by the Ministry of Finance, Government of Pakistan,
            for the Years Ended June 30, 2006, and 2007 (5-391-09-006-N)

                  400,000,000                –                   –                   –                    –

            Financial Audit of the Developing Non-Bankable Territories for Financial Services Program,
06/25/09    USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank,
            for the Period January 1 to December 31, 2007 (5-391-09-013-R)

                    1,776,113                –                   –                   –                    –




50                                                   USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                        Report Title and Number

                 Amount               Questioned           Amount          Funds to Be Put         Amount
                Audited ($)             Costs             Sustained         to Better Use         Concurred

             Financial Audit of USAID/Pakistan's Rupee Trust Fund for Operating Expenses, for Fiscal Years
05/11/09
             Ended September 30, 2005, and 2006 (5-391-09-002-N)

                       979,028                 –                   –                    –                   –

             Financial Audit of the College Improvement Program, USAID/Pakistan Grant Agreement No. 391-
04/30/09     G-00-04-01036-00, Managed by Forman Christian College, Lahore, for the Period August 23, 2004,
             to June 30, 2007 (5-391-09-008-R)

                     2,631,254           1,163,564              56,008                  –                   –

             Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan Cooperative
04/29/09     Agreement No. 391-A-00-03-01003-00, for the Period January 1 to December 31, 2006
             (5-391-09-007-R)

                       979,040                 –                   –                    –                   –

             Financial Audit of the Interactive Teaching and Learning Program in Pakistan, USAID/Pakistan
             Cooperative Agreement No. 391-A-00-06-01075-00, Managed by Children's Resources
12/15/08
             International Pakistan (Guarantee) Limited, for the Period March 1, 2006, to June 30, 2007
             (5-391-09-006-R)

                     1,557,736             763,449                 158                  –                   –

             Financial Audit of the Improved Pakistani Family Planning and Reproductive Health Services
             Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
09/26/08
             Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period July 1, 2006, to June 30,
             2007 (5-391-08-035-R)

                    4,295,177                  –                   –                    –                   –

             Financial Audit of the Improved Pakistani Family Planning and Reproductive Health Services
             Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
09/25/08
             Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period July 1, 2005, to June 30,
             2006 (5-391-08-034-R)

                    5,399,408                  –                   –                    –                   –

             Financial Audit of the Improved Pakistani Family Planning and Reproductive Health Services
             Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
09/19/08
             Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period July 1, 2004, to June 30,
             2005 (5-391-08-032-R)

                    5,707,948                  –                   –                    –                   –




USAID OIG Afghanistan and Pakistan Oversight Report                                                              51
     Date                                    Report Title and Number

                Amount              Questioned           Amount          Funds to Be Put        Amount
               Audited ($)            Costs             Sustained         to Better Use        Concurred

            Closeout Financial Audit of the Rewarding Innovation at the District Level Program,
            USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01015-00, for the Period July 1, 2005,
08/27/08    to March 31, 2006, and the Establishing Tent Schools and Cash for Work Program, Grant
            Agreement No. 391-G-00-06-0169-00, for the Period December 9, 2005, to June 15, 2006,
            Managed by the Rural Support Programmes Network (5-391-08-030-R)

                   2,847,871            222,294             222,294                  –                  –

            Financial Audit of the Technical Assistance and Training to Improve Project and Financial
            Management of Provincial and District Health and Population Welfare Services in Pakistan Project,
08/20/08    USAID/Pakistan Limited Scope Grant Agreement No. 391-G-00-04-01020-00, Managed by Options
            Consultancy Services Limited—Technical Assistance Management Agency, for the Period January 1,
            2004, to March 31, 2006 (5-391-08-005-N)

                     697,058                 –                   –                   –                  –

            Closeout Financial Audit of the Enterprise Development Facility Program, Cooperative Agreement
08/15/08    No. 391-A-00-03-01010-00, Managed by the Pakistan Poverty Alleviation Fund, for the Period
            July 1, 2006, to September 30, 2007 (5-391-08-029-R)

                     734,597                 –                   –                   –                  –

            Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan Cooperative
07/02/08    Agreement No. 391-A-00-03-01003-00, for the Period January 1 to December 31, 2005
            (5-391-08-027-R)

                     902,755                 –                   –                   –                  –

            Financial Audit of the Developing Non-Bankable Territories for Financial Services Program,
04/15/08    USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank,
            for the Period January 1, 2005, to December 31, 2006 (5-391-08-017-R)

                    2,662,527             82,126             66,916                  –                  –

            Financial Audit of the 4-Year Bachelor's Degree Program, USAID/Pakistan Grant Agreement
09/28/07    No. 391-G-00-04-01036-00, Managed by Forman Christian College, Lahore, for the Period July 1,
            2005, to June 30, 2006 (5-391-07-024-R)

                      769,134                –                   –                   –                  –

            Financial Audit of the Enterprise Development Facility Program, Cooperative Agreement No. 391-
08/22/07    A-00-03-01010-00, Managed by the Pakistan Poverty Alleviation Fund, for the Period July 1, 2005,
            to June 30, 2006 (5-391-07-023-R)

                    1,160,768            951,400             921,512                 –                  –




52                                                   USAID OIG Afghanistan and Pakistan Oversight Report
   Date                                       Report Title and Number

                 Amount              Questioned          Amount          Funds to Be Put        Amount
                Audited ($)            Costs            Sustained         to Better Use        Concurred

             Financial Audit of the Improved Pakistani Family Planning and Reproductive Health Services
             Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
07/25/07
             Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period November 7, 2003, to
             June 30, 2004 (5-391-07-020-R)

                     1,805,257             34,804                 –                 –                       –

             Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan Cooperative
05/03/07     Agreement No. 391-A-00-03-01003-00, for the Period July 1, 2003, to December 31, 2004
             (5-391-07-014-R)

                       771,546                –                  –                    –                 –

             Financial Audit of the Fulbright-USAID Scholarship Program, Grant Agreement No. 391-G-00-04-
02/22/07     01035-00, Managed by the United States Educational Foundation in Pakistan, for the Period
             September 1, 2004, to August 31, 2005 (5-391-07-010-R)

                       234,757               –                   –                    –                 –

             Financial Audit of the Enterprise Development Facility Program, Cooperative Agreement No. 391-
01/12/07     A-00-03-01010-00, Managed by the Pakistan Poverty Alleviation Fund for the Period October 1,
             2003, to June 30, 2005 (5-391-07-007-R)

                     3,194,633          1,999,553           1,639,230                 –                 –

             Financial Audit of the 4-Year Bachelor's Degree Program, USAID/Pakistan Grant Agreement
01/12/07     No. 391-G-00-04-01036-00, Managed by Forman Christian College, Lahore, for the Period
             August 23, 2004, to June 30, 2005 (5-391-07-006-R)

                       764,472               –                   –                    –                 –

             Financial Audit of the Developing Non-Bankable Territories for Financial Services Project,
09/27/06     USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00, Managed by Khushhali Bank,
             for the Period October 1, 2003, to December 31, 2004 (5-391-06-033-R)

                     1,853,591               –                    –                   –                 –

             Financial Audit of the Rural Support Programmes Network, USAID Grant Rewarding Innovations
09/26/06     at the District Level, Agreement No. 391-A-00-03-01015-00, for the Period Ended June 30, 2005
             (5-391-06-032-R)

                       997,500               –                    –                   –                 –

             Financial Audit of the Rural Support Programmes Network USAID Grant Rewarding Innovations at
09/13/06     the District Level, Agreement No. 391-A-00-03-01015-00, for the 9-Month Period Ended June 30,
             2004 (5-391-06-031-R)

                       471,255               –                    –                   –                 –




USAID OIG Afghanistan and Pakistan Oversight Report                                                             53
     Date                                         Report Title and Number

                     Amount              Questioned           Amount          Funds to Be Put        Amount
                    Audited ($)            Costs             Sustained         to Better Use        Concurred

                 Financial Audit of the Improved Pakistani Family Planning and Reproductive Health Services
                 Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
05/11/06
                 Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period November 7, 2003, to
                 June 30, 2004 (5-391-06-020-R)

                            1,805,257           830                    –                   –                 –

                 Financial Audit of USAID/Pakistan’s Rupee Trust Fund for Operating Expenses, for Fiscal Years
01/10/06
                 Ended September 30, 2002, 2003, and 2004 (5-391-06-003-N)

                             432,270              –                    –                   –                 –

           Pakistan Total

                     844,150,931            9,891,279          3,499,382        23,053,259         23,053,259


Note: A dash indicates a value of zero. NA means not available.




54                                                        USAID OIG Afghanistan and Pakistan Oversight Report
Appendix 5 – Completed Audit Reports
The following table provides a listing of Afghanistan- and Pakistan-specific OIG audits by the
country they pertain to and fiscal year in which they were issued. For purposes of this report, the
term “financial audit” refers to both financial audits and quality control reviews. As it is used in
this report, the term “performance audit and review,” in turn, refers to other audits, reviews, risk
assessments, and survey reports.


  Date         Number                                                Title

Afghanistan

  FY 2012

06/29/12    F-306-12-004-P   Audit of USAID/Afghanistan's Incentives Driving Economic Alternatives for the
                             North, East, and West Program

06/25/12    F-306-12-003-P   Audit of USAID/Afghanistan's Internal Controls in the Administration of the
                             Involuntary Separate Maintenance Allowance

05/12/12    F-306-12-006-N   Financial Audit of Local Costs Incurred by International Relief and Development Inc.
                             Under the Strategic Provincial Roads—Southern and Eastern Afghanistan Program,
                             Cooperative Agreement No. 306-A-00-08-00509-00, for the Period October 1, 2009,
                             to September 30, 2010

03/15/12    F-306-12-005-N   Financial Audit of Costs Incurred in Afghanistan Under USAID Contract No. 306-
                             DOT-I-01-08-00033-00 With Chemonics International Inc. for the Period October 1,
                             2009, to September 30, 2010
02/07/12    F-306-12-002-P   Audit of USAID/Afghanistan’s Skills Training for Afghan Youth Project
02/15/12    F-306-12-004-N   Financial Audit on the Local (Non-U.S.) Costs (Costs Incurred and Paid in
                             Afghanistan) Under USAID Contract No. 306-I-00-06-00517-00 With the Joint
                             Venture Louis Berger Group Inc./Black & Veatch Corp., for the Period October 1,
                             2009, to September 30, 2010
12/26/11    F-306-12-001-S   Review of Responses to Internal Audit Findings on the Local Governance and
                             Community Development Project
12/20/11    F-306-12-001-D   Independent Financial Audit of Black & Veatch Special Projects Corporation Direct
                             Costs Incurred and Billed on Contract No. 306-I-00-06-00517-00 From August 25,
                             2006, to September 30, 2008
11/13/11    F-306-12-001-P   Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative for the Southern
                             Region
10/13/11    F-306-12-003-N   Financial Audit of the Ministry of Finance Salary Support Program, USAID/Afghanistan
                             Project Implementation Number 306-IL-10-01, Managed by the Ministry of Finance,
                             for the Period June 6 to September 30, 2010




USAID OIG Afghanistan and Pakistan Oversight Report                                                               55
10/10/11    F-306-12-002-N   Financial Audit of Local Costs Incurred by Development Alternatives Inc. for the
                             Small and Medium Enterprise Development Activity Under Contract No. 306-C-00-
                             07-00503-00, for the Period October 1, 2009, to September 30, 2010
10/03/11    F-306-12-001-N   Financial Audit of the Partnership Contracts for Health Services Program,
                             USAID/Afghanistan Grant Agreement No. 306-08-IL-06-00, Managed by the Ministry
                             of Public Health, for the Period From Program Inception on July 20, 2008, Through
                             September 22, 2010

  FY 2011
09/29/11    F-306-11-004-P   Audit of USAID/Afghanistan’s On-Budget Funding Assistance to the Ministry of Public
                             Health in Support of the Partnership Contracts for Health Services Program
09/29/11    F-306-11-003-N   Financial Audit of the Policy Capacity Initiative Activity Project, USAID/Afghanistan
                             Grant Agreement No. 306-IL-09-12-0004.00, Managed by the Ministry of
                             Communication and Information Technology, for the Period From Program Inception
                             on April 9, 2009, Through September 30, 2010
08/31/11    F-306-11-005-S   Review of USAID/Afghanistan’s Afghan Civilian Assistance Program
08/23/11    F-306-11-001-D   Financial Audit of Technologist Inc.’s Costs Incurred/Billed Under USAID Task Order
                             No. 306-O-00-04-00539-00, for the Afghanistan Industrial Estate Development
                             Program for the Period May 24, 2004, Through December 31, 2007
07/21/11    F-306-11-001-N   Financial Audit of the Civilian Technical Assistance Program, USAID/Afghanistan
                             Grant Agreement No. 306-09-CTAP-0001, Managed by the Ministry of Finance, for
                             the Period September 30, 2009, to September 30, 2010
07/14/11    F-306-11-003-R   Financial Audit of the Regenerating Murad Khane and Restoring, Refurbishing, and
                             Revitalizing the Old City Program, USAID/Afghanistan Cooperative Agreement
                             No. 306-A-09-00503-00, Managed by the Turquoise Mountain Trust, for the Period
                             From January 1 to December 31, 2010
06/19/11    F-306-11-003-P   Audit of USAID/Afghanistan’s Support to the Electoral Process (STEP) and Support
                             for Increased Electoral Participation in Afghanistan (IEP) Programs
06/09/11    F-306-11-004-S   Review of USAID/Afghanistan’s Portion of the Embassy Air Program
03/27/11    F-306-11-002-P   Audit of USAID/Afghanistan’s Construction of Health and Education Facilities
                             Program
03/16/11    F-306-11-003-S   Review of USAID/Afghanistan’s Bank Supervision Assistance Activities and the Kabul
                             Bank Crisis
03/07/11    F-306-11-002-S   Review of Cash Disbursement Practices Employed by Selected USAID/Afghanistan
                             Contractors and Grantees
02/13/11    F-306-11-001-P   Audit of USAID/Afghanistan’s Agriculture, Water, and Technology Transfer Program
12/20/10    F-306-11-002-R   Financial Audit of the Fiduciary Support to the American University of Afghanistan
                             (AUAf) Program, Subgrant Under Asia Foundation Award No. 306-G-00-05-00525-
                             00, and USAID Direct Support to AUAF, Cooperative Agreement No. 306-A-00-08-
                             00525-00, for the Period July 1, 2008, to June 30, 2009




56                                                 USAID OIG Afghanistan and Pakistan Oversight Report
11/16/10    5-306-11-002-N   Financial Audit of Local Costs Incurred by the Joint Venture Louis Berger Group
                             Inc./Black & Veatch Special Projects Corp. to Implement the Afghanistan
                             Infrastructure Rehabilitation Program, USAID/Afghanistan Contract No. 306-I-00-06-
                             00517-00, for the Period October 1, 2008, to September 30, 2009
11/06/10    F-306-11-001-S   Review of USAID/Afghanistan’s Ministerial Assessment Process
11/05/10    5-306-11-002-P   Audit of USAID/Afghanistan’s Support to the American University of Afghanistan
10/28/10    5-306-11-001-P   Audit of USAID/Afghanistan’s Partnership for Advancing Community-Based Education
                             in Afghanistan Program
10/26/10    F-306-11-001-R   Financial Audit of the Regenerating Murad Khane, Restoring Refurbishing and
                             Revitalizing the Old City, Program, USAID/Afghanistan Cooperative Agreement
                             No. 306-A-09-00503-00, Managed by the Turquoise Mountain Trust, for the Period
                             January 1 to December 31, 2009

  FY 2010

09/29/10    5-306-10-002-S   Review of Security Costs Charged to USAID Projects in Afghanistan
09/28/10    5-306-10-002-D   Financial Audit of Cost Incurred and Billed for the Human and Institutional Capacity
                             Building for Afghanistan Energy and Natural Resources Sector Project (Task Order
                             No. DOT-I-04-04-00022-00), USAID/Afghanistan Cooperative Agreement No. 306-P-
                             00-10-00514-00, Managed by Advanced Engineering Associates International, for the
                             Period July 3, 2008, to June 30, 2009
07/29/10    5-306-10-011-P   Audit of USAID/Afghanistan’s Alternative Development Program Expansion, South
                             West
06/24/10    5-306-10-002-O   Review of School and Health Clinic Buildings Completed Under the Schools and
                             Clinics Construction and Refurbishment Program
05/21/10    5-306-10-009-P   Audit of USAID/Afghanistan’s Oversight of Private Security Contractors in
                             Afghanistan
05/18/10    5-306-10-001-Q   Quality Control Review of the Financial Audit Conducted by KPMG Afghanistan
                             Limited of the Local Costs Incurred by the Louis Berger Group Inc./Black & Veatch
                             Special Projects Joint Venture to Implement the Afghanistan Infrastructure
                             Rehabilitation Program, USAID/Afghanistan Contract No. 306-I-00-06-00517-00, for
                             the Period October 1, 2007, to September 30, 2008
04/20/10    5-306-10-008-P   Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased Productive
                             Agriculture Program
03/31/10    5-306-10-007-P   Audit of USAID/Afghanistan’s Human Resources and Logistical Support Program
                             Financial Audit of the Afghanistan First Loss Reserve Fund, USAID/Afghanistan
                             Cooperative Agreement No. 306-A-00-05-00512-00, Managed by the Deutsche
03/30/10    5-306-10-001-D
                             Investitions und Entwicklungsgesellschaft mbh, for the Period February 4, 2005, to
                             December 3, 2008




USAID OIG Afghanistan and Pakistan Oversight Report                                                               57
                             Financial Audit of Local Costs Incurred by the Louis Berger Group Inc./Black &
                             Veatch Special Projects Joint Venture to Implement the Afghanistan Infrastructure
02/25/10    5-306-10-002-N
                             Rehabilitation Program, USAID/Afghanistan Contract No. 306-I-00-06-00517-00, for
                             the Period October 1, 2007, to September 30, 2008
01/29/10    5-306-10-006-P   Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers
                             Project
12/15/09    5-306-10-004-P   Audit of USAID/Afghanistan’s Afghan Civilian Assistance Program
11/10/09    5-306-10-002-P   Audit of USAID/Afghanistan’s Power Sector Activities Under Its Afghanistan
                             Infrastructure Rehabilitation Program

  FY 2009

09/29/09    5-306-09-021-R   Financial Audit of the Regenerating Murad Khane, Restoring, Refurbishing and
                             Revitalizing the Old City Program, USAID/Afghanistan Cooperative Agreement
                             No. 306-A-00-09-00503-00, Managed by the Turquoise Mountain Trust, for the
                             Period November 2 to December 31, 2008
08/19/09    5-306-09-002-D   Financial Audit of Costs Incurred and Billed by BearingPoint Inc. USAID/Afghanistan
                             Contract No. 306-C-00-03-00001-00, for the Period November 1, 2002, to
                             December 15, 2005
06/25/09    5-306-09-005-N   Financial Audit of Local Costs Incurred by the Joint Venture Louis Berger Group
                             Inc./Black & Veatch Special Projects Corp. to Implement the Afghanistan
                             Infrastructure Rehabilitation Program, USAID/Afghanistan Contract No. 306-I-00-06-
                             00517-00, for the Period August 25, 2006, to September 30, 2007
06/18/09    5-306-09-001-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                             Implement the Rehabilitation of Economic Facilities and Services Program,
                             USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period January 1,
                             2007, to May 31, 2008
06/08/09    5-306-09-004-P   Audit of USAID/Afghanistan’s Land Titling and Economic Restructuring in Afghanistan
                             Project
05/11/09    5-306-09-003-P   Audit of USAID/Afghanistan’s Local Governance and Community Development
                             Project in Southern and Eastern Regions of Afghanistan
12/04/08    5-306-09-002-P   Audit of USAID/Afghanistan’s Higher Education Project

  FY 2008

09/30/08    5-306-08-012-P   Audit of USAID/Afghanistan’s Capacity Development Program
08/08/08    5-306-08-009-P   Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program
06/23/08    5-306-08-006-P   Audit of USAID/Afghanistan’s Small and Medium Enterprise Development Activity
05/16/08    5-306-08-003-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                             Implement the Rehabilitation of Economic Facilities and Services Program,
                             USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period July 1 to
                             December 31, 2006




58                                                  USAID OIG Afghanistan and Pakistan Oversight Report
04/25/08    5-306-08-019-R   Closeout Financial Audit of the Business Advisory Services to Small and Medium-
                             Sized Enterprises in Afghanistan Project, USAID/Afghanistan Cooperative Agreement
                             No. 306-A-00-04-00570-00, Managed by Acap Management Limited, for the Period
                             September 30, 2004, to March 29, 2007
03/17/08    5-306-08-003-P   Audit of USAID/Afghanistan’s Alternative Development Program–Southern Region
01/22/08    5-306-08-001-P   Audit of USAID/Afghanistan’s Agriculture, Rural Investment and Enterprise
                             Strengthening Program
11/27/07    5-306-08-001-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period April 1 to June 30, 2007

  FY 2007

08/31/07    5-306-07-009-P   Audit of Selected Follow-On Activities Under USAID/Afghanistan’s Economic
                             Program
06/27/07    5-306-07-008-N   Financial Audit of Local Costs incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period January 1 to March 31, 2007
06/07/07    5-306-07-006-P   Audit of USAID/Afghanistan’s Urban Water and Sanitation Program
05/25/07    5-306-07-002-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                             Implement the Rehabilitation of Economic Facilities and Services Program,
                             USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period January 1 to
                             June 30, 2006
05/21/07    5-306-07-004-P   Audit of Critical Power Sector Activities Under USAID/Afghanistan’s Rehabilitation of
                             Economic Facilities and Services Program
04/18/07    5-306-07-006-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period October 1 to December 31,
                             2006
02/13/07    5-306-07-002-P   Audit of USAID/Afghanistan’s Alternative Livelihoods Program-Eastern Region
12/11/06    5-306-07-004-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-00500-00, for the Period July 1 to September 30, 2006
10/16/06    5-306-07-001-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period April 1 to June 30, 2006

  FY 2006
08/18/06    5-306-06-008-P   Audit of USAID/Afghanistan’s School and Health Clinic Reconstruction Activities
08/16/06    5-306-06-007-P   Audit of USAID/Afghanistan’s Rural Expansion of Afghanistan’s Community-Based
                             Healthcare Program




USAID OIG Afghanistan and Pakistan Oversight Report                                                            59
08/10/06    5-306-06-004-D   Financial Audit of Treatment of Specified Costs Incurred by Camp, Dresser & McKee
                             Constructors Inc. Under the Afghanistan Water and Sanitation Program,
                             USAID/Afghanistan Contract No. 306-C-00-04-00568-00, for the Period
                             September 30, 2004, to February 25, 2006
08/02/06    5-306-06-003-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                             Implement the Rehabilitation of Economic Facilities and Services Program,
                             USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period April 1 to
                             December 31, 2005
06/28/06    5-306-06-005-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period January 1 to March 31, 2006
05/18/06    5-306-06-005-P   Audit of USAID/Afghanistan’s Reconstruction of the Kandahar-Herat Highway Under
                             the Rehabilitation of Economic Facilities and Services Program
03/28/06    5-306-06-002-P   Audit of USAID/Afghanistan’s Rebuilding Agricultural Markets Program
03/21/06    5-306-06-004-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period October 1 to December 31,
                             2005
01/10/06    5-306-06-001-P   Audit of USAID/Afghanistan’s Cashiering Operations
12/21/05    9-306-06-004-P   Audit of Funds Earmarked by Congress to Provide Assistance for Displaced Persons
                             in Afghanistan
12/19/05    5-306-06-002-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                             Implement the Rehabilitation of Economic Facilities and Services Program,
                             USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period July 1, 2004,
                             to March 31, 2005
12/08/05    5-306-06-002-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period July 1 to September 30, 2005

  FY 2005
08/29/05    5-306-05-009-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period April 1 to June 30, 2005,
                             Including Contract Line Item No. 2 Costs for the Period July 1, 2004, to June 30,
                             2005
06/30/05    5-306-05-008-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period January 1 to March 31, 2005,
                             Including Contract Line Item No. 2 Costs for the Period April 1 to June 30, 2004




60                                                  USAID OIG Afghanistan and Pakistan Oversight Report
04/19/05    5-306-05-006-D   Financial Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                             Implement the Rehabilitation of Economic Facilities and Services Program,
                             USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period October 1,
                             2003, to June 30, 2004
04/14/05    5-306-05-005-P   Audit of USAID/Afghanistan’s Primary Education Program
03/14/05    5-306-05-003-P   Audit of USAID/Afghanistan’s School and Clinic Reconstruction Program
03/14/05    5-306-05-006-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period October 1 to December 31,
                             2004
12/09/04    5-306-05-002-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period July 1 to September 30, 2004

  FY 2004
09/21/04    5-306-04-006-P   Audit of the Kabul to Kandahar Highway Reconstruction Activities Financed by
                             USAID/Afghanistan’s Rehabilitation of Economic Facilities and Services Program
09/16/04    5-306-04-003-D   Audit of Costs Incurred in the United States by Louis Berger Group Inc. to
                             Implement the Rehabilitation of Economic Facilities and Services Program,
                             USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for the Period July 1 to
                             September 30, 2003
08/23/ 04   5-306-04-006-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period April 1 to June 30, 2004
08/17/04    5-306-04-005-P   Audit of the Sustainable Economic Policy and Institutional Reform Support Program
                             at USAID/Afghanistan
07/09/04    5-306-04-005-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period January 1 to March 31, 2004
05/17/04    5-306-04-004-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period October 1 to December 31,
                             2003
05/17/04    5-306-04-002-D   Audit of the Application of Agreed-Upon Procedures on Costs Incurred in the United
                             States by Louis Berger Group Inc. to Implement the Rehabilitation of Economic
                             Facilities and Services Program, USAID/Afghanistan Contract No. 306-C-00-02-
                             00500-00, for the Period September 30, 2002, to June 30, 2003
05/11/04    5-306-04-001-F   Audit of USAID/Afghanistan’s Cashiering Operations
04/15/04    5-306-04-002-S   Risk Assessment of Major Activities Managed by USAID/Afghanistan
03/31/04    RIG Memo         Second Review of the Road Project Financed by USAID/Afghanistan's Rehabilitation of
            04-003           Economic Facilities and Services Program



USAID OIG Afghanistan and Pakistan Oversight Report                                                           61
03/26/04    5-306-04-003-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period July 1 to September 30, 2003
01/23/04    5-306-04-001-N   Financial Audit of Local Costs Incurred by Louis Berger Group Inc. to Implement the
                             Rehabilitation of Economic Facilities and Services Program, USAID/Afghanistan
                             Contract No. 306-C-00-02-00500-00, for the Period September 30, 2002, to June 30,
                             2003
11/13/03    RIG Memo         Review of the Road Project Financed by USAID/Afghanistan's Rehabilitation of
            04-002           Economic Facilities and Services Program

  FY 2003

03/11/03    5-306-03-001-S   Risk Assessment of Major Activities Managed by USAID/Afghanistan

Pakistan

  FY 2012

06/18/12    G-391-12-001-S   Review of USAID/Pakistan’s Cost Estimates for Shipping and Storage
06/12/12    G-391-12-013-R   Financial Audit of the Gender Equity Program Managed by the Aurat Publication and
                             Information Service Foundation, for the Period August 15, 2010, to June 30, 2011
06/12/12    G-391-12-003-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                             Financial Audit Conducted by Ernst & Young Ford Rhodes Sidat Hyder of the Gender
                             Equity Program, Managed by Aurat Publication and Information Service Foundation,
                             for the Period August 15, 2010, to June 30, 2011
05/21/12    G-391-12-006-P   Audit of USAID/Pakistan’s Support to the Benazir Income Support Program
                             Financial Audit of the USAID/Pakistan Grant Agreement Managed by the Health
05/10/12    G-391-12-012-R
                             Service Academy, for the Period July 1, 2010, to June 30, 2011
                             Financial Audit of Projects Managed by Lahore University of Management Sciences:
                             the Foreign Recipient Contracted Assessment and Strengthening Program and
04/24/12    G-391-12-011-R
                             Subrecipient Contracted Merit and Needs-Based Scholarship Program, for the Year
                             Ended June 30, 2011
04/20/12    G-391-12-005-P   Audit of USAID/Pakistan’s Entrepreneurs Project
                             Financial Audit of the Pakistan Children’s Television Project Managed by the Rafi Peer
04/17/12    G-391-12-010-R
                             Theatre Workshop, for the Period May 7, 2010, to June 30, 2011
                             Financial Audit of the Monitoring and Evaluation Project and Assessment and
04/17/12    G-391-12-009-R   Strengthening Program Managed by Associates in Development (Private) Limited, for
                             the Period January 1, 2010, to June 30, 2011
                             Financial Audit of the USAID Resources Managed by National Rural Support
04/03/12    G-391-12-008-R
                             Programme (NRSP), for the Period July 1, 2010, to June 30, 2011
                             Quality Control Review of the Audit Report and Audit Documentation for the
                             Financial Audit Conducted by Avais Hyder Liaqut Nauman of Anti-Corruption
04/03/12    G-391-12-002-Q
                             Program Pakistan and the Anti-Fraud Hotline Program Managed by Transparency
                             International–Pakistan, for the Year Ended June 30, 2011




62                                                  USAID OIG Afghanistan and Pakistan Oversight Report
03/20/12    G-391-12-001-N   Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the Period October 1,
                             2009, to September 30, 2011
03/16/12    G-391-12-004-P   Audit of USAID/Pakistan’s Pre-Service Teacher Education Program
03/06/12    G-391-12-007-R   Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant
                             Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness Support
                             Fund, for the Period July 1, 2010, to June 30, 2011
02/24/12    G-391-12-006-R   Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement
                             No. 391-012, Managed by the Economic Affairs Division of the Government of
                             Pakistan, for the Period June 8, 2009, to June 15, 2011
02/03/12    G-391-12-003-P   Audit of USAID’s Pakistan Transition Initiative Program
02/17/12    G-391-12-001-Q   Quality Control Review of the Financial Audit Conducted by the Directorate General
                             Audit, Federal Government, Department of the Auditor General of Pakistan, of the
                             Merit and Needs-Based Scholarship Project, USAID/Pakistan Agreement No. 391-G-
                             00-04-01023-00, Managed by the Higher Education Commission, for the Period July 2,
                             2004, to June 30, 2010
02/17/12    G-391-12-005-R   Financial Audit of the Merit and Needs-Based Scholarship Project, USAID/Pakistan
                             Agreement No. 391-G-00-04-01023-00, Managed by the Higher Education
                             Commission, for the Period July 2, 2004, to June 30, 2010
01/13/12    G-391-12-004-R   Financial Audit of Anti-Corruption Program Pakistan, USAID/Pakistan Cooperative
                             Agreement No. 391-A-00-09-01117-00, and Anti-Fraud Hotline Pakistan,
                             USAID/Pakistan Cooperative Agreement No. 391-A-00-10-01194-00, Managed by
                             Transparency International-Pakistan, for the Year Ended June 30, 2011
01/06/12    G-391-12-003-R   Financial Audit of the Aga Khan University Flood Response Program, USAID/Pakistan
                             Cooperative Agreement No. 391-G-00-10-01188-00, for the Period August 30 to
                             December 31, 2010
11/23/11    G-391-12-002-P   Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program
11/03/11    G-391-12-001-P   Audit of USAID/Pakistan’s Firms Project

11/03/11    G-391-12-002-R   Financial Audit of Budgetary Support to the Government of Pakistan, USAID/Pakistan
                             Program Assistance Agreement No. 391-005-ES-07, Managed by the Ministry of
                             Finance, for the Year Ended June 30, 2008

10/26/11    G-391-12-001-R   Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement
                             No. 391-AAG-012-IL -02, Managed by the Benazir Income Support Program, for the
                             Period September 30, 2009, to March 31, 2011

  FY 2011

09/21/11    G-391-11-005-R   Financial Audit of the Business Revitalization Program, USAID/Pakistan Cooperative
                             Agreement No. 391-A-00-10-01145-00, Managed by Khushhali Bank, for the Period
                             February 6 to December 31, 2010
08/29/11    G-391-11-006-P   Audit of USAID/Pakistan’s Community Rehabilitation Infrastructure Support Program




USAID OIG Afghanistan and Pakistan Oversight Report                                                           63
06/23/11   G-391-11-003-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                            Financial Audit Conducted by A.F. Ferguson, of the Forman Christian College,
                            USAID/Pakistan Grant Agreement No. 391-G-00-04-01036-00, Managed by Forman
                            Christian College, for the Period July 1, 2009, to March 31, 2010
06/23/11   G-391-11-004-R   Closeout Financial Audit of the Development of a 4-Year Bachelor Degree Program
                            and Strengthening Programs in Basic Science and Information Technology,
                            USAID/Pakistan Grant Agreement No. 391-G-00-04-01036-00, Managed by Forman
                            Christian College, for the Period July 1, 2009, to March 31, 2010
06/20/11   G-391-11-005-P   Audit of USAID/Pakistan’s Road Rehabilitation and Reconstruction Activities Under
                            the Quick Impact Projects in South Waziristan
05/26/11   G-391-11-001-N   Financial Audit of USAID/Pakistan’s Rupee Trust Fund for the Period October 1,
                            2006, to September 30, 2009
05/10/11   G-391-11-002-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                            Financial Audit Conducted by Nasir Javaid Maqsood Imran of the Pakistan
                            Competitiveness Support Fund, USAID/Pakistan Grant Agreement No. 391-G-00-06-
                            10730, Managed by the Competitiveness Support Fund, for the Period July 1, 2009, to
                            June 30, 2010
05/10/11   G-391-11-003-R   Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant
                            Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness Support
                            Fund, for the Period July 1, 2009, to June 30, 2010
05/06/11   G-391-11-004-P   Audit of USAID/Pakistan’s Management of Preaward Assessments
04/08/11   G-391-11-001-Q   Quality Control Review of the Audit Report and Audit Documentation for Financial
                            Audits Conducted by Khalid Majid Rahman Sarfraz Rahim Iqbal Rafiq of the
                            Interactive Teaching and Learning Project Managed by Children’s Global Network
                            Pakistan Limited Under USAID/Pakistan Cooperative Agreement No. 391-A-00-06-
                            01075-00, for the Period July 1, 2008, to February 26, 2010
04/08/11   G-391-11-002-R   Closeout Financial Audit of the Interactive Teaching and Learning Project,
                            USAID/Pakistan Cooperative Agreement No. 391-A-00-06-01075-00, and Financial
                            Audit of Links to Learning Education Support to Pakistan Program, Subaward Under
                            USAID/Pakistan Cooperative Agreement No. 391-A-00-08-01100-00, Managed by
                            Children’s Global Network Pakistan Limited, for the Period July 1, 2008, to
                            February 26, 2010
01/24/11   G-391-11-003-P   Audit of USAID/Pakistan’s Flood Relief Efforts as Administered by Local
                            Nongovernmental Organizations
12/30/10   G-391-11-001-R   Closeout Financial Audit of the Developing Non-Bankable Territories for Financial
                            Services Program , USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-
                            00, Managed by Khushhali Bank Limited, for the Period January 1 to September 30,
                            2009
12/10/10   G-391-11-002-P   Audit of USAID/Pakistan’s Livelihood Development Program for the Upper Region of
                            the Federally Administered Tribal Areas
12/10/10   G-391-11-001-P   Audit of USAID/Pakistan’s Livelihood Development Program for the Lower Region of
                            the Federally Administered Tribal Areas



64                                                USAID OIG Afghanistan and Pakistan Oversight Report
11/08/10    G-391-11-001-D   Financial Audit of Costs Incurred Under the School Enhancement Program
                             Component of the Education Sector Reform Assistance Program, USAID/Pakistan
                             Cooperative Agreement No. 391-A-00-03-01000-00, Managed by RTI International,
                             for the Period December 4, 2002, to September 30, 2007

  FY 2010

08/31/10    5-391-10-012-P   Audit of USAID/Pakistan’s Family Advancement for Life and Health Program
08/04/10    G-391-10-001-R   Financial Audit of the Pakistan Competitiveness Support Fund, USAID/Pakistan Grant
                             Agreement No. 391-G-00-06-01073-00, Managed by the Competitiveness Support
                             Fund, for the Period February 3, 2006, to June 30, 2009
06/28/10    5-391-10-010-P   Audit of USAID/Pakistan’s Primary Healthcare Revitalization, Integration and
                             Decentralization in Earthquake-Affected Areas Project
06/28/10    5-391-10-001-S   Review of USAID’s Internally Displaced Persons Programs in Pakistan
05/18/10    5-391-10-033-R   Financial Audit of the College Improvement Program, USAID/Pakistan Grant
                             Agreement No. 391-G-00-04-01036-00, Managed by Forman Christian College,
                             Lahore, for the Period July 1, 2007, to June 30, 2009
04/30/10    5-391-10-029-R   Financial Audit of the Developing Non-Bankable Territories for Financial Services
                             Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00,
                             Managed by Khushhali Bank, for the Year Ended December 31, 2008
03/24/10    5-391-10-026-R   Closeout Financial Audit of the Improved Pakistani Family Planning and Reproductive
                             Health Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-
                             01016-00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for
                             the Period July 1 to December 31, 2007
02/11/10    5-391-10-020-R   Closeout Financial Audit of the Aga Khan University Examination Board,
                             USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01003-00, for the Period
                             January 1 to December 31, 2007
01/28/10    5-391-10-005-P   Audit of USAID/Pakistan’s Capacity Building for the Federally Administered Tribal
                             Areas Development Program
12/22/09    5-391-10-012-R   Financial Audit of USAID Funds Managed by Children's Global Network Pakistan
                             (Guarantee) Limited for the Year Ended June 30, 2008

  FY 2009

08/13/09    5-391-09-006-N   Financial Audit of Budgetary Support, USAID/Pakistan Program Assistance Agreement
                             Nos. 391-005-ES-05 and 391-005-ES-06, Managed by the Ministry of Finance,
                             Government of Pakistan, for the Years Ended June 30, 2006, and 2007
06/25/09    5-391-09-013-R   Financial Audit of the Developing Non-Bankable Territories for Financial Services
                             Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00,
                             Managed by Khushhali Bank, for the Period January 1 to December 31, 2007
05/11/09    5-391-09-002-N   Financial Audit of USAID/Pakistan’s Rupee Trust Fund for Operating Expenses, for
                             Fiscal Years Ended September 30, 2005, and 2006




USAID OIG Afghanistan and Pakistan Oversight Report                                                              65
04/30/09    5-391-09-008-R   Financial Audit of the College Improvement Program, USAID/Pakistan Grant
                             Agreement No. 391-G-00-04-01036-00, Managed by Forman Christian College,
                             Lahore, for the Period August 23, 2004, to June 30, 2007
04/30/09    5-391-09-001-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                             Financial Audit Conducted by A.F. Ferguson & Co. of the College Improvement
                             Program, USAID/Pakistan Grant Agreement No. 391-G-00-04-01036-00, Managed by
                             Forman Christian College, Lahore, for the Period August 23, 2004, to June 30, 2007
04/29/09    5-391-09-007-R   Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan
                             Cooperative Agreement No. 391-A-00-03-01003-00, for the Period January 1 to
                             December 31, 2006
12/15/08    5-391-09-006-R   Financial Audit of the Interactive Teaching and Learning Program in Pakistan,
                             USAID/Pakistan Cooperative Agreement No. 391-A-00-06-01075-00, Managed by the
                             Children’s Resources International Pakistan (Guarantee) Limited, for the Period
                             March 1, 2006, to June 30, 2007
11/25/08    5-391-09-001-P   Audit of USAID/Pakistan’s Earthquake Reconstruction Activities

  FY 2008

09/26/08    5-391-08-035-R   Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
                             Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-
                             00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the
                             Period July 1, 2006, to June 30, 2007
09/25/08    5-391-08-034-R   Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
                             Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-
                             00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the
                             Period July 1, 2005, to June 30, 2006
09/19/08    5-391-08-032-R   Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
                             Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-
                             00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the
                             Period July 1, 2004, to June 30, 2005
08/27/08    5-391-08-030-R   Closeout Financial Audit of the Rewarding Innovation at the District Level Program,
                             USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01015-00, for the Period
                             July 1, 2005, to March 31, 2006, and the Establishing Tent Schools and Cash for Work
                             Program, Grant Agreement No. 391-G-00-06-0169-00, for the Period December 9,
                             2005, to June 15, 2006, Managed by Rural Support Programmes Network
08/20/08    5-391-08-005-N   Financial Audit of the Technical Assistance and Training to Improve Project and
                             Financial Management of Provincial and District Health and Population Welfare
                             Services in Pakistan Project, USAID/Pakistan Limited Scope Grant Agreement
                             No. 391-G-00-04-01020-00, Managed by the Options Consultancy Services Limited–
                             Technical Assistance Management Agency, for the Period January 1, 2004, to
                             March 31, 2006
08/15/08    5-391-08-029-R   Closeout Financial Audit of the Enterprise Development Facility Program,
                             Cooperative Agreement No. 391-A-00-03-01010-00, Managed by the Pakistan
                             Poverty Alleviation Fund, for the Period July 1, 2006, to September 30, 2007



66                                                 USAID OIG Afghanistan and Pakistan Oversight Report
07/02/08    5-391-08-027-R   Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan
                             Cooperative Agreement No. 391-A-00-03-01003-00, for the Period January 1 to
                             December 31, 2005
04/15/08    5-391-08-017-R   Financial Audit of the Developing Non-Bankable Territories for Financial Services
                             Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00,
                             Managed by Khushhali Bank, for the Period January 1, 2005, to December 31, 2006
03/28/08    5-391-08-004-P   Audit of USAID/Pakistan’s Education Sector Reform Assistance Program

  FY 2007
09/28/07    5-391-07-024-R   Financial Audit of the 4-Year Bachelor’s Degree Program, USAID/Pakistan Grant
                             Agreement No. 391-G-00-04-01036-00, Managed by Forman Christian College,
                             Lahore, for the Period July 1, 2005, to June 30, 2006
08/22/07    5-391-07-023-R   Financial Audit of the Enterprise Development Facility Program, Cooperative
                             Agreement No. 391-A-00-03-01010-00, Managed by the Pakistan Poverty Alleviation
                             Fund, for the Period July 1, 2005, to June 30, 2006
07/25/07    5-391-07-020-R   Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
                             Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-
                             00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the
                             Period November 7, 2003, to June 30, 2004
05/23/07    5-391-07-005-P   Audit of Selected Activities Under USAID/Pakistan’s Basic Health Program

05/03/07    5-391-07-014-R   Financial Audit of the Aga Khan University Examination Board, USAID/Pakistan
                             Cooperative Agreement No. 391-A-00-03-01003-00, for the Period July 1, 2003, to
                             December 31, 2004
02/22/07    5-391-07-010-R   Financial Audit of the Fulbright-USAID Scholarship Program, Grant Agreement
                             No. 391-G-00-04-01035-00, Managed by the United States Educational Foundation in
                             Pakistan, for the Period September 1, 2004, to August 31, 2005
01/12/07    5-391-07-007-R   Financial Audit of the Enterprise Development Facility Program, Cooperative
                             Agreement No. 391-A-00-03-01010-00, Managed by the Pakistan Poverty Alleviation
                             Fund, for the Period October 1, 2003, to June 30, 2005
01/12/07    5-391-07-006-R   Financial Audit of the 4-Year Bachelor’s Degree Program, USAID/Pakistan Grant
                             Agreement No. 391-G-00-04-01036-00, Managed by Forman Christian College,
                             Lahore, for the Period August 23, 2004, to June 30, 2005
10/06/06    5-391-07-001-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                             Financial Audit Conducted by KPMG Taseer Hadi & Co. of the Aga Khan University
                             Examination Board, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-
                             01003-00, for the Period July 1, 2003, to December 31, 2004

  FY 2006
09/27/06    5-391-06-033-R   Financial Audit of the Developing Non-Bankable Territories for Financial Services
                             Project, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01011-00,
                             Managed by Khushhali Bank, for the Period October 1, 2003, to December 31, 2004




USAID OIG Afghanistan and Pakistan Oversight Report                                                          67
09/26/06    5-391-06-003-Q   Quality Control Review of the Audit Report and Audit Documentation for the
                             Financial Audit Conducted by Ford Rhodes Sidat Hyder & Co., Pakistan, of the
                             Improved Pakistani Family Planning and Reproductive Health Services Program,
                             USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-00, Managed by
                             Greenstar Social Marketing Pakistan (Guarantee) Limited, for the Period
                             November 7, 2003, to June 30, 2004
09/26/06    5-391-06-032-R   Financial Audit of the Rural Support Programmes Network USAID Grant Rewarding
                             Innovations at the District Level, Agreement No. 391-A-00-03-01015-00, for the
                             Period Ended June 30, 2005
09/13/06    5-391-06-031-R   Financial Audit of the Rural Support Programmes Network USAID Grant Rewarding
                             Innovations at the District Level, Agreement No. 391-A-00-03-01015-00, for the 9-
                             Month Period Ended June 30, 2004
05/11/06    5-391-06-020-R   Financial Audit of the Improved Pakistani Family Planning and Reproductive Health
                             Services Program, USAID/Pakistan Cooperative Agreement No. 391-A-00-03-01016-
                             00, Managed by Greenstar Social Marketing Pakistan (Guarantee) Limited, for the
                             Period November 7, 2003, to June 30, 2004
01/10/06    5-391-06-003-N   Financial Audit of USAID/Pakistan’s Rupee Trust Fund for Operating Expenses, for
                             Fiscal Years Ended September 30, 2002, 2003, and 2004

  FY 2004

10/30/03    5-391-04-001-S   Risk Assessment of Major Activities Managed by USAID/Pakistan

  FY 2003

01/07/03    0-000-03-001-F   Audit of USAID’s Bureau for Asia and the Near East Monitoring of the Government
                             of Pakistan’s Compliance With the Provisions of USAID Grant No. 391-K-005




68                                                 USAID OIG Afghanistan and Pakistan Oversight Report
Appendix 6 – Summaries of Performance Audit and Review
Findings, FYs 2010-2012
The following pages provide summaries of OIG performance audit and review findings from
October 1, 2009, to the end of the last reporting period, March 31, 2012. Report summaries are
presented by country with the most recent performance audits and reviews noted first.

Afghanistan

Audit of USAID/Afghanistan’s Skills Training for Afghan Youth Project (Report No. F-306-12-002-P,
February 7, 2012)

In April 2010, USAID awarded the Education Development Center Inc. (EDC) a $49.9 million, 3-year
cooperative agreement to design and implement the Skills Training for Afghan Youth Project. An important
element of the project is providing financial and technical assistance to two Afghan vocational skills training
centers: the Afghanistan Technical Vocational Institute (ATVI) and the Kunar Vocational Organization (KVO).

By funding operational costs, the project has enabled ATVI and KVO to continue conducting vocational
training. In addition, the project has trained staff at ATVI and KVO in financial management, procurement,
and reporting. However, after 16 months, there was little evidence that the project has made progress
toward strengthening the overall technical capacity of these institutions or empowering youth.

The design and build strategy used for the project, which was incorporated in the cooperative agreement’s
program description, allowed EDC to design and present its implementation plan to USAID for approval
after the award. However, the description included in the cooperative agreement was loosely defined and
largely illustrative, and there was little to demonstrate that USAID and EDC agreed on key elements of the
design. Further, USAID and EDC differed on whether the design had been approved and on what specific
activities were to be implemented during the second phase. OIG determined that without a clearly defined
program description outlining USAID’s expectations for results and a mutual understanding of an approved
design, the project was less likely to implement activities that contribute to the overall goals of the mission.

The program description also did not clearly communicate the project’s purpose, goals, objectives, priorities,
and activities. In fact, a report by an education specialist who assessed the project in May 2011 noted that
the mission could aid program progress by clearly articulating its priorities to EDC and that it should
address key issues such as what deliverables are of critical importance, what targets are acceptable, and
which program areas should be prioritized for implementation.

Review of Responses to Internal Audit Findings on the Local Governance and Community Develop-
ment Project (Report No. F-306-12-001-S, December 26, 2011)

Launched in October 2006, the Local Governance and Community Development Project sought to promote
stability in Afghanistan, focusing on Kandahar City and the Maywand District. Development Alternatives Inc.
(DAI) implemented the project through a contract that ended in August 2011.



USAID OIG Afghanistan and Pakistan Oversight Report                                                          69
The project had many successes, including the completion of more than 2,500 community stabilization
projects; generation of immediate short-term employment totaling 1.5 million employment days through
cash-for-work activities; and completion of significant and lasting improvements in rural infrastructure,
including gravel roads, footbridges, and irrigation systems. However, in March 2011, OIG received a copy of
a DAI internal audit report detailing financial and internal control problems occurring from August 2008
through August 2009. DAI had not provided this report to USAID or returned any funds related to
questioned expenditures identified in the report.

Procurements for the project, including service contracts, fuel supply, and building and vehicle leases had
several deficiencies. For instance, analysis of payment vouchers and the associated procurement documents
revealed $2,019,036 in noncompetitive procurements. In addition, OIG’s review of leases for office space
and guesthouses, at an amount of $6.7 million over 4½ years, revealed that project personnel had entered
into several leases without the required competition and without required approvals. In addition, some
rental payments were apparently made to the project cashier, instead of to the lessors identified in the lease
agreements. DAI staff explained that because many of the property owners did not have bank accounts,
lease payments needed to be in cash. OIG found no documentation showing that the lessors had signed for
receipt of their monthly rents.

Furthermore, OIG determined the contract files for three vehicle leasing companies lacked preaward
documents, bid solicitations, other vendors’ quotations, and approvals from DAI procurement managers. In
one incident, a bid submitted for one procurement (to provide armored and unarmored vehicles) was
copied and included as proof of competitive bidding in another procurement, and correction fluid had been
used to obscure relevant information. DAI staff members were also unable to locate the contract file,
payment vouchers, or project receipts for fuel purchases totaling $3,424,400 from Khyber Afghan
Petroleum, one of DAI’s suppliers. DAI staff had no explanation for this lack of documentation.

Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative for the Southern Region (Report
No. F-306-12-001-P, November 13, 2011)

In June 2009, USAID’s Office of Transition Initiatives (OTI) signed a 3-year, $159.6 million contract with
Chemonics International Inc. (Chemonics) to implement the Afghanistan Stabilization Initiative for the
Southern Region. Under the initiative, Chemonics implemented project activities through grants in districts
and municipalities in Kandahar and Helmand Provinces.

OIG was unable to reach a conclusion about whether the program as a whole was achieving its goal because
of multiple weaknesses in program implementation: a lack of formal work plans, inadequate OTI oversight,
staffing difficulties, and poor-quality subcontractors. In addition, Chemonics did not properly manage its
budget and began running out of funds in the first quarter of FY 2011.

Some security costs incurred for the initiative were questionable. Chemonics paid $1.2 million for personal
security details for staff members who lived on military bases and traveled exclusively in military convoys,
even though no other contractor incurred this type of cost when the contractor’s staff members resided on a
military installation.

Furthermore, Chemonics had leased 13 armored vehicles because officials in the company felt the vehicles
were needed to provide sufficient security. However, Chemonics’ security personnel prohibited expatriate


70                                                  USAID OIG Afghanistan and Pakistan Oversight Report
staff from traveling into the field, and to maintain a low profile, local staff members were using unarmored
vehicles. In addition, vehicle leasing costs were unreasonably high.

The long-term benefits of the initiative were also undercut by a lack of planning. Although some key
districts were ready for longer-term development projects, no comprehensive plans were in place to guide
this transition. Without a comprehensive transition plan to prepare for longer-term development, key
districts may not be able to sustain gains in stability, as district governors may not have the resources to
meet the needs of their communities.

Financial controls were also problematic. For example, Chemonics used cash to make large tax payments to
the Afghan Government, increasing the risk that a payment could be stolen. In May 2011, an employee sent
to a bank in Lashkar Gah with $62,398 to pay taxes to the Ministry of Finance disappeared with the money.
Although most of the money was ultimately recovered, this incident exposed weaknesses in Chemonics’
internal controls.

Audit of USAID/Afghanistan’s On-Budget Funding Assistance to the Ministry of Public Health in
Support of the Partnership Contracts for Health Services Program (Report No. F-306-11-004-P,
September 29, 2011)

In 2008, USAID signed an implementation letter with the Government of the Islamic Republic of Afghanistan
to provide the mission’s first core-budget funding assistance to the Ministry of Public Health (MoPH) in
support of the Partnership Contracts for Health Services Program. Under this program, the mission planned
to provide MoPH with up to $236 million in budget assistance over 5 years to support the delivery of
standardized health services in more than a dozen target provinces. In 2009, MoPH awarded $80 million in
contracts to ten NGOs. These NGOs were responsible for providing standardized health services in more
than 500 health facilities and 5,500 health posts throughout the target provinces.

OIG’s audit found that sustainability of the program was a concern. The government’s extremely low
contribution to health care raises questions about the long-term viability of health services. With shrinking
donor support in the foreseeable future, the Afghan Government’s ability to increase health-care coverage to
90 percent of the population appears unlikely, while its ability to sustain the current level of coverage
remains uncertain. Unless the Afghan Government is able to generate sufficient revenue to cover its health-
care costs, the health sector’s dependency on donor support will continue.

Although the program has contributed to increasing access to and use of health services, OIG noted
deficiencies in quality at all health facilities visited. Doctors and staff at several facilities complained that the
volume of patients was up to double their capacity to handle. Patients sometimes waited up to 5 hours
before receiving medical services, and others went home without receiving treatment. Some of the health
facilities had old equipment that needed repair or replacement. One health facility had a newly donated
anesthesia machine, but the responsible NGO ignored repeated staff requests for training on the equipment.
Several of the buildings were in poor condition, requiring repairs, renovation, and painting.

Program management also needs to be tightened. Confusion over who responds to MoPH’s technical
inquiries has led to delayed responses or inadequate feedback from USAID. In addition, the mission has
limited experience in managing on-budget assistance activities. In fact, when trying to resolve the problem
of consistently late payments to the NGOs, Ministry and USAID staff had difficulty explaining the lengthy and


USAID OIG Afghanistan and Pakistan Oversight Report                                                               71
complicated process, and OIG could not find anyone who could explain the process from start to finish. Staff
attempted to explain the process within their own areas of responsibility, but they contradicted one another,
and most were not sure what happened outside of their own areas.

Review of USAID/Afghanistan’s Afghanistan Civilian Assistance Program (Report No. F-306-11-005-S,
August 31, 2011)

The Afghan Civilian Assistance Program was designed to assist Afghan families and communities that have
suffered losses as a result of military operations against insurgents and the Taliban. The program is
implemented through a $76 million, 4½-year cooperative agreement with the International Organization for
Migration (IOM). Program beneficiaries receive in-kind assistance, often in the form of kits that include
food, household items, school supplies, or tools and equipment for agriculture or small business activities.

IOM did not properly manage commodities under the program. Large quantities of flour, beans, rice, tomato
sauce, and cooking oil that had expired were found, some with dates as far back as 2004. Rats had gnawed
open dozens of food bags, and auditors noted feces inside and around the bags. Further, expired and
contaminated food items were not segregated from food that was fit for use. Other items, such as
wheelbarrows and shovels, were stored in disorganized piles or even kept outside.

In addition to problems with commodities, there were also difficulties with verifying beneficiaries. A report
commissioned by IOM to confirm assistance concluded that at least 34 percent of the beneficiaries in two
districts could not be verified, most likely because of fraud. Moreover, the report’s authors believed that
program personnel were actively working to undermine the results of their investigation. Additionally,
other funds were misspent when IOM used more than $3.6 million in program funds to purchase cars for
beneficiaries without USAID’s approval. Furthermore, OIG determined that $180,000 embezzled by field
staff had not been properly been reimbursed to USAID.

Audit of USAID/Afghanistan’s Support to the Electoral Process (STEP) and Support for Increased
Electoral Participation in Afghanistan (IEP) Programs (Report No. F-306-11-003-P, June 19, 2011)

To help strengthen Afghanistan’s electoral system, USAID/Afghanistan has provided assistance through the
STEP program implemented under a contract with the International Foundation for Electoral Systems and
the IEP program implemented through a cooperative agreement with the Consortium for Election and
Political Process Strengthening.

The STEP program has achieved many short term objectives—in particular, those dealing with civic
education and outreach, training, and staffing of the Independent Election Commission and the Electoral
Complaints Commission. The program has helped increase the capacity of both commissions to administer
elections and has contributed to the credibility of the elections themselves.

The IEP program has also performed well, training tens of thousands of Afghans who participated in
elections as political party or coalition members and election observers. Furthermore, the program
implemented civil and voter education programs that reached hundreds of thousands of people.

Despite these accomplishments, no persuasive evidence exists that these short-term results have produced
increased citizen awareness of the electoral process or a stronger democratic political party system. In fact,


72                                                  USAID OIG Afghanistan and Pakistan Oversight Report
auditors reported on a number of longer-term issues that need to be addressed to better ensure credible
elections, including legal reforms to protect the independence of the Electoral Commission and Electoral
Complaints Commission, reform of the single nontransferable vote system of representation in favor of a
system in which votes and electoral results have a more predictable and proportional relationship, actions
to make Afghanistan’s electoral system more sustainable, and a more reliable voter registry.

Moreover, costs could have been reduced by consolidating consortium expenses. Specifically, each
consortium participant had its own Kabul-based home office, living quarters, and support functions such as
security, human resources, and information technology. Combining these costs would have saved the
mission a combined 15 to 20 percent, or $6 million to $8 million.

Review of USAID/Afghanistan’s Portion of the Embassy Air Program (Report No. F-306-11-004-S,
June 9, 2011)

On January 4, 2010, USAID awarded Aircraft Charter Solutions Inc. a 2-year, $361 million contract to supply
air transportation in Afghanistan. The contractor provided aircraft, personnel, equipment, tools, material,
maintenance, spare parts, and supervision for transportation to and from various locations in the country.
The aircraft provided by the contractor included seven 18-passenger Beechcraft 1900s, three 8-passenger
Beechcraft Super King Air 200s, two Bell 412 helicopters, and four MI-8 helicopters.

OIG’s review found that the USAID-funded portion of the Embassy Air Program was providing safe and
reliable air service in support of provincial reconstruction teams and other U.S. Government development
assistance programs in Afghanistan; however, the review identified many opportunities for improvement.
For instance, between February 2010 and January 2011, 20 percent of passengers (almost 10,000 people)
with reservations on Embassy Air did not appear for their flights. These passengers did not cancel 24 hours
in advance as required but incurred no penalty; with a cancellation system in place, these seats could have
been offered to others. Additionally, unapproved international travel by Aircraft Charter Solutions
personnel led to more than $525,000 in questioned costs.

Furthermore, Aircraft Charter Solutions did not provide the mission with required work plans, performance
management plans, or progress reports that would detail problems encountered or resolved, best practices,
flights or activities completed, or performance standards. Without these reports, the mission was unable to
monitor the program effectively.

OIG also noted that USAID markings were missing from all of the aircraft and that environmental
requirements for the contract were ambiguous and needed to be updated.

Audit of USAID/Afghanistan’s Construction of Health and Education Facilities Program (Report No. F-
306-11-002-P, March 27, 2011)

To help respond to unmet health and education needs in Afghanistan, USAID/Afghanistan entered into a
$57 million cooperative agreement with IOM in January 2008, effective through January 2011, to implement
the Construction of Health and Education Facilities Program. The agreement was subsequently extended
through June 2012.




USAID OIG Afghanistan and Pakistan Oversight Report                                                     73
The objective of the audit was to determine whether USAID/Afghanistan’s program was achieving its main
goals of strengthening the Government of the Islamic Republic of Afghanistan’s ability to provide health
services to its citizens and train competent teachers by constructing provincial hospitals, midwife training
centers, and provincial teacher training colleges.

While the mission had realized some successes—for example, in strengthening the capacity of local
construction companies and adhering to the international building code—the program was not on schedule
to achieve its main goals. Construction fell significantly behind schedule. The program was approximately
18 months behind schedule and was making slow progress toward achieving its goals. Cost and security
issues reduced the scope of new construction. Achievement of the original goals of the agreement was
hindered by funding limitations. Federal requirements also were violated when the mission approved the
building of religious structures. IOM’s technical proposal clearly indicated that these religious structures
would be incorporated into the designs of the provincial teacher training colleges, but USAID staff failed to
recognize these structures as being ineligible for USAID funding.

The audit disclosed several instances of noncompliance with IOM’s quality control manual, which is
incorporated into the cooperative agreement and approved by the mission. The manual required specific
tests of construction materials to be performed at specified intervals, but in some cases there was no
evidence that required tests had been performed. For example, of 49 cases auditors reviewed in which 7-
day concrete compression strength tests were required, IOM could only provide evidence that 35 were
performed.

Additionally, facility sustainability was questionable. The ability of the Ministries of Education and Public
Health to maintain completed structures was questionable because of competing priorities for ministry
funds, which could further hinder achievement of the program’s main goals.

Review of USAID/Afghanistan’s Bank Supervision Assistance Activities and the Kabul Bank Crisis
(Report No. F-306-11-003-S, March 16, 2011)

Since 2003, USAID/Afghanistan has supported a number of capacity-building activities at the Afghanistan
Central Bank (DAB) to help DAB regulate the banking sector. Deloitte provided DAB technical assistance in
bank supervision and examination through a $92 million task order under the Economic Growth and
Governance Initiative. The purpose of the task order was to increase Afghanistan's ability to develop and
implement sound economic and regulatory policies that provide the foundation for private sector growth in
a market economy. According to Deloitte's work plan, one of the main goals was to assist DAB in fulfilling its
statutory responsibilities—to promote the stability and contribution to economic growth of the financial
sector and to prevent avoidable losses. Deloitte provided onsite technical advisers at DAB’s Directorate for
Financial Supervision.

After depositors’ run on Kabul Bank, senior officials in the U.S. Embassy raised concerns about Deloitte’s
performance. Specifically, they were concerned that Deloitte staff did not warn the U.S. Government about
looming problems at Kabul Bank before the first news reports broke in February 2010. They also
questioned Deloitte’s effectiveness and performance because Deloitte staff had provided bank supervision
assistance to DAB for 7 years, yet DAB supervisors were unable to prevent the near collapse of Afghanistan's
largest bank. In January 2011, USAID/Afghanistan requested OIG assistance in determining whether USAID
or Deloitte staff members were negligent in failing to report Kabul Bank fraud.


74                                                  USAID OIG Afghanistan and Pakistan Oversight Report
In response to USAID/Afghanistan’s request, OIG conducted this review to determine what opportunities
USAID and contractor staff members had to learn of fraudulent activities at Kabul Bank through USAID’s
Economic Growth and Governance Initiative and its predecessor, the Economic Growth and Private Sector
Strengthening Activity. The review also sought to determine how staff members learned of the fraud and
what actions they took once they became aware of the fraud.

The audit found that BearingPoint and Deloitte advisers who were embedded at DAB encountered
indications of fraud at Kabul Bank on a number of occasions over a span of 2 years before the run on Kabul
Bank in early September 2010. However, they did not aggressively follow up on these indications. Also,
Deloitte advisers did not report fraud indicators at Kabul Bank to USAID, and the mission did not have a
policy requiring contractors and grantees to report indications of fraud in host-government institutions or
possible problems that could reasonably be considered to be of foreign policy interest to USAID and the U.S.
Government. OIG auditors also concluded that USAID/Afghanistan’s management of its task order with
Deloitte was weak. If senior program managers and technical experts had been on staff at the mission,
USAID would have had greater capacity to detect deficiencies in Deloitte's technical assistance activities, to
question Deloitte advisers’ written and oral reports, and to delve more deeply into those reports, rather than
accepting them at face value.

In hindsight, Deloitte’s lead adviser acknowledged that Deloitte should have taken more aggressive actions
in November 2009, such as resuming participation by Deloitte’s advisers in onsite bank examinations
alongside the DAB examiners. This practice was suspended in November 2008 because an adviser received
death threats. The lead adviser said that if Deloitte’s onsite assistance had restarted in November 2009, the
fraud could have been detected earlier, and the magnitude of losses would have been smaller.

Review of Cash Disbursement Practices Employed by Selected USAID/Afghanistan Contractors and
Grantees (Report No. F-306-11-002-S, March 7, 2011)

In late 2001, following decades of conflict, the financial and banking systems of Afghanistan were
devastated. Afghanistan had six licensed, state-owned commercial banks that were almost entirely based in
Kabul and, to a large extent, inactive. Besides lacking connectivity and reliable information on assets and
liabilities, the banks did not follow generally accepted accounting standards. Vital functions of the central
bank were not defined or carried out, and Afghanistan lacked a credible, formal payment system. Lack of
confidence in the banking system and uncertainties and difficulties faced by the population and the business
sector led them to rely almost exclusively on the hawala money transfer system, an informal network of
cash brokers who operate based on trust and reputation.

OIG examined the cash disbursement practices of ten USAID contractors and grantees. Selected contractors
and grantees represented about 42 percent of USAID/Afghanistan’s total active awards ($3.4 billion) and
included six of the mission’s program areas: infrastructure, democracy and governance, education, health,
economic growth, and stabilization in support of the U.S. Government’s counterinsurgency strategy. Using
an OIG risk assessment of USAID/Afghanistan’s contractors and grantees, we evaluated internal controls
over cash disbursements, performed a walk-through of the process for cash voucher payment, reviewed a
judgmental sample of cash vouchers and supporting documents, identified areas for improvement, and
noted best practices employed.




USAID OIG Afghanistan and Pakistan Oversight Report                                                        75
According to information provided by the selected implementing partners, they made $13.5 million in cash
payments in 2010, representing 7 percent of the $181.1 million in total costs they incurred in Afghanistan.
For individual implementing partners, cash payments as a percentage of total costs incurred in Afghanistan
ranged from 2 to 69 percent. The types of costs paid in cash included office supplies, local travel, prepaid
phone cards, utilities, and maintenance. The implementing partners that had a higher percentage of costs
paid in cash also used cash for programmatic activities such as small grants, cash-for-work programs, and
microfinance loans.

Overall, OIG auditors determined that audited cash expenditures were reasonable, allocable, and allowable.
However, no controls can completely eliminate the risk of fraud, loss, and personal harm to staff associated
with handling and transporting cash in a war zone. And, following the review, five of the ten selected
implementing partners took steps to reduce their cash exposure risk by proactively seeking ways to make
payments through electronic funds transfers, check, or hawala transfers. The selected implementing
partners also implemented a number of best practices for managing cash disbursements that other
USAID/Afghanistan implementing partners should consider adopting.

Audit of USAID/Afghanistan’s Agriculture, Water, and Technology Transfer Program (Report No. F-
306-11-001-P, February 13, 2011)

According to USAID/Afghanistan, nearly 80 percent of Afghans earn their living from agriculture.
USAID/Afghanistan’s active agriculture and alternative livelihoods programs, with reported obligations of
$701 million and disbursements of $494 million as of September 30, 2010, were designed to create jobs and
increase incomes in the agricultural sector and increase Afghans’ confidence in their government,
particularly in the Ministry of Agriculture, Irrigation and Livestock. One such program, the Afghanistan
Agriculture, Water, and Technology Transfer Program, is implemented through a $20 million cooperative
agreement with New Mexico State University (NMSU).

The objective of this audit was to determine whether the program was achieving its main goals, which dealt
with irrigation water management, agricultural technology transfer, and institution building. Two-and-a-
half years into the 3-year program, NMSU had achieved a number of successes in introducing new
agricultural and water technologies, and many farmers were participating in on-farm demonstrations of
these technologies. Auditors found some evidence of demand for these new technologies—such as laser-
guided equipment for leveling land for surface irrigation—but adoption of the technologies remained in the
future.

Financial records for the program showed that about 61 percent of spending was in Afghanistan, while the
other 39 percent was in the United States. Officials connected with the program raised concerns that the
high proportion of expenditures in the United States left fewer resources available for activities in
Afghanistan and raised other questions about the financial management of the program. To address these
issues, OIG contracted with an audit firm to conduct financial audits of NMSU and its partner universities in
the United States and issued a separate report with audit results.

USAID’s cooperative agreement with NMSU also established the development of an institutional framework
for effective management of the country’s limited water resources as a key objective. NMSU demonstrated a
number of water-conserving technologies and successfully stimulated demand for some of them. However,



76                                                  USAID OIG Afghanistan and Pakistan Oversight Report
farmers had not adopted these technologies for wider use, and NMSU placed relatively little emphasis on
improving distribution of irrigation water resources.

NMSU’s efforts had not yet resulted in a more equitable, community-based system for managing irrigation
water. NMSU officials noted that the water-conserving technologies that they introduced could make more
water available for farmers at the tail of irrigation canals. For this to occur, however, the technologies must
be widely adopted, and evidence of adoption of these technologies was lacking.

Review of USAID/Afghanistan’s Ministerial Assessment Process (Report No. F-306-11-001-S,
November 6, 2010)

The U.S. Government planned to deliver 50 percent of its development aid to Afghanistan through the
government’s core budget by the end of calendar year 2011. With this expectation, USAID/Afghanistan
conducted a series of preaward assessments of Afghan ministries to see whether they could responsibly
manage U.S. Government resources. A preaward assessment (sometimes called a preaward survey or
preaward audit) involves inquiries, observations, and tests to see whether the assessed entity has the
requisite procedures, internal controls, experienced personnel, and other resources needed to manage U.S.
Government funds responsibly.

OIG’s review—which focused on assessments already performed by USAID/Afghanistan, as well as on draft
scopes of work for future assessments—found that those conducted did not provide reasonable assurance of
detecting significant vulnerabilities. The scope of the assessments varied from one ministry to another, but
some significant limitations existed. For example, reviewers did not know what programs the ministries
would be asked to manage and could not therefore address the ministries’ capacity in these areas. In
addition, none of the assessments explicitly considered the control environment in Afghanistan or in
individual ministries (e.g., the existence of widespread impunity or the ability of high-level officials to
interfere with law enforcement institutions and processes).

OIG found a need for more testing to see whether internal control procedures were followed. In addition,
more coverage of controls over fixed assets and payroll and attendance was required. Reviewers needed
more guidance on how to assess compliance with applicable laws and regulations, and more extensive
USAID supervisory review of assessment reports was also required.

Audit of USAID/Afghanistan’s Support to the American University of Afghanistan (Report No. 5-306-
11-002-P, November 5, 2010)

The Afghan Constitution and Civil Code, which took effect in July 2004, chartered the American University of
Afghanistan to provide a high-quality education that meets international standards and emphasizes a liberal
arts curriculum and higher education for the professions (e.g., offering courses in business English,
information technology, leadership, and business management).              The university began offering
undergraduate courses and professional programs in September 2006.

To assist in the university’s development, USAID/Afghanistan entered into a $42 million cooperative
agreement with the university in August 2008, effective through July 2013.




USAID OIG Afghanistan and Pakistan Oversight Report                                                         77
OIG’s audit found that the university, with USAID/Afghanistan’s support, had increased student enrollment
and improved school infrastructure, although the development of a new campus was behind schedule. The
university had increased the number of qualified staff, one of the program goals. However, the university
had not made progress in becoming self-sustaining. Despite increasing revenue from student tuition, it was
struggling with fund-raising, which is essential for sustainability. As of May 2010, the university had raised
only $4.5 million of the $14 million required and only $2.2 million had been collected, the remainder
consisting only of pledges. Additionally, although the university planned to raise $23 million in capital for
the construction of the new campus, as of May 2010, AUAf had identified only two donors; therefore, OIG
questioned whether the university would be self-sustaining after U.S. Government funding ceases.

The audit found that the university was also behind schedule in reforming its undergraduate program,
which was making it less competitive with other private universities in Afghanistan. Furthermore, the
University’s Professional Development Institute had poor attendance because students lacked interest, and
most of the reviewed course syllabi contained no written completion requirements. Because the university
had not submitted required planning documents, including its second-year budget, the mission was
withholding additional funding. Further, the university was unlikely to meet its goal of increasing
enrollment of women to 30 percent; Afghan cultural norms make families unwilling to send girls to an
American higher education facility because of the stigma of associating with people from other countries.

In addition to documenting funding and curriculum problems, OIG found that the university did not follow
environmental procedures in construction of the new campus or in renovations of existing facilities.

Audit of USAID/Afghanistan’s Partnership for Advancing Community-Based Education in Afghanistan
(Report No. 5-306-11-001-P, October 28, 2010)

This 5-year program was designed to expand quality learning and life opportunities for marginalized
communities and their children in Afghanistan. The program’s core objectives were to expand access to
community-based schools, strengthen community structures and processes that support basic education,
and improve the quality of community-based education. Program activities were expected to directly
benefit a total of 93,240 students—of whom at least 60 percent were to be girls or women—in over 1,000
communities in 90 districts and 20 provinces.

Although the majority of program activities involved primary education classes covering Grades 1 through 6,
the program also offered other types of classes, including early childhood development and adult literacy,
for learners younger or older than primary school age (7 to 12 years old).

The audit determined that the program was partially achieving its goals but was not offering its teachers
basic training to ensure that their students received a quality education. Results reported on this and other
program areas also were not adequately supported. In addition, efforts to integrate the program’s primary
classes into the Ministry of Education system were not always implemented effectively.

According to a progress report for the quarter ending March 31, 2010, program activities had resulted in the
establishment of 3,695 classes attended by 98,212 students—the majority of whom were girls—in a total of
1,672 communities located in 97 districts and 19 provinces, meeting or exceeding at least some of the
program’s targets. The program had also made progress in facilitating the integration of 51 percent of its
primary classes into the Ministry of Education system.


78                                                  USAID OIG Afghanistan and Pakistan Oversight Report
The program was not fully achieving all of its core objectives, however. One area in which program efforts
fell short was teacher training, the primary means of ensuring that program-supported students receive a
quality education.

An examination of the records for four tested provinces also disclosed that data reported under several
performance measures relating to teacher training and other activities were not adequately supported,
partly because of record-keeping deficiencies.

Review of Security Costs Charged to USAID Projects in Afghanistan (Report No. 5-306-10-002-S,
September 29, 2010)

USAID/Afghanistan relies on private security contractors (PSCs) to supply an array of security services for
contractors and grantees that implement USAID-funded projects in Afghanistan. PSCs free up military forces
for their core missions and provide protection to USAID’s implementing partners in hostile environments.
USAID/Afghanistan’s practice has been to delegate responsibility and oversight for security to its
implementing partners and factor the cost of security into their program budgets. These implementing
partners typically subcontract their security services to PSCs. USAID indirectly pays for PSCs when the
implementing partners submit their invoices, which include the cost of security services, for payment.

In the past year, news reports have said that U.S. Government funds paid to contractors for reconstruction
projects were being siphoned off to Taliban insurgents in exchange for “protection” to prevent attacks. For
example, one news article reported that USAID funds were ending up in the hands of the Taliban through a
protection racket for contractors. Another article said that in southern Afghanistan, no contract could be
implemented without the Taliban taking a cut, sometimes at various steps along the way. Other news
reports said that PSCs were involved in the negotiations with insurgents. OIG staff met with one of the
reporters involved to obtain additional details.

OIG conducted a review of Edinburgh International’s security costs charged to the following three USAID-
funded projects in Afghanistan implemented by Development Alternatives Inc.:

   Afghanistan Small and Medium Enterprise Development
   Incentives Driving Economic Alternatives for the North, East, and West
   Local Governance and Community Development (LGCD)

The review found no indication that Edinburgh International had misused USAID funds to pay the Taliban or
others in exchange for protection. However, there were indications that Afghan subcontractors working on
the LGCD project had paid insurgents for protection in remote and insecure areas of Afghanistan. The
payments allegedly were made as part of a security arrangement with local communities that very likely
included the Taliban or groups that support them.

OIG also found indications of pervasive fraud in DAI’s LGCD office in Jalalabad and indications of endemic
corruption in Nangarhar Province, where Jalalabad is located. It is conducting an investigation with
members of the International Contract Corruption Task Force, including the Special Inspector General for
Afghanistan Reconstruction and the Federal Bureau of Investigation, as well as with the local Afghanistan
prosecutor’s office and the Afghanistan Major Crimes Task Force. In June 2010, DAI terminated ten LGCD
employees who were involved in the fraud scheme.


USAID OIG Afghanistan and Pakistan Oversight Report                                                     79
Audit of USAID/Afghanistan's Alternative Development Program Expansion, South West (Report
No. 5-306-10-011-P, July 29, 2010)

The production and trafficking of illicit narcotics in Afghanistan breed corruption and provide resources to
the Taliban, drug lords, and other terrorist groups. The U.S. Government has supported the Afghan
Government’s counternarcotics strategy of providing incentives to stop growing opium poppy through
alternative development projects; supporting strong disincentives in the form of provincial governor-led
eradication, interdiction, and law enforcement; and spreading the antinarcotics message.

USAID awarded a contract to Associates in Rural Development to implement a 3-year, $75 million program
to counter illicit poppy cultivation by providing alternative development programs, improved economic
opportunities, and diverse regional economic growth.

The program made progress. A 32 percent decrease in poppy production between 2008 and 2009 was
attributed to strong antipoppy messages from provincial governors, increased interdiction activities, an
overproduction of poppy in prior years that suppressed market prices, and provision of alternative
economic opportunities in targeted districts in each province. The implementer established 45 cash-for-
work projects that included road, canal, and market rehabilitations. One project provided employment to
220 workers, while another project targeted 30 disadvantaged women, mainly widows. The program also
assisted local farmers with sales of produce totaling nearly $3.8 million. Further, it helped the Farah
Farmer’s Union, a cooperative of 8,700 growers, identify business opportunities and develop the Farah
Agricultural Center, which will provide an all-inclusive hub for market expansion and business development.

Despite the program’s progress, the audit disclosed problems. First, continued reductions in poppy
cultivation may not be sustainable because a critical southern province was not included in the program,
and no follow-on alternative development program had been approved beyond March 2011. Second, the
program experienced delays in implementation, partly because of security issues. Also, a new embassy-led
annual program review process, the restructuring of the regional commands, and the mission’s plan to
implement regional platforms presented challenges that could hamper program implementation if not
properly managed.

Review of School and Health Clinic Buildings Completed Under the Schools and Clinics Construction
and Refurbishment Program (Report No. 5-306-10-009-P, June 24, 2010)

In September 2002, USAID/Afghanistan began to build and reconstruct schools and health clinics
throughout Afghanistan under the Schools and Clinics Construction and Refurbishment Program. During the
following 4 years, the mission increased the number of structures the program would work on from fewer
than 100 to 776. Similarly, the number of implementing partners grew to more than a half dozen, and
disbursements under the program amounted to more than $105 million.

In October 2004, OIG audited school and health clinic reconstruction activities.7 The audit found that the
program was behind schedule, and it recommended that the mission develop a new implementation plan.


7“Audit of USAID/Afghanistan’s School and Clinic Reconstruction Program,” Report No. 5-306-05-003-P,
March 14, 2005.



80                                                  USAID OIG Afghanistan and Pakistan Oversight Report
OIG contracted with KPMG Afghanistan—whose staff could travel more easily within Afghanistan—to
conduct site visits for this review. OIG provided KPMG a statistical sample of 50 buildings—30 schools and
20 clinics—from the 776 schools and clinics completed across Afghanistan under the program. The review
had two objectives: (1) to determine whether schools and clinics constructed under the program were being
used for their intended purposes and (2) to measure the impact of the program on the provision of
education and health services to the people of Afghanistan.

KPMG visited and inspected 50 buildings to verify their physical existence and observe how they were being
used. Overall, KPMG found that 48 of the 50 facilities were being used for their intended purposes. The two
exceptions were due to security concerns in the surrounding area and one building’s inability to
accommodate area students.

However, KPMG noted numerous physical deficiencies in the condition of the school and health clinic
buildings. These deficiencies included structural problems, poor hardware, lack of electrical supply
(because buildings were located in areas where electrical service was unavailable), deficient (or
nonexistent) water service and plumbing, and toilet problems. However, KPMG could not determine
whether the deficiencies were attributable to work performed under the program or to a subsequent lack of
maintenance.

KPMG noted that the deficiencies created an environment that was not conducive to quality education and
health services and might sicken or endanger the students, patients, and staff working in those buildings. In
addition, the report noted operational problems in the schools and clinics. These problems included poor
maintenance, inadequate personnel, and lack of furniture and equipment. These conditions, however, were
the responsibility of the Afghan Government.

To measure the impact of the program on providing educational and health services to the people of
Afghanistan, KPMG scheduled its field visits when the schools and clinics were in use and reviewed records
and documentation maintained at each location. KPMG found that the 30 schools visited were staffed with
1,385 teachers providing instruction to 57,744 students. The 20 health clinics visited employed 109 clinical
staff and provided medical treatment to approximately 39,500 patients a month. KPMG concluded,
however, that these figures did not provide a meaningful indication of the completed buildings’ impact on
the provision of education and health services in Afghanistan because baseline information was not
available for comparison.

Audit of USAID/Afghanistan’s Oversight of Private Security Contractors in Afghanistan (Report No. 5-
306-10-009-P, May 21, 2010)

USAID program implementers rely on PSCs to protect their operations in hostile environments. However,
the murder of 4 PSCs in Iraq in 2004 and the killing of 17 Iraqi civilians by PSCs in 2007 raised concerns
about failures to supervise PSCs adequately and to properly investigate alleged killings by security
contractors. In January 2008, Congress enacted detailed oversight requirements for PSCs in combat
operation areas, to be implemented by DOD regulation and the Federal Acquisition Regulation.

OIG examined the reporting of serious security incidents, the steps USAID implementing partners took to
subcontract with responsible firms, the costs of these services, and the oversight of those costs. We found
that USAID had not implemented detailed statutory oversight requirements intended to cover both non-DOD


USAID OIG Afghanistan and Pakistan Oversight Report                                                       81
and DOD PSCs in Afghanistan because the chief of mission had not issued mission-wide instructions in
accordance with the DOD implementing regulation. As a result, USAID PSCs did not report certain serious
security incidents (e.g., persons killed or injured as a result of PSC conduct) that they otherwise would have
been required to report had mission-wide instructions implementing the statutory requirements been
issued. The mission-wide instructions also would have incorporated statutorily mandated procedures to
ensure PSCs in Afghanistan were qualified and responsible. The report found such procedures were not in
place.

USAID/Afghanistan provided only limited oversight and direction regarding standards and requirements for
security and could not ensure that responsible security firms were employed. The audit found that two PSCs
were not licensed with the Afghan Government and that USAID/Afghanistan did not provide subcontracting
consent for 17 private security firms or include in its contracts a clause requiring various security
measures. Moreover, USAID/Afghanistan had no standard grant award provision related to security, so
about one-third of its awards with subcontracted PSCs had no standard security requirements. With respect
to security costs, prime implementing partners reported that they had charged about $167 million for
subcontracted PSC services during the review period. On average, these services accounted for 8.3 percent
of award disbursements.

Audit of USAID/Afghanistan's Afghanistan Vouchers for Increased Productive Agriculture Program
(Report No. 5-306-10-008-P, April 20, 2010)

This program was initially designed to provide wheat seed and fertilizer to drought-affected subsistence
farmers to help them increase wheat production in targeted areas of the country.

The audit found that the program had contributed to the country’s increase in wheat production; however,
the extent of the program’s role in this increase was unclear, since the audit determined that some of the
reported results were not reliable. In addition, the program’s stabilization activities in the country’s
southern region were not being implemented as widely as originally planned.

The audit identified several other problems. In addition to the lack of reliable data to measure program
results, the program suffered from insufficient oversight. The implementer could not retain staff, in part
because of death threats, and project staff members were overburdened by requests for information and
briefings from officials outside of USAID. In some cases, materials did not reach beneficiaries (a finding
referred to OIG’s Office of Investigations). Moreover, the audit noted that up to $50 million in unspent
program funds could be reprogrammed for other activities.

Audit of USAID/Afghanistan’s Human Resources and Logistical Support Program (Report No. 5-306-
10-007-P, March 31, 2010)

USAID/Afghanistan launched its Human Resources and Logistical Support Program in February 2007 to help
design, monitor, and support the activities of USAID-funded contractors. The program intended to (1)
enhance capacity at selected ministries, (2) identify USAID-constructed buildings that did not meet seismic
standards, and (3) provide quality assurance and engineering oversight for mission construction projects.
USAID awarded a 5-year, $72 million contract to International Relief and Development Inc. to implement the
program.



82                                                  USAID OIG Afghanistan and Pakistan Oversight Report
The audit found that the program had made progress in capacity building in selected Afghan ministries,
identified defective USAID-built structures, and provided engineering oversight for mission construction
projects.

In support of its first goal, the program provided the Afghan Government with additional capacity. Technical
consultants hired under the program assisted Ministry of Mines personnel in preparing a proposal for the
rehabilitation of gas fields to generate electrical power for the country. Meanwhile, at the Ministry of Public
Works, program advisers initiated the development of a pilot program to teach ministry staff how to
implement and monitor road construction projects and provide them with a more efficient means of
managing and maintaining roads in the future. At the Ministry of Energy and Water, the program contractor
provided a transboundary water-rights adviser to help the ministry develop water policies for negotiations
with neighbors in other countries.

With regard to the second goal—evaluating and identifying USAID-built structures that did not meet seismic
standards—the program was successful in establishing a process for identifying structures that were not
earthquake resistant. The mission had a database of 1,474 USAID-built structures, but the database was not
complete. As of October 2009, the program had completed preliminary assessments of 468 of these
structures and detailed structural seismic evaluations of 35. At that point, the program had found 15
structures to be unsafe for occupancy.

With regard to the third goal, of providing quality assurance and engineering oversight on USAID
construction projects, the program had succeeded in providing these services for projects initiated by the
mission’s Office of Infrastructure, Engineering and Energy. However, the mission had not been so successful
in providing quality-assurance services for construction projects initiated by other program offices in the
mission.

Despite the program’s progress in addressing its three main goals, it had serious issues to address. The most
critical issue was to identify the many defective structures remaining among the estimated 1,474 mission-
built structures. The total number of defective structures was to be determined with the completion of the
remaining preliminary assessments and any subsequent detailed seismic evaluations. The mission
anticipated that the contractor would complete 200 seismic evaluations by the end of the contract. In
addition, significant defects in five buildings reported in a prior Office of Inspector General audit report
(“Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program,” Report No. 5-306-08-009-P,
August 8, 2008) had yet to be corrected.

Unless defective structures are identified and repaired or rebuilt, a catastrophic earthquake could destroy
them and cause many injuries and deaths.

Audit of USAID/Afghanistan’s Building Education Support Systems for Teachers Project (Report No. 5-
306-10-006-P, January 29, 2010)

Almost 4 years into a $94 million, 5-year contract with Creative Associates International Inc. to implement
USAID’s Building Education Support Systems for Teachers project, OIG’s audit concluded that the project
was making progress in helping to improve the quality of education in Afghanistan but had not achieved its
two main goals: improving teaching through teacher training, and institutionalizing ministry structures and
systems that support high-quality teaching.


USAID OIG Afghanistan and Pakistan Oversight Report                                                         83
Afghanistan has one of the highest illiteracy rates in the world. More than 11 million Afghans over the age of
15 cannot read or write. In rural areas, where three-fourths of all Afghans live, 90 percent of the women and
over 60 percent of the men are illiterate. Under the Taliban, girls were not allowed to go to school, fewer
than 900,000 boys were enrolled, and many received religious education in lieu of academics. The
implications of this lack of education can be felt in all domains of life. Afghans have little access to
information about good health practices, and most of the country’s judges and civil servants do not have
more than a high school diploma. Today more than 5.7 million students attend school. However, the Afghan
Government is striving to improve education for its people, and the Ministry of Education worked with
USAID and other donors to implement a 5-year National Education Strategic Plan (2006–2010).

The audit found that much of the training of teachers had been completed. For example, 50,600 of the target
of 54,000 teachers in the 11 provinces had received in-service training for teachers already working for the
Ministry of Education. Although the project had not attempted to measure the extent to which teaching had
actually been improved, teachers we spoke with expressed satisfaction with the training they had
received. And much of the technical assistance to the Ministry of Education had been completed. For
example, Creative Associates had assisted in recruiting and selecting most of the 444 candidates who were
expected to help the Ministry of Education develop its capacity to improve the quality of teaching.

In addition, the audit found that district teacher training teams had been established to help conduct
training in all 11 provinces. This approach used a cascading process of training existing teachers as
instructors who in turn would train other teachers. The project teamed with subcontractors to select and
hire 181 team leaders, 1,361 team members, and 8 provincial project monitoring officers, all by December
2007. Moreover, the project developed (1) an action plan for the Ministry of Education’s 5-year strategic
plan, (2) a human resources policy manual, (3) a training curriculum for management skills, and (4) an
action plan for the integration of the Human Resources Department and the Reform Implementation and
Management Unit at the Ministry of Education.

Notwithstanding these accomplishments, the audit found that some significant tasks and activities included
in the project’s contract and work plan had not been completed. For example, the project had not completed
the curriculum development and related in-service teacher training or the accelerated program for teachers
who did not meet Ministry of Education teaching qualifications for their specific subject/grade level, as
planned under component 1 of the project. The project also did not complete some activities planned under
component 2—for example, technical assistance intended for the Ministry of Education’s Human Resources
Department, such as development of a curriculum and staff training on a human resource database; creation
of a training manual for the payroll database for budget staff; and preparation of at least one workshop on
pedagogical methods for faculty at each provincial teacher training college. The contractor hoped to
complete these efforts by the contract’s end.

Audit of USAID/Afghanistan’s Civilian Assistance Program (Report No. 5-306-10-004-P, December 15,
2009)

The Civilian Assistance Program is being implemented through a $27 million, 3-year cooperative agreement
(April 2007 to April 2010) with the International Organization for Migration. OIG’s audit found that the
program—which is intended to provide help to Afghan families and communities that have suffered losses
because of military operations—was not on target to assist eligible program beneficiaries.



84                                                  USAID OIG Afghanistan and Pakistan Oversight Report
Assistance under the program was generally provided in the form of goods and services to those who have
suffered losses—a farmer might receive a tractor or livestock and a grocer might receive merchandise to
restock his store. At the midpoint of the program, just over 800 of the more than 6,000 eligible families in
the program were receiving assistance, about 13 percent. As of January 22, 2009, the implementer reported
that it had assisted only about 40 percent of families included in its revised recovery plan, which had been
submitted just after the implementation midpoint.

In addition, until the program was halfway through, USAID officials had very limited involvement in the
program and little information about its progress. Officials had not followed up regularly on the status of
the implementer’s implementation plan, monitoring and evaluation plan, or quarterly program reports. The
mission also had not made sufficient site visits to evaluate the program’s progress and had not properly
monitored the staffing of positions for the implementing organization.

Security concerns contributed to the program’s understaffing, which continued to be a challenge at the time
of the audit. As of January 2009, a subcontractor for the implementer had hired only 56 of the 86 employees
that it believed necessary to meet program targets. At the time of the audit, the implementer’s documents
indicated that its subcontractor was still in the process of hiring 30 staff members for the six regional offices
where the program was being implemented. In addition, the implementer had not taken advantage of
opportunities to improve the effectiveness and efficiency of the program, such as limiting the program’s
eligibility period and requiring beneficiaries to present Afghan national identification cards.

Audit of USAID/Afghanistan’s Power Sector Activities Under Its Afghanistan Infrastructure
Rehabilitation Program (Report No. 5-306-10-002-P, November 10, 2009)

Providing electrical power to the Afghan population is crucial to Afghanistan’s development. As a key to
political stability, sufficient, reliable electrical power is especially important for both the capital city of Kabul
and the southern agricultural provinces of Helmand and Kandahar. To improve the availability of electricity
in these areas, USAID/Afghanistan awarded two major task orders under its Afghanistan Infrastructure
Rehabilitation Program to the Louis Berger Inc./Black and Veatch Special Projects Corp. Joint Venture.

OIG’s audit report highlighted problems faced by two power projects in Afghanistan—building a 105-
megawatt plant in Kabul and making improvements in the Kajakai Dam—which were intended to supply
power to key cities and provinces.

The audit concluded that, because of construction delays, USAID had not increased reliable power supplies
to these two areas within the planned timeframes. For the Kabul Power Plant, the delays were caused by an
initial inability to obtain adequate title to land for the power plant, an ambiguous statement of work
resulting in poor planning and implementation, subcontractor performance problems, a lack of onsite
quality assurance, and problems clearing equipment and material through customs. For the Kajakai Dam
project, deteriorating security in southern Afghanistan and inconsistent contractor performance contributed
to the delay.

By May 2009, the USAID-funded projects had completed construction of generators with the ability to
produce only 12 megawatts of power out of the original goal of 140 megawatts—and this increase in power
had not actually been delivered to the Afghan population. As a result, the economic benefits anticipated for
Kabul and the southern provinces of Helmand and Kandahar were not being realized. Additionally, the


USAID OIG Afghanistan and Pakistan Oversight Report                                                               85
contractor estimated that cost overruns attributable to the delays would amount to $39 million to complete
the Kabul Power Plant by December.

The audit also found that the host government might not be able to afford to operate the Kabul Power Plant
because of the rising cost of diesel fuel and the government’s inability to collect revenue for the generated
electricity. Further complicating operation of the power plant is the configuration of the Kabul transmission
system, which does not allow for the use of other power sources at times of year when those power sources
are more competitive.

With regard to subcontractor performance on the Kabul power plant, the audit found that the contractor had
charged USAID for subcontractor costs that the contractor had not paid. The contractor had not paid these
costs because of disputes and questionable claims in subcontractor invoices. The total amount the
contractor received from USAID for these questionable costs (including contractor overhead, fixed fees, and
imputed interest) amounted to an overbilling of USAID by $2.1 million.

As for the Kajakai Dam project, the original subcontractor left after its personnel received kidnapping
threats, and the project could not be completed until a new subcontractor is selected. USAID had to continue
paying the fixed costs of securing and maintaining the facility until work on the plant can be resumed. These
fixed costs amount to an estimated $1 million per month, even though none of the 35 extra megawatts of
power had been delivered.


Pakistan

Audit of USAID/Pakistan’s Pre-Service Teacher Education Program (Report No. F-306-11-003-P,
March 16, 2012)

To improve teacher education in Pakistan, in September 2008 USAID/Pakistan awarded a $37 million
cooperative agreement to the Academy for Educational Development (AED) to implement the Pre-Service
Teacher Education Program (Pre-STEP). After the Government of Pakistan terminated its memorandum of
understanding with AED, USAID canceled the cooperative agreement as well and awarded the program to
EDC.

In its first 3 years, the program made progress toward achieving improved teacher education by developing
and helping the Pakistani Government implement education policy reforms. The Higher Education
Commission approved two new education degree programs based in part on Pre-STEP recommendations.
These programs, introduced with USAID’s support, should ultimately affect teacher training colleges and
universities throughout Pakistan and help improve the overall quality of education. In part because of Pre-
STEP’s efforts, 16 Pakistani teaching institutions have adopted the new degree programs. Pre-STEP plans to
increase the number of colleges and universities offering the new degrees over the next 2 years by
supporting their implementation at target colleges and universities and expanding the number of students
enrolled in the new degree programs.

Despite the progress in developing and implementing policy reforms at the provincial and national levels,
the program did not achieve most of its targets. For example, USAID funded only 410 of 2,297 planned
scholarships to students enrolled in the new teaching curriculum and distributed only 10 of 36 planned


86                                                  USAID OIG Afghanistan and Pakistan Oversight Report
research grants with an average value of $9,000 to teaching institutions in 2011. These shortfalls occurred
in part because key personnel hired to manage the program did not have the necessary management skills.
Another contributing factor was the change in implementers. Even though the mission awarded the new
agreement the day after terminating the AED agreement, EDC still needed time to hire additional staff, find
new office space, develop work plans, and establish internal controls.

In addition, the mission’s technical office had many competing priorities and lacked time to provide
adequate oversight. During the period under review, the mission assigned one agreement officer’s
representative to manage Pre-STEP’s $75 million agreement. This individual was assigned to manage three
other projects whose average budget was $9 million. This situation contributed to the missed targets.

Audit of USAID’s Pakistan Transition Initiative Program (Report No. G-391-12-003-P, February 3, 2012)

Assisting the Government of Pakistan in bringing peace and security to the unstable regions of Pakistan—
FATA and Khyber Pakhtunkhwa—is pivotal to U.S. foreign policy objectives and national security. To
achieve this goal, USAID awarded a 3-year, $102 million contract in September 2009 to implement a portion
of the Pakistan Transition Initiative in FATA and Khyber Pakhtunkhwa. USAID’s OTI manages the program
with a staff of seven located at USAID/Pakistan.

OIG confirmed that the program is a quick, efficient mechanism to deliver projects that the local
communities want—like the suspension bridge pictured on the next page—and it has allowed the
Government of Pakistan to cultivate trust and confidence in its services. Key accomplishments include
48,000 meters of streets paved, 22,800 meters of drainage and sanitation piping constructed, and 7,000
meters of retaining walls built to withstand flooding.

The program formed committees for each project that were made up of community representatives who
then conducted inspections and evaluations throughout project implementation. For example, the audit
team interviewed the community members who had overseen the installation of a water supply system.
They explained that, after extremists destroyed portions of their water system, villagers had been forced to
get water from a distant well, exposing themselves to danger along the path. After the Pakistani military
cleared the area, the program installed a new water tank and pumps.

An overarching goal of the program is to improve relations between the Government of Pakistan and
communities in FATA and Khyber Pakhtunkhwa, thereby reducing violence and extremism. In addition to
the infrastructure projects, the program rehabilitated 92 educational facilities, including the Government
Girls’ High School. After the school closed for several months to house displaced persons during military
operations and sustained significant damage, the program rehabilitated the school and provided school
supplies.

However, OIG found that the mission had not developed a formal written plan with clear criteria linking the
implementation of program activities with long-term activities planned for FATA and Khyber Pakhtunkhwa.
As a result, OTI officials agreed that, if funding stops, the program would collapse.




USAID OIG Afghanistan and Pakistan Oversight Report                                                      87
Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program (Report No. G-391-12-002-P,
November 23, 2011)

To help address power blackouts and other severe supply shortages, USAID/Pakistan awarded a 3-year,
$23.5 million contract in March 2009 to the International Resources Group to focus on training in the energy
sector and on a variety of conservation activities throughout Pakistan. In April 2010, in response to a shift in
U.S. Government strategy, the mission modified the program’s goal to focus on reducing energy demand
through an activity to improve the efficiency of tube wells. This activity was designed to replace irrigation
pumps used by farmers with more energy-efficient models.

In the first year of the program, OIG found that the mission had not achieved the majority of its targets. It
had not helped any distribution companies implementing conservation strategies or any energy companies
evaluating energy efficiency, upgrading equipment, or with energy conservation plans.
It also had trained less than half the energy sector individuals intended.

After the shift in strategy, the mission planned to install 11,000 energy efficient irrigation pumps. Although
a pilot phase determined that the activity was unlikely to succeed, the mission proceeded with the program.
By September of 2011, less than 1,000 pumps, or 9 percent, had been installed. This was the result of
multiple problems, including the mission setting unrealistic goals and budgets. For instance, the mission
budgeted almost $1,500 per pump, but in actuality paid almost $9,000. In addition, partners and
beneficiaries often did not participate as intended. The regional energy distribution company, a key partner,
did not fully support the program and farmers would not pay the additional cost of installing the pumps,
including the costs of masonry and electrical work.

Audit of USAID/Pakistan’s Firms Project (Report No. G-391-12-001-P, November 3, 2011)

To help improve Pakistan’s economic stability, USAID/Pakistan awarded a 4-year, $89.8 million contract to
Chemonics International to implement the Firms Project. In 2010, 14 months after the project began, USAID
modified the project goal to promote economic development in vulnerable areas as an alternative to
extremism.

Despite the mission’s attempt to increase sales and employment in a number of sectors—leather, livestock,
textile, dates, and mangoes—project activities did not increase sales or employment. Efforts to boost sales
and jobs were stalled, and activities to improve competitiveness through economic policy reform were
behind schedule. This is in part because of shifts in the mission’s strategy that resulted in the cancellation of
these activities. In addition, the mission did not set realistic targets. For example, though Chemonics was
tasked with working with the Government of Pakistan to enact regulatory reform, they are not expected to
achieve this by 2013. According to Chemonics, long term reform is a 10- to 12-year process because of all of
the stakeholders involved.

The mission also focused activities around increasing sales and production of mangoes, but these activities
were a year behind schedule. Further, the implementer intended to supply processing equipment to the
mango farmers, but did not deliver them on schedule. One farmer did receive all of the equipment promised,
but was unable to operate it because a design flaw prevented its assembly.




88                                                    USAID OIG Afghanistan and Pakistan Oversight Report
Although a performance management plan was approved by the mission, it did not comply with Agency
standards. As a result, sales and employment figures were overstated and methods for collecting data were
inconsistent and unreliable. In addition, the contracting officer’s technical representative did not provide
sufficient monitoring and oversight, in particular for the procurement process.

For instance, the contracting officer’s technical representative did not conduct any site visits to the project
and approved over 20 invoices without knowing whether the material ordered had been received.
Consequently, the mission did not discover multiple problems in the process.

Audit of USAID/Pakistan’s Community Rehabilitation Infrastructure (Report No. G-391-11-006-P,
August 29, 2011)

One of the many problems facing Pakistan is poor infrastructure for delivering basic human services such as
education, health care, water supply, sanitation, electricity, and transportation. To address these issues,
USAID/Pakistan signed a 5-year, $150 million cooperative agreement with Winrock International to
implement the Community Rehabilitation Infrastructure Support Program.

OIG found that the program had made very little progress toward achieving any of the main goals of the
project. Although tasked with rebuilding or renovating up to 2,000 schools and constructing up to
350 small- to medium-sized infrastructure projects, the program was far behind schedule. Specifically, more
than 2 years after signing the agreement, the mission had completed only four minor renovations of
universities, six career centers, two design projects, and conducted two feasibility studies and the
procurement of furniture and equipment for a children’s health institute.

Part of the program’s lack of progress was due to poor program design. Although Winrock is the main
implementer, 70 percent of the award’s budget was implemented by subcontractors, who in turn also
employed subcontractors. Employing multiple subcontractors led to duplicate layers of construction
oversight. According to the mission, Winrock did not have the staff or technical expertise to monitor
subcontractors’ management of the projects effectively. In the few cases where projects were completed,
the mission often did not consider whether the project could be sustained. For instance, $900,000 worth of
furniture and equipment was delivered to the Khyber Institute of Child Health in Peshawar, but a year after
its delivery, most of the material remained in storage unused. The institute’s director said that the institute
did not have the funding to support the operations of the facility, adding that he could not even pay the
monthly electric bill. By not ensuring that the institute was viable, the mission spent more than $900,000
that could have been put to better use.

Moreover, an internal control was often bypassed to approve projects above $500,000, which according to
the project’s activity approval document, required written consent. When the new mission director did not
want to authorize the projects, the mission established an unwritten policy to bypass this step and approved
nearly $13 million in projects that did not follow the program’s objectives. Furthermore, the mission
approved cost-sharing contributions from the project that cannot be supported.




USAID OIG Afghanistan and Pakistan Oversight Report                                                         89
Audit of USAID/Pakistan’s Road Rehabilitation and Reconstruction Activities Under the Quick Impact
Projects in South Waziristan (Report No. G-391-11-005-P, June 20, 2011)

In 2009, the Governments of Pakistan and the United States signed a strategic agreement that provided a
commitment to help generate broad-based economic growth through infrastructure development.
According to the agreement, USAID is providing $55 million directly to the FATA Secretariat to implement
Quick Impact Projects (i.e., rebuild roads, develop water infrastructure, and improve power systems).

OIG conducted an audit of these activities in South Waziristan, part of FATA. Despite some difficulties OIG
noted with mission operations, auditors determined that the road rebuilding efforts were on track. Two
sections of road totaling 215 kilometers were completed to specifications and had met all requirements for
reimbursement by USAID. Although security issues caused some delays, work progressed on schedule.
Multiple site visits by officials from the local satellite office in Peshawar strengthened the management of
the road activities, and the use of fixed-amount reimbursement agreements reduced financial risk to the
program.

The FATA Secretariat hired the Frontier Works Organization (Frontier Works) of Pakistan to carry out road
activities. For additional support, Frontier Works subcontracted with the Pakistani engineering firm
National Engineering Services Pakistan Limited (NESPAK). Both Frontier Works and NESPAK have
extensive experience building roads and other infrastructure projects, and both will work on all of the Quick
Impact Projects in South Waziristan, including the water infrastructure and power systems. OIG found that
these two entities contributed to the initial success of the road activities.

Despite early successes, however, OIG found room for improvement. The scope of work for the contractor to
build the capacity of the FATA secretariat was too broad, and subsequent changes caused deliverables to be
far behind schedule. Contract files were missing critical documentation such as branding and marking
plans, site visit reports, meeting notes, and correspondence with contractors, including documentation
related to extensions and justifications. Environmental assessments did not meet regulations and caused
delays of up to 5 months. In addition, although no ethical problems arose, neither the mission nor the
contractor had ethics procedures or policies in place, as required, to ensure that employees working on
projects were aware of the USAID’s ethical standards and its position on conflicts of interest.

Audit of USAID/Pakistan’s Management of Preaward Assessments (Report No. G-391-11-004-P, May 6,
2011)

The Enhanced Partnership with Pakistan Act of 2009 (Public Law 111-73) authorized $7.5 billion in U.S.
government assistance over 5 years to promote an enhanced strategic partnership with Pakistan and its
people. In authorizing these funds, the act encourages the use of Pakistani firms and nongovernmental
organizations to work with local leaders to build local capacity. To facilitate this strategy, USAID estimated
that approximately 50 percent of fiscal year 2010 funding, or $750 million, would go through Pakistani
federal and provincial agencies and local organizations.

With the implementation of the strategy to build Pakistani capacity, concerns have been raised in the media
and the U.S. Government that providing too much money to Pakistani recipients too quickly could jeopardize
U.S. funds. USAID/Pakistan recognized the challenges and took proactive steps to address the risks. A key
step taken by the mission was to contract with international and local accounting firms to conduct preaward


90                                                  USAID OIG Afghanistan and Pakistan Oversight Report
assessments of potential first-time recipients. The intent of these assessments is to determine whether the
recipients can effectively manage and account for these funds.

OIG’s audit on USAID/Pakistan’s management of preaward assessments found that mission’s preaward
process provided a reasonable basis for identifying significant financial management vulnerabilities;
however, the audit noted weaknesses in the mission’s management of the preaward process. The mission
did not prioritize or follow up on significant vulnerabilities identified in assessments. Of the 28 assessment
reports completed during fiscal year 2010, the 8 selected for testing noted over 250 weaknesses in the
potential recipients’ ability to manage funds properly. The mission included 55 of the reported weaknesses
in the recipients’ agreements and stipulated that the weaknesses should be adequately addressed before or
after the initial disbursement of funds. The mission did not include or otherwise address the remaining 195
weaknesses because it did not have a comprehensive plan for prioritizing and determining which of the 250
weaknesses should or should not be prioritized.

Many weaknesses resulted from the mission not including in the recipients’ agreements information on the
recipients’ payment mechanisms and systems for procurement, accounting and overall monitoring and
assessment.

Audit of USAID/Pakistan’s Flood Relief Efforts as Administered by Local Nongovernmental
Organizations (Report No. G-391-11-003-P, January 24, 2011)

Heavy rainfall in multiple regions of Pakistan led to devastating flooding in July 2010. The flooding affected
82 of Pakistan’s 122 districts and displaced 12 million people, half of whom required humanitarian
assistance.

USAID/Pakistan committed $10 million for emergency flood relief efforts through cooperative agreements.
Five million dollars was awarded to two Pakistani NGOs: the Pakistan Poverty Alleviation Fund (PPAF) and
Rural Support Programmes Network.

The two NGOs were to provide immediate relief in the provinces of Balochistan, Punjab, Sindh, and Khyber
Pakhtunkhwa in the form of food hampers and hygiene kits, and medical supplies to an affected population
of 190,058 people.

OIG conducted this audit to determine whether USAID/Pakistan’s flood relief efforts were meeting the
immediate needs of the flood victims. To answer the audit objective, we reviewed mission documentation
related to managing and monitoring the program, including implementation plans, implementing partner
agreements, performance measures, and performance results.

Auditors found that USAID/Pakistan’s implementing partners delivered food hampers, hygiene kits, and
medical supplies to meet the immediate needs of the flood victims. As of November 15, 2010, the two
implementers reported distributing food and hygiene kits to 80,098 households and administering medical
supplies and treatment to an affected population of 159,620 people and 307,116 livestock.

Auditors observed that PPAF issued food hampers and hygiene kit tokens to each household. PPAF
established separate teams for token registration, token distribution, and distribution of the relief items. In



USAID OIG Afghanistan and Pakistan Oversight Report                                                         91
establishing a distribution policy, PPAF gave priority to households that had not received any aid from other
donors.

Auditors observed that PPAF teams followed the organization’s distribution policy. First, the team
responsible for distribution of the relief items matched recipients’ tokens and Pakistani national identity
cards to recipients’ names on the master token distribution list. Second, the team directed recipients to a
counter where they exchanged their tokens for food hampers and hygiene kits. Lastly, the team collected
recipients’ signatures or thumb impressions to record the transaction.

Audit of USAID/Pakistan’s Livelihood Development Program for the Upper Region of the Federally
Administered Tribal Areas (Report No. G-391-11-002-P, December 10, 2010)

FATA has high unemployment, widespread poverty, and separate legal structures. Located in northwestern
Pakistan, FATA shares its rugged and mountainous border with Afghanistan. Extremist and terrorist groups
take advantage of the geographic and social isolation and lack of governing systems to exert their influence
on the people of this region. Development in FATA has become vital to Pakistan’s progress in fighting
insurgents.

The main goal of the Livelihood Development Program is to provide social and economic stabilization in
FATA to counter the growing influence of extremist groups. The program has three components: 1) creating
jobs, increasing incomes, and teaching employable skills with a focus on unemployed youth, 2) revitalizing
community infrastructure and essential services, and 3) supporting established businesses and developing
new sustainable businesses.

After a review of the first 2 years of activities, OIG found that the program has not achieved its main goal of
social and economic stabilization to counter the growing influence of extremist and terrorist groups in
upper FATA. The mission had no baseline data to determine progress toward countering the influence of
these groups. In addition, the program had executed only 53 percent of planned activities, and program
outcomes were weak.

Security issues were the main cause of the delays and poor performance. Specific incidents included the
assassination of the chief of party for the implementer working in lower FATA, the kidnapping of an aid
worker, and threats to monitoring teams. Allegations of wrongdoing also impeded progress. The
implementer stated that program activities were delayed because the implementer had to counter these
allegations and because of additional tiers of oversight put in place to ensure greater accountability.
Moreover, program activities stopped for 6 months until security measures were improved and a new chief
of party was appointed.

Two additional factors contributed to program delays. First, USAID/Pakistan used program resources to
provide humanitarian and disaster assistance to flood victims and internally displaced persons fleeing
conflict areas of FATA. The assistance began in August 2008, only months after the upper FATA program
started, and continued until the implementer’s termination. Mission officials acknowledged that the work
diverted time and resources from Livelihood Development Program activities. Second, in September 2009
the U.S. Department of State (State Department) initiated a shift in strategy toward using more Pakistani
institutions to implement USAID programs. During this time, all USAID/Pakistan incremental funding



92                                                   USAID OIG Afghanistan and Pakistan Oversight Report
requests went through the State Department for approval. The delays in incremental funding created more
budgetary problems for the program.

Despite some successes, overall progress for program activities was slow, largely because of the intervening
factors already mentioned. Although some factors were beyond the mission’s control, USAID/Pakistan
needed to address the following problems that were within its control. USAID/Pakistan staff did not follow
management controls. Technical staff in the mission addressed contractual matters that should be handled
only by the agreement officer or took action without proper approvals. Additionally, USAID/Pakistan relied
on contractors to perform services closely related to inherently governmental functions. A third-party
contractor’s conflict of interest in overseeing another contractor’s work created risks when the mission did
not address the gap in services created by the conflict.

The audit showed that performance deteriorated when USAID/Pakistan staff overrode management
controls and bypassed organizational structures. Much time and funding went toward disaster response
and emergency relief efforts, draining resources from the planned Livelihood Development Program
activities. In addition, allowing outside pressures to take precedence over important management controls
contributed to poor program results.

Audit of USAID/Pakistan’s Livelihood Development Program for the Lower Region of the Federally
Administered Tribal Areas (Report No. G-391-11-001-P, December 10, 2010)

Pakistan’s mountains FATA is located on the border with Afghanistan. FATA is one of the most
underdeveloped regions in Pakistan, where only 17 percent of the overall population is literate. FATA’s
weak economy, widespread unemployment, lack of social services, and ineffective government make it
susceptible to the spread of extremism. According to USAID/Pakistan, countering extremist influences in
FATA will require a robust economic development program. In response to this need, USAID/Pakistan
established the FATA Livelihood Development Program.

The main goal of the program is to provide social and economic stabilization in FATA to counter the growing
influence of extremist groups. To measure progress in attaining this goal, the mission established outcome
measures and targets for each measure. Targets for the program include creating 29,375 long-term jobs and
reaching a goal of 55 percent of FATA citizens expressing satisfaction with the basic public services by
March 2013.

OIG audited the program to determine whether it was achieving its main goal of social and economic
stabilization in the lower FATA region.

The audit found that USAID/Pakistan had made little progress in reaching annual targets. The main cause
for the program achieving so little was the hostile environment in FATA. The implementing partner
experienced kidnappings, harassments, and the tragic assassination of its chief of party in November 2008;
consequently, program activities stopped for 6 months until security measures were improved and a new
chief of party took office. During this time, the implementing partner relocated its country office from
Peshawar to Islamabad.

Although the hostile situation contributed to the program’s limited results, the mission did not ensure
adequate monitoring and oversight to achieve program goals. In addition, the program’s ability to achieve


USAID OIG Afghanistan and Pakistan Oversight Report                                                      93
planned results was hindered by a strategic shift in U.S. Government strategy and the mission’s request to
provide humanitarian assistance activities. In September 2009, the U.S. Government’s strategy shifted
toward greater involvement of Pakistani organizations in implementing U.S. assistance programs. As a
result, the mission began to rethink its strategy of providing the bulk of its program assistance through U.S.-
based implementers.

As a result of the setbacks and shifts in implementation, program funds were not used efficiently. For
example, according to the implementing partner, it expended $29.2 million in the first 2 years of the
program; however, only $7.6 million was spent on direct program activities, $2.7 million of that going to
humanitarian assistance activities.

Audit of USAID/Pakistan’s Family Advancement for Life and Health Program (Report No. 5-391-10-
012-P, August 31, 2010)

In 2007, USAID/Pakistan signed a cooperative agreement with the Population Council, a U.S.-based
nongovernmental organization, to implement the Family Advancement for Life and Health Program
(FALAH). FALAH is a 5-year, $60.4 million program intended to increase demand for and use of birth
spacing and family planning services in 26 districts in Pakistan. The country has a relatively high rate of
population growth, and in 2009 the estimated Pakistani population was about 181 million—the sixth largest
in the world.

OIG’s audit found that FALAH was achieving its main goals. Among its accomplishments were:

     An increased demand for family planning services. Program implementers provided family planning
     information to more than 2 million men and women. In addition, program messages on birth spacing
     and family planning services blanketed the media. Almost 28,000 commercials were aired during
     November and December 2009 alone.

     Improved family planning services in the public sector. Program implementers placed a team of master
     trainers in each of the 26 program districts. The trainers were expected to support group meetings in
     the community and help public health-care providers better serve their clients. Fifty-nine percent of all
     public service delivery points in the FALAH districts had trained providers for family planning
     counseling and services in their facilities. Furthermore, FALAH planned to equip 80 percent of public
     service delivery points in program districts to provide appropriate family planning services by the end
     of the program.

     Improved family planning services in the private sector. Improved family planning services in the private
     sector were being led by Greenstar Social Marketing, a Pakistani nongovernmental organization. The
     program hoped to expand the number of Greenstar health-care providers to 1,000 in the program’s
     rural areas. As of December 31, 2009, Greenstar had established 557 new providers and completed
     training for more than 4,000 health-care providers overall. Greenstar also conducted meetings at
     factories and other workplaces to discuss the benefits of birth spacing and was operating a national
     hotline serviced by its physicians.




94                                                   USAID OIG Afghanistan and Pakistan Oversight Report
Audit of USAID/Pakistan’s Primary Healthcare Revitalization, Integration and Decentralization in
Earthquake-Affected Areas Project (Report No. 5-391-10-010-P, June 28, 2010)

On October 8, 2005, a magnitude 7.6 earthquake in northern Pakistan claimed more than 74,000 lives and
left 3.5 million people homeless. More than half of the deaths occurred in the Mansehra District in the
North-West Frontier Province (subsequently renamed Khyber Pakhtunkhwa) and the Bagh Districts of Azad
Jammu and Kashmir. Thousands of teachers, health-care providers, and civil servants were among those
killed or badly injured. Public systems that had supported essential services, including logistics and
administration for health care, no longer existed. In response to this disaster, USAID/Pakistan designed the
Primary Healthcare Revitalization, Integration, and Decentralization in Earthquake-Affected Areas Project
and awarded a $28.5 million cooperative agreement to the International Rescue Committee, a U.S.-based
nongovernmental organization, to provide technical support to the public sector health system in the
earthquake-affected districts of Mansehra and Bagh through a consortium of implementers including
Management Sciences for Health, Jhpiego, and the Population Council. The project’s three main goals were
to (1) improve public health service and management system performance, (2) increase access to primary
health-care services, and (3) promote healthier behaviors and community participation in health services.

The audit found that the project had contributed to improving the quality of primary health-care services,
but much work needed to be done to improve access to these services—particularly with regard to referring
patients to facilities that offer a higher level of health care when patients’ conditions could not be treated at
primary health-care facilities.

To promote wider access to such services, the project had planned to strengthen the patient referral system.
However, the preliminary planning for improving the referral system was completed a year later than
anticipated, and—at the time of the audit—an improved system had not yet been implemented. Delays were
attributed to the lack of availability of Government of Pakistan staff scheduled to work with the project
implementer. Moreover, other project activities took precedence over revamping the patient referral
system.

Review of USAID’s Internally Displaced Persons Programs in Pakistan (Report No. 5-391-10-001-S,
June 28, 2010)

Between August 2008 and September 2009, conflict between the Government of Pakistan and militant
groups in the North-West Frontier Province (subsequently renamed Khyber Pakhtunkhwa) and the FATA
displaced over 400,000 Pakistani households. While many displaced persons took shelter with host families,
the remaining families took shelter in official Pakistani Government-run camps. As the internally displaced
persons (IDPs) crisis escalated in May 2009, USAID and other U.S. Government agencies responded quickly
by providing humanitarian assistance to Pakistani IDPs. USAID obligated more than $285 million in
humanitarian assistance for the crisis, of which more than half was for food aid.

Despite the deteriorating security situation in Pakistan, USAID responded immediately to provide rapid
assistance through 21 nongovernmental organizations, 5 U.N. organizations, a contractor, and the
Government of Pakistan. USAID’s programs consisted of support for the immediate needs of people who
were displaced and for people returning to their areas of origin after the conflict in their home areas had
diminished.



USAID OIG Afghanistan and Pakistan Oversight Report                                                           95
Although USAID carried out numerous displaced persons programs in Pakistan, OIG found that monitoring
and evaluation methods needed improvement. Specifically, USAID’s alternative monitoring methods—used
to monitor activities in dangerous and insecure areas, like FATA—needed to be strengthened. In addition,
USAID had not implemented monitoring controls that were meant to provide reasonable assurance that $44
million in cash-transfer funds had actually reached 140,000 displaced families as intended.

USAID/Pakistan’s Capacity Building Program for the Federally Administered Tribal Areas
Development Program (Report No. 5-391-10-005-P, January 28, 2010)

This audit pointed to several implementation difficulties in USAID’s capacity building programs in the FATA
of Pakistan. The FATA region, which is the most economically depressed area of the country, has a
population with a literacy rate estimated at only 17 percent, and 66 percent of people live below the national
poverty line.

Local Pakistani institutions responsible for overall governance, health care, education, and public works
projects lack the capacity to manage services and development resources effectively. In an attempt to
remedy this problem, in 2008 USAID awarded a 3-year, $46 million contract to Development Alternatives
Inc. to increase the capacity of these institutions.

OIG’s audit found that, although the program had provided training, taken initial steps to automate FATA
institutions, and completed some media activities, little had yet been achieved to build the capacity of FATA
governmental institutions and NGOs responsible for providing services. The program had been in place for
nearly 2 years of its 3-year planned lifespan, and it had not made significant progress with two of the
program’s main goals: improving institutions’ capacity to govern, and improving the capacity of NGOs to
promote good governance.

Some of the problems could be attributed to the fact that the program had gotten off to a slow start. During
the first year, the contractor focused its resources on working out best approaches to designing and
implementing activities, building up relationships with FATA institutions, and developing work plans. Also,
the deteriorating security situation in Peshawar and the November 2008 assassination of the chief of party
of another USAID program delayed progress in the FATA capacity building program.

Moreover, although the program had implemented a few activities to address FATA NGO weaknesses, the
few FATA-based NGOs that existed lacked the human and financial resources to promote good governance
effectively. In most instances, FATA NGOs needed to strengthen their proposal preparation skills, financial
management practices, and monitoring and evaluation capabilities before they could start to promote good
governance.

Because of a high-level change of emphasis in U.S. Government strategy toward greater involvement of
Pakistani organizations in implementing assistance programs, the mission began to rethink its strategy of
providing the bulk of its program assistance through U.S.-based implementers such as DAI. As a result, in
June 2009 the mission refrained from fully funding a DAI incremental funding request of $15.3 million and, 4
months later, approved only $4.7 million in additional funds. In October 2009, the mission asked DAI to
consider preparing a 90-day demobilization plan. However, as of mid-November 2009, no final decision had
been made as to whether the DAI contract would undertake early demobilization and termination or, if
terminated, what program implementation mechanisms would replace the U.S.-based contractor.


96                                                  USAID OIG Afghanistan and Pakistan Oversight Report
In addition to the difficulties associated with the transition to a new implementation strategy, the audit
found that overall capacity building in automation had achieved little success, and most of the computer
hardware purchased for the program remained boxed up and unused. Furthermore, monitoring and
reporting systems for managing development projects—such as a geographic information system that
enables project information to be represented on maps and a database system to document the life cycle of
development projects—have not been completed, and they may not be completed until June 2010.




USAID OIG Afghanistan and Pakistan Oversight Report                                                    97
Abbreviations
AACC       Ahsan Aman Construction Company

AED        Academy for Educational Development

ATVI       Afghanistan Technical Vocational Institute

AUAf       American University of Afghanistan

CERP       Commander's Emergency Response Program

DAB        Afghanistan Central Bank

DAI        Development Alternatives Inc.

DCAA       Defense Contract Audit Agency

DOD        Department of Defense

EDC        Education Development Center Inc.

FALAH      Family Advancement for Life and Health Program

FATA       Federally Administered Tribal Areas

FY         fiscal year

GAO        Government Accountability Office

IDP        internally displaced person

IEP        Increased Electoral Participation in Afghanistan

IOM        International Organization for Migration

ISMA       involuntary separate maintenance allowance

KVO        Kunar Vocational Organization

KWO        Khushal Welfare Organization

LBGI/B&V   Joint Venture Louis Berger Group Inc./Black & Veatch Special Projects Corp.

LGCD       Local Governance and Community Development

MoPH       Ministry of Public Health, Government of the Islamic Republic of Afghanistan


98                                          USAID OIG Afghanistan and Pakistan Oversight Report
NAB           National Accountability Bureau, Government of Pakistan

NESPAK        National Engineering Services Pakistan Limited

NGO           nongovernmental organization

NMSU          New Mexico State University

NRSP          National Rural Support Programme

OAA           Office of Acquisitions and Assistance, U.S. Agency for International Development

OIG           Office of Inspector General, U.S. Agency for International Development

OTI           Office of Transition Initiatives, U.S. Agency for International Development

PPAF          Pakistan Poverty Alleviation Fund

PPR           Pakistan Public Procurement Rules of 2004

Pre-STEP      Pre-Service Teacher Education Program

PSC           private security contractor

STEP          Support to the Electoral Process

USAID         U.S. Agency for International Development

WFP           World Food Programme




USAID OIG Afghanistan and Pakistan Oversight Report                                              99
USAID Office of Inspector General
  1300 Pennsylvania Ave, NW
    Washington, DC 20235
      www.usaid.gov/oig
         202.712.1150
